<html>
<title> - LEGISLATIVE HEARING ON: H.R. 3216, H.R. 4150, H.R. 4764, H.R. 5047, H.R. 5083, H.R. 5162, H.R. 5166, H.R. 5392, H.R. 5407, H.R. 5416, H.R. 5420, AND H.R. 5428</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  LEGISLATIVE HEARING ON: H.R. 3216, H.R. 4150, H.R. 4764, H.R. 5047, 
H.R. 5083, H.R. 5162, H.R. 5166, H.R. 5392, H.R. 5407, H.R. 5416, H.R. 
                          5420, AND H.R. 5428

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, JUNE 23, 2016

                               __________

                           Serial No. 114-75

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
       


         Available via the World Wide Web: http://www.fdsys.gov
                     
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-209 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7908798b7948284839f929b87d994989ad9">[email&#160;protected]</a>                      
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                        Thursday, June 23, 2016

                                                                   Page

Legislative Hearing On: H.R. 3216, H.R. 4150, H.R. 4764, H.R. 
  5047, H.R. 5083, H.R. 5162, H.R. 5166, H.R. 5392, H.R. 5407, 
  H.R. 5416, H.R. 5420, and H.R. 5428............................     1

                           OPENING STATEMENTS

Honorable Jeff Miller, Chairman..................................     1
Honorable Corrine Brown, Ranking Member..........................     3

                               WITNESSES

The Honorable Dina Titus, U.S. House of Representatives, 
  Committee Member...............................................     4
The Honorable Raul Ruiz, U.S. House of Representatives, Committee 
  Member.........................................................     6
The Honorable Beto O'Rourke, U.S. House of Representatives, 
  Committee Member...............................................     7
The Honorable Ron DeSantis, U.S. House of Representatives, 
  Committee Member...............................................     8
The Honorable Ted Yoho, U.S. House of Representatives, Committee 
  Member.........................................................     9
    Prepared Statement...........................................    37
The Honorable Jody Hice, U.S. House of Representatives, Committee 
  Member.........................................................    11
    Prepared Statement...........................................    38
The Honorable Dan Newhouse, U.S. House of Representatives, 
  Committee Member...............................................    12
The Honorable David Young, U.S. House of Representatives, 
  Committee Member...............................................    13
    Prepared Statement...........................................    38
The Honorable Doug Lamborn, U.S. House of Representatives, 
  Committee Member...............................................    15
    Prepared Statement...........................................    39
The Honorable Sloan Gibson, Deputy Secretary, U.S. Department of 
  Veterans Affairs...............................................    17
    Prepared Statement...........................................    40

        Accompanied by:

    Ms. Laura Eskenazi, Executive in Charge and Vice Chairman, 
        Board of Veterans Appeals, U.S. Department of Veterans 
        Affairs

    Mr. David McLenachen, Deputy Under Secretary for Disability 
        Assistance, Veterans Benefits Administration, U.S. 
        Department of Veterans Affairs

    Dr. Maureen McCarthy, Assistant Deputy Under Secretary for 
        Health Patient Care Services, Veterans Health 
        Administration, U.S. Department of Veterans Affairs

Mr. Raymond Kelley, Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    19
    Prepared Statement...........................................    45
Mr. Paul Varela, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    21
    Prepared Statement...........................................    52
Mr. Carl Blake, Associate Executive Director of Government 
  Relations, Paralyzed Veterans of America.......................    23
    Prepared Statement...........................................    62
Mr. Louis J. Celli, Jr., Director, National Veterans Affairs and 
  Rehabilitation Division, The American Legion...................    24
    Prepared Statement...........................................    68
Mr. Rick Weidman, Executive Director for Policy and Government 
  Affairs, Vietnam Veterans of America...........................    26
    Prepared Statement...........................................    74

                       STATEMENTS FOR THE RECORD

American Battle Monuments Commission.............................    80
AMVETS...........................................................    82
Court of Appeals for Veterans Claims.............................    86
Iraq and Afghanistan Veterans of America.........................    88
Military Officers Association of America.........................    91
Military Veterans Advocacy, Inc..................................    93
National Organization of Veterans Advocates......................    94
National Veterans Legal Services Program.........................   100
P.A.W.S. Foundation..............................................   105
U.S. Department of Labor.........................................   106

                  QUESTIONS AND ANSWERS FOR THE RECORD

From NOVA........................................................   108
From MOAA........................................................   109
From The American Legion.........................................   109

 
  LEGISLATIVE HEARING ON: H.R. 3216, H.R. 4150, H.R. 4764, H.R. 5047, 
H.R. 5083, H.R. 5162, H.R. 5166, H.R. 5392, H.R. 5407, H.R. 5416, H.R. 
                          5420, AND H.R. 5428

                              ----------                              


                        Thursday, June 23, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:30 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, 
Benishek, Huelskamp, Coffman, Wenstrup, Abraham, Zeldin, 
Costello, Radewagen, Brown, Titus, Ruiz, O'Rourke, and 
McNerney.

           OPENING STATEMENT OF JEFF MILLER, CHAIRMAN

    The Chairman. The Committee will come to order. Good 
morning. It seems like I just saw a few of you a couple of 
hours ago, but it is great to see you again. Thanks for joining 
us for today's legislative hearing. Before we begin discussing 
the many bills on our agenda this morning, I want to touch on 
one important issue regarding our ongoing efforts to instill a 
culture of accountability across the Department of Veterans 
Affairs.
    Last week with no notice to me or anyone else on this 
Committee, Secretary McDonald unilaterally decided to no longer 
use the expedited removal authority that Congress provided in 
the Veterans Access Choice and Accountability Act. I think this 
action was improper and is a prime example of the cavalier 
attitude that VA has towards holding employees accountable for 
their actions. To be clear I completely disagree with the 
administration's actions to singlehandedly abandon a sweeping 
bipartisan bill that the President eagerly signed just two 
years ago. However, in the coming days, I will introduce a 
measure to address the appointments clause issue that's been 
laid out by the Department of Justice, and ensure that VA has 
every necessary tool to hold leaders, managers, and other 
employees to account.
    Turning to the matter at hand this morning, today we are 
going to consider 12 measures pending before our Committee. 
These bills are bipartisan in nature and cover a wide range of 
health, benefits, burial, and education issues that face 
America's veterans and their families. The bills also have 
minimal to no cost. And until the Members of this Committee can 
agree on acceptable offsets going forward so that our 
legislation complies with congressional budget rules, the scope 
of legislation that we will review and mark up will be 
necessarily limited absent some emergency. I look forward to 
receiving any constructive recommendations regarding offsets 
within the Committee's jurisdiction that we may once again 
advance on a bipartisan basis.
    Many of the bills' sponsors are here with us today to 
discuss their proposals, and I thank them for their work. There 
are two bills in particular that I want to highlight, beginning 
with a bill that I introduced, H.R. 5420. It would authorize 
the American Battle Monuments Commission to acquire, operate, 
and maintain the Lafayette Escadrille Memorial that is located 
just outside of Paris. The ABMC is a Federal agency that is 
responsible for managing overseas monuments and cemeteries from 
World War I and World War II. The Lafayette Squadron included 
269 American volunteers who flew combat missions with French 
units before the U.S. entered World War I. After the United 
States entered the war on April 6, 1917, most of the Escadrille 
pilots joined the U.S. Air Service and helped train American 
Pilots. In total, 68 members of the Escadrille lost their lives 
in air combat over France, and 49 of these brave Americans are 
entombed in the Escadrille Memorial.
    The Lafayette Escadrille Memorial Foundation has managed 
the memorial since its dedication in 1928. However, the 
foundation does not have adequate funds to continue its work. 
With the agreement of the French government, the foundation has 
requested that the ABMC assume responsibility for the 
memorial's operation and maintenance, and it is my 
understanding that the ABMC will not require additional funds 
to preserve the memorial. It is entirely appropriate that our 
government assume the solemn responsibility of ensuring that 
the sacrifice of those who lost their lives in the service of 
our Nation during World War I will never be forgotten.
    I also want to discuss H.R. 5083, the VA Appeals 
Modernization Act of 2016 which is sponsored by Congresswoman 
Titus, the Ranking Member of the Subcommittee on Disability 
Assistance and Memorial Affairs. Veterans have the right to 
expect that their claims for benefits will be decided 
correctly, consistently, and in a reasonable amount of time. 
However, if a veteran decides to appeal a decision, the appeals 
process must be thorough, swift, and fair. Unfortunately VA's 
current broken appeals process is not meeting any of those 
standards. As of July 1st of 2015, there were 375,000 appeals 
pending in VA, including at the Board of Veterans Appeals. 
However, as of June 1st, 2016 there were almost 457,000 appeals 
pending, an increase of 82,000 pending appeals in a little more 
than a year. Even worse, the 2015 Board of Veterans Appeals 
annual report projects that the number of appeals certified to 
the Board will increase from 88,183 this year to 359,807 in 
fiscal year 2017, which would be a 400 percent increase from 
one year to the next.
    This appeals backlog explosion has occurred even though 
during the last four fiscal years Congress has appropriated a 
total of $8 billion for the Veterans Benefit Administration, 
$200 million more than the President's request of $7.8 billion. 
Obviously Congress must act, and the sooner the better.
    H.R. 5083 is the result of several days of an intense 
negotiation among the VA, the veterans service organizations, 
and other veteran advocates. Everyone involved deserves a great 
amount of credit for their efforts to tackle the current 
appeals process. However, I do have some questions about how 
H.R. 5083 would improve the current system. For example the 
bill would allow veterans to keep an appeal active 
indefinitely, as long as the veteran submits new and relevant 
evidence once a year. So it is hard to imagine how the appeals 
backlog can be reduced without inserting finality into the 
process. I am also troubled that VA has not yet provided a 
concrete plan or a detailed cost estimate for addressing the 
current appeals backlog while implementing the changes that 
would be required by H.R. 5083, and I hope that we will get 
some answers today.
    With that, I yield to the Ranking Member Ms. Brown for her 
opening statement.

       OPENING STATEMENT OF CORRINE BROWN, RANKING MEMBER

    Ms. Brown. Thank you, Mr. Chairman. And let me first of all 
thank you for agendaing these 12 bills today.
    Today I am here in support of H.R. 5407, the Homeless 
Veterans with Children Reintegration Act, which is very near 
and dear to my heart.
    As everyone on this Committee knows, eliminating veteran 
homelessness has been a top goal here, as well as the 
Departments of Veterans Affairs, Labor, and Housing and Urban 
Development.
    Tremendous progress has been made, but the truth is 
homeless veterans still struggle in many communities, my 
district included.
    Despite the efforts of many committed community members and 
local officials, I frequently see and talk with homeless 
veterans on the streets when I am home.
    To be clear, there are men and women veterans with children 
who are homeless. But all too often, those conversations are 
with women veterans with children. In fact, women with children 
are the fastest growing segment of the general homeless 
population.
    Their stories break my heart. Unless these veterans find 
safe housing for their children and connect with health care, 
transportation, and child care, they will struggle to find 
employment and maintain custody of their children.
    There is nothing I want to do more as a Member of Congress 
than to find ways to help homeless veterans with families.
    That's is why this bill I am advocating for today directs 
the Secretary of Labor to put homeless veterans with dependent 
children at the top of the list to receive services through the 
Homeless Veterans Reintegration Program. (HVRP) program 
provides grants to local workforce boards, nonprofits, and 
community and faith-based organizations to help homeless 
veterans find work.
    In my district, I have seen the success of this program 
through the work of the Sulzbacher Center, and there are two 
others, in fact, Five Star and also Clara White. Clara White, I 
visited that center with the Secretary, and Five Star I visited 
with you, Mr. Chairman. We know that they are great programs. 
In fact, with the help of the grants from this program, several 
centers in Florida are providing employment and training 
services to homeless veterans so that they can find substantial 
employment.
    By making veterans with children the priority to receive 
this temporary housing and the wrap around services necessary 
to support a single working parent with children, it is my hope 
that vulnerable families will stabilize, move on to permanent 
housing and employment, and one by one never be forced to spend 
another night in an unsafe environment.
    My bill would also require DOL to study access to shelters, 
safety, and other relevant services for homeless veterans with 
dependent children. This information would help us understand 
the problems to identify opportunities to resolve issues facing 
homeless veterans with children. I appreciate the statement for 
the record submitted by the DOL Assistant Secretary Mike 
Michaud, and I am happy to work with him going forward to make 
improvements to the bill. And I also want to mention, he also 
attended these centers with me.
    I urge my colleagues to support H.R. 5407, the Homeless 
Veterans with Children Reintegration Act, and look forward to 
the testimony of the witnesses here today.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    The Chairman. Thank you very much, Ms. Brown. It is my 
honor to be joined this morning by several of our colleagues 
who have sponsored measures on today's agenda. The Members 
testifying on our first panel are the Honorable Doug Lamborn, 
Committee Member from Colorado; the Honorable Dina Titus, 
Committee Member from Nevada; the Honorable Raul Ruiz, 
Committee Member from California; the Honorable Beto O'Rourke, 
Committee Member from Texas; the Honorable Ron DeSantis from 
Florida; the Honorable Ted Yoho from Florida; the Honorable 
Jody Hice from Georgia; the Honorable Dan Newhouse from 
Washington; and the Honorable David Young from Iowa. I want to 
thank you all, of you, for being here this morning. And I will 
recognize Ms. Titus for five minutes.

           OPENING STATEMENT OF HONORABLE DINA TITUS

    Ms. Titus. Well thank you very much, Mr. Chairman. And 
thank you for including H.R. 5083, the Veterans Appeals 
Modernization Act of 2016, on the agenda today. I appreciate 
your highlighting it and you point out some of the things I am 
going to mention in my comments as well, about the need for an 
appeals reform. So thank you very much.
    When I became a Member of this Committee and the Ranking 
Member of the Disability Assistance and Memorial Affairs 
Subcommittee back in 2013, much of the focus of the VA was on 
the disability claims backlog. It had ballooned at that time 
causing some veterans to wait almost two years just for their 
initial claims decision. But thanks to the hard work of the 
employees of the VA, in addition to more resources given by 
Congress, this backlog has been greatly reduced. Veterans now 
are waiting just over 130 days for their initial claim 
decision. At the peak of the crisis more than 600,000 claims 
were in the backlog and now it is under 75,000 claims. I am 
pleased to say that improvements are also reflected in the Reno 
Office, which serves my district, and it was the fifth worst in 
the country at the time.
    As we focused our efforts on tackling this backlog, I 
pointed out repeatedly that I was concerned about the 
possibility of a growing number of appeals. At first, as the VA 
handled more initial claims, the appeal rate remained fairly 
consistent, between ten and 12 percent. However, as the VA 
squeezed on this end of the balloon, air began to flow to the 
other end.
    I would repeat some of the figures that you gave earlier 
because they are just so compelling they need to be said again. 
As a result of that effort the appeals backlog grew from 67,412 
in 2005, to 326,000 in December of 2012, to more than 460,000 
as of this week which is an increase of 175 percent. Now these 
claims were spread out across the various lanes of processing 
but the end result was the same for veterans. The average 
appeal today takes two and a half years to complete, and 
appeals that go all the way to complete take close to 2,000 
days to process. Both of these figures are on the increase. So 
if we miss this historic opportunity to reform this outdated 
and overcomplicated appeals system, the wait for our Nation's 
heroes is just going to continue to grow. It has been estimated 
that by 2027, we will be telling our veteran constituents that 
they will likely have to wait a decade for their appeal to be 
resolved, and to the Members of this Committee, and everybody, 
we know that is just unacceptable.
    Now it is important to keep in mind that the appeals system 
was first developed in 1933 and last updated in the late 1980s, 
so true reform is long overdue. Accordingly, this has become a 
top priority for the VA, for veterans service groups, and it 
should be for our Committee as well. As Deputy Secretary Gibson 
notes in his written statement, ``addressing the claims appeals 
process is a top priority of the VA. H.R. 5083, the VA Appeals 
Modernization Act, would provide much needed comprehensive 
reform for the VA appeals process, and the VA fully supports 
the bill.''
    Over the past few months the VA, as you said Mr. Chairman, 
has been working closely with experts from the VSOs and veteran 
advocates to fix this broken system and replace it with a more 
streamlined process designed to provide quicker outcomes for 
veterans, while also, and this is important, preserving their 
due process rights. The new system refocuses the Board of 
Veterans Appeals so it can once again function as a true 
appellate body.
    The legislation creates three lanes veterans can choose 
from to appeal their claim. The first is a high level de novo 
review for veterans who want to have a fresh set of eyes review 
their cases. The second is a lane for veterans who wish to add 
evidence to their claim. And the third is for veterans who 
choose to have a full review done either by the Board with new 
evidence or as an expedited review without new supporting 
documents. Veterans will be able to choose their own lane 
depending on the specifics of their individual case, and as 
part of the system, the VA will provide more detail to veterans 
when their initial claim is delivered. I believe this enhanced 
claim decision process will better help veterans decide which 
way they want to appeal and which lane to choose.
    So I am very appreciate of all the veterans organizations, 
the DAV, The American Legion, Veterans of Foreign Wars, Iraq 
and Afghanistan Veterans, AMVETS, Paralyzed Veterans, and 
others, and I look forward to hearing from them. If you want a 
more detailed description of the three lanes, this is on the 
Web site. You can look at this chart. And I would refer you to 
something we handed all the veterans, called Myths and Facts 
about the new proposal. And I thank you, Mr. Chairman.
    The Chairman. Thank you very much. Dr. Ruiz, you are 
recognized for five minutes. Wake up.

            OPENING STATEMENT OF HONORABLE RAUL RUIZ

    Mr. Ruiz. I am awake, my friend. I am awake. Mr. Chairman 
and Ranking Member Brown, thank you for including this 
bipartisan legislation that I introduced alongside Dr. Wenstrup 
in today's hearing. Congressman Wenstrup, I appreciate your 
willingness to work with me on this issue. I look forward to 
our friendly wager, and you having to sponsor an ice cream 
social after your team's loss tonight.
    I would also like to thank the veterans service 
organizations and the VA for supporting this language in past 
round tables and Subcommittee hearings. H.R. 4150, the VA 
Emergency Medical Staffing Recruitment and Retention Act, will 
provide emergency department staff employed by the VA the same 
flexibility offered to physicians in the private sector. As an 
emergency physician, I know firsthand the unique demands a busy 
emergency department can make on the medical staff that work 
there. Emergency departments are open 24 hours a day, seven 
days a week. Unlike many Federal offices, emergency departments 
and hospitals do not close on holidays or weekends. For the 
upcoming holidays, such as Independence Day, Memorial Day, 
Labor Day, Veterans Day, hospitals continue to be open and 
their staff are hard at work.
    In the private sector, physicians are allowed to take 
advantage of flexible schedules. The schedulers are allowed to 
determine when an eight-hour or a 12-hour or maybe even a 24-
hour shift is most beneficial to the department and its 
patients. Emergency department and hospital staff employed by 
the VA are currently denied this flexibility due to rigid 
guidelines developed by the Office of Personnel Management for 
application to all Federal employees. The difference between 
the policy expert employed by HHS and the physician in an ER is 
obvious. The need for his legislation is obvious.
    Applying a biweekly 80-hour requirement to this profession 
does not make sense. Sometimes physicians work 12-hour shifts, 
sometimes 24-hour shifts, four to five days a week, sometimes 
six, seven days. And oftentimes, emergency physicians stay for 
hours after their shift to finalize their care for their 
patients. This results in physicians choosing to avoid working 
for the VA. Less physicians within the VA medical system means 
lower quality care and longer wait times for our veterans.
    As the VA and the Nation continue to experience a physician 
shortage, we must ensure that the VA can compete to recruit the 
brightest and the best physicians. This legislation would allow 
the Secretary of the VA the authority to permit flexibility 
when scheduling physicians and physician assistants, 
flexibility that matches the work needs of emergency physicians 
and other critical staff is of the utmost importance.
    The problem is obvious. The solution is simple. And I came 
to Congress to offer pragmatic solutions to pressing problems. 
This is an easy win-win solution. Again I would like to thank 
the VA and VSOs for their support of this legislation, and I 
look forward to continuing to work with my colleagues on the 
Committee to ensure this legislation is effective. I look 
forward to a timely mark up of this legislation. Thank you very 
much. I yield back my time.
    The Chairman. Thank you very much, doctor. Mr. O'Rourke, 
you are recognized. Wait, let me get my--
    Mr. O'Rourke. Are you going to livestream this?
    The Chairman. Yeah.

          OPENING STATEMENT OF HONORABLE BETO O'ROURKE

    Mr. O'Rourke. Thank you, Mr. Chairman. Let me begin by 
thanking Dr. Benishek, without whose help this bill would not 
be possible. What it does is remove a privacy requirement that 
is unique to the VA that effectively prohibits the effective 
sharing of patient medical records between the VA and community 
providers through the Choice program.
    So we know that we have a doctor or a provide shortage of 
about 43,000 within the VA. It is more critical than ever that 
we leverage community providers who want to take care of 
veterans in our communities. But The Sequoia Project, which is 
the nonprofit agency that HHS has charged with shepherding the 
Federal government's e-health exchange initiative, states that 
this bill would fix the number one impediment in their efforts 
to effectively share veterans' records. The group states that 
only three percent of veterans have currently opted in, which 
is the current requirement, and that it would take 60 years to 
get 100 percent of eligible veterans opted in based on current 
rates. Currently, four Federal agencies, 50 percent of U.S. 
hospitals, and 100 million patients participate in the 
exchange. So the VA is a little bit unique in how it requires 
an opt-in to share records. We are going to bring the VA in 
line with much of the rest of the country and do so following 
the best practices and ensuring that this is effective.
    The VA asked for this authority. This was part of a VA 
legislative package that was proposed by VHA under Secretary 
Dr. Shulkin, and it is critically important to ensuring 
continuity of care. We want to make sure that if a veteran is 
seen at the VA initially and then later seen in the community, 
that that veteran's patient record and medical information 
follows. And that is going to be really important for a number 
of reasons, including ensuring that we have continuity in 
prescribing care. We want to make sure that the doctor in the 
community knows what that veteran has been prescribed at the 
VA. So it could reduce overprescribing or errors in 
prescribing.
    There are some understandable privacy concerns whenever we 
are dealing with confidential patient information. I look 
forward to hearing those from some of the VSOs who have raised 
them. But I am confident that we can address those in today's 
hearing. I am confident that this is the only way we are going 
to make Choice effectively. If we are really serious about 
connecting veterans with doctors and providers in the 
community, we have got to be able to effectively share their 
patient information. And again, this brings us in line with the 
best practices in modern medicine throughout the country.
    So with that, Mr. Chairman, I will yield back and look 
forward to discussing this with the Assistant Secretary and the 
VSOs who are present.
    The Chairman. Thank you very much. Mr. Lamborn, you are 
recognized for five minutes.
    Mr. Lamborn. Excuse me for one second. I just got in from 
doing a media call.
    The Chairman. Okay. Let me, get your breath. Mr. DeSantis, 
you are recognized.

          OPENING STATEMENT OF HONORABLE RON DESANTIS

    Mr. DeSantis. Well thank you, Mr. Chairman, and Members of 
the Committee. It is great to be here. I am discussing a great 
bill, H.R. 4764, the PAWS Act, Puppies Assisting Wounded 
Servicemembers. And what it seeks to do is harness the use of 
specially trained service dogs to treat veterans who are 
suffering from Post-Traumatic Stress.
    And I first became interested in the issue of Post-
Traumatic Stress just when I was serving in Iraq back in 2007 
and I noticed the number of people who were over there, 
particularly Marines and soldiers, who had done multiple 
deployments. You had guys in their mid-twenties who had been in 
Iraq more than they had been in the United States since they 
had got out of boot camp. And the idea of PTS became something 
that more and more people were taking seriously, a lot of 
efforts out there. But that takes a toll, when you are doing 
those types of deployments.
    And then, it just so happened when I got elected to 
Congress, I have an organization in my district called Canines 
for Warriors. And what they do is, they pair veterans with 
specially trained service dogs. They have a campus that has now 
expanded. It is a great facility. They have a great track 
record of reducing dependence on opioids, reducing the suicide 
rate, and really getting veterans back on their feet. And so, I 
thought that this was a great organization. It was something 
that I was very supportive of just personally. But then I met a 
veteran, a former Marine named Cole Lyle, who came to Congress 
telling his story about his battles with Post-Traumatic Stress 
and how he really was in the dumps after going to the VA, being 
given counseling, prescribed a bunch of different medications, 
and he was really looking for answers. And it just so happened 
that his family had enough money to get him a service dog. And 
he quit the drugs cold turkey, really turned his life around, 
and is doing a great job right now. And so this is a Marine who 
had served in Afghanistan under very difficult circumstances, 
comes back to the United States, has these problems, and really 
the service dog has been a boon for him. And he is one of the 
leaders in arguing for this legislation.
    Now this Congress had the VA conduct a study about whether 
service dogs could be a part of treating PTS back in 2010. The 
study was supposed to be done in 2013. It has been riddled with 
all types of problems, and so we do not have any results yet. 
They say 2018, but I think if history is a guide, it likely 
will not happen by then. And so that has been a major failure 
on the part of the VA. And so our bill, the PAWS Act, takes 
these veterans, particularly the ones that have severe Post-
Traumatic Stress, and authorizes a small amount of funding so 
that the VA can pair them with specially trained service dogs. 
So they would be going to organizations who do this for a 
living, like Canines for Warriors, pairing the veteran. We 
earmark about $27,000 per dog, but the good thing is, as these 
organizations become more robust, they are actually able to 
train them for less now. And so that is exciting because I 
think that that is going to be good bang for the buck.
    And we are seeing, in addition to the anecdotal evidence, a 
lot of, or some initial scientific evidence, about people who 
have these symptoms, who get a specially trained service dog 
that understands the symptoms, that can help the veteran deal 
with certain situations. We see a decline in opioid use. We see 
a decline in suicide. And I think that is obviously good for 
the veteran. It is also good for taxpayers if the veteran does 
not need to be on drugs.
    This has strong support from key veterans groups, like the 
VFW and The American Legion. It also has very strong bipartisan 
support, which I am very proud to say, and bring before the 
Committee. So we have a situation in our country where 22 
veterans commit suicide everyday. That is something that I know 
everyone in this room is concerned about, and we want to do 
everything we can to reduce that or eliminate that. The PAWS 
Act, I think, is one way, one tool, where we can strike at this 
problem. I believe that if we pass this bill and get it up and 
running, I think it will save lives. Part of it is from the 
study I have done and how we have done the bill, but part of it 
is also practical. I have actually had veterans come up to me 
who have PTS, who were paired with service dogs, tell me if 
they did not get the service dog when they did, they probably 
would have committed suicide. So that is very powerful 
testimony, and I am great to be able to talk about the bill. 
And Mr. Chairman, I thank you for giving me the opportunity. I 
yield back.
    The Chairman. Thank you very much, Mr. DeSantis. A very 
timely piece of legislation. I would also tell you that we had 
a viewing in here yesterday of a film produced by a gentleman 
from Mr. Coffman's district called Acronym, in which it talked 
about the dramatic effects of canine therapies with PTSD. If 
you have not seen it, I would be glad to get you a copy of it. 
It is excellent.
    Dr. Yoho, you are recognized for five minutes.

            OPENING STATEMENT OF HONORABLE TED YOHO

    Mr. Yoho. Thank you, Mr. Chairman, and Ranking Member 
Brown, and all of the distinguished Committee Members. I want 
to take a moment to thank you all for allowing us to come in 
and testify on behalf of the veterans and their families 
nationwide who stand to benefit from the enactment of H.R. 
5166. The acronym is WINGMAN. It stands for Working to 
Integrate Networks Guaranteeing Members Access Now Act. It is a 
mouthful.
    Over the past two years, my office has urged the Department 
of Veterans Affairs to work with Members of Congress to grant 
certified constituent advocates read only access to the 
Veterans Benefit Management System. Three letters were sent to 
the Veterans Affairs Secretary Bob McDonald by a bipartisan 
group of Members of Congress asking for the VA to act on its 
own and provide this access, but to no avail. Over 102 Members 
of Congress have signed, bipartisan Members of Congress have 
signed one or more letters, including Members of this 
Committee. And the request was endorsed by the Veterans of 
Foreign Wars.
    During this time, a July 10th, 2015 story broke out 
reporting that the Los Angeles Veterans Affairs Regional Office 
was shredding documents needing to process claims, further 
adding the necessity of the VA to grant read only access to e-
claims. During this time thousands of veterans and their 
families remained in limbo awaiting resolution on their claims, 
some who had already been waiting for years. Veterans and their 
families should have to wait no longer for the VA and this 
institution to act. And it is unconscionable that a single man 
or woman who has answered the call to serve our Nation, protect 
our freedoms, and potentially sacrifice their lives, should 
have to wait to receive the care and benefits they have already 
earned.
    Unfortunately, the sentiment and sometimes the reality for 
many of our veterans is, the system is designed to have their 
back that leaves them questioning whether or not the country 
cares at all about what happens after they fulfill their 
contract. The narrative or perception is that they become 
statistics or numbers on a page that can wait until it is 
convenient for the bureaucrats in Washington to act. I 
requested a report regarding wait times to hear back from the 
VA for my constituent advocates who work hundreds of cases of 
veterans. And I want to interject that about 54 percent of our 
time is spent on veterans cases and in our district, we border 
not far from yours, Mr. Chairman, we are home to about 122,000 
veterans in our district. The average time it takes to receive 
a response from the VA is six months, and in one case, it took 
over a year, a year for the VA to respond to a congressional 
office inquiry about a veteran's claim. And I just find this 
unacceptable. And you can understand why the veterans come in 
and they are aggravated.
    With read only access, certified staff need only make a 
single request for the VA after obtaining the constituent's 
privacy release form. The mechanism we would recommend the VA 
use to permit certified staff for access would be similar to 
that currently used by the claims agents from 21-22A. This 
process would limit access solely to the veterans who have 
requested the congressional office act on their behalf, as well 
as limit access for cases specific to each congressional 
person's district. WINGMAN also ensures the integrity of the 
VSO remains intact through the non-recognition clause of the 
bill. This means that congressional advocates will continue 
refer first time claimants to the service officers and claims 
agents, and only take on veterans' cases after all other 
resources have been exhausted, which is the current process 
followed.
    Additionally, the cost to implement WINGMAN is assumed by 
whichever congressional office is requesting access. I 
recognize not every office wants this or needs this access as 
they have significantly smaller veteran populations in their 
district. District 3, like I said, is home to over 122,000 
veterans. However, for offices that do want access, they will 
use their MRAs to cover the cost to train and certify their 
staff. This is an opportunity for Congress to literally put 
their money where their mouth is and alleviate some of the 
barriers preventing veterans from receiving the consideration 
they deserve in a timely fashion. I would also like to stress 
that this bill does not grant access to files constituent 
advocates do not already have permission to possess, and it 
simply removes the VA as a middle man and allows advocate 
access to records more quickly.
    My Republican co-lead on this bill, Rodney Davis of 
Illinois, knows all too well the pitfalls of maintaining the 
status quo and not making this critical change. As a district 
staffer for 16 years he experienced firsthand the difficulties 
of navigating through the VA and has personal testimony on 
this. There are over 132 Members on this bipartisan bill and I 
ask for your support of H.R. 5166. Thank you.

    [The prepared statement of Ted Yoho appears in the 
Appendix]

    The Chairman. Thank you very much, doctor. Another timely 
piece of information, something that I have been hoping would 
happen for quite some time. And I hope the VA can help us move 
that along. Representative Hice, you are recognized for five 
minutes.

            OPENING STATEMENT OF HONORABLE JODY HICE

    Mr. Hice. Chairman Miller, thank you so much, and Ranking 
Member Brown. I appreciate you holding this hearing and 
allowing me to come and testify on my bill, H.R. 5047, the 
Protecting Veterans' Educational Choice Act.
    Right now, today, there are nearly one million student 
veterans who are using their Post-11 G.I. Bill benefits to 
pursue additional education. They are in the process of 
transitioning from military life to civilian life, and part of 
that transition includes education. That number, nearly a 
million, is expected to grow over the next several years and 
despite the benefit that we provide them, which is the most 
generous education benefit that our Nation has ever offered, 
still we have many veterans today who are taking out loans for 
their education, and my bill addresses the reason why and helps 
to alleviate this problem.
    In many cases, bottom line, veterans do not realize, or 
they have in some instances deliberately been misled by college 
recruiters, that credits from one school do not always transfer 
to another school. And that becomes a problem when a veteran 
uses up their G.I. benefits in this school hoping to transfer 
to another, and then they find out that they are unable to do 
so and much of their benefits have been used up at that point. 
So the issue has to do with articulation agreements between one 
school and another. Often for for-profit or nonprofit schools, 
the articulation agreements differ. And so to prevent this 
situation--by the way, many of these veterans who are 
attempting to go to school are the first generation college 
students for their families. But my bill, the Protecting 
Veterans' Educational Choice Act, basically requires the 
Department of Veterans Affairs to include information about 
articulation agreements to the veterans ahead of time so that 
they know beforehand what the articulation agreements are so 
that they do not use up their G.I. benefits up front only to 
find out that they cannot transfer.
    So what the bill will do is require the Department of 
Veterans Affairs to include information about articulation 
agreements as well as information about educational counseling 
services provided by the VA to every veteran on the front end 
rather than on the back end. In addition, the bill would 
require VA counselors to provide educational or vocational 
counseling to inform veterans about these various agreements 
between schools, particularly when they are trying to transfer.
    So the bottom line, Mr. Chairman, the goal of this bill is 
not to dictate what school a veteran chooses to go to. That is 
totally up to them. All we are trying to do is protect them 
from, on the back end of their educational experience, finding 
out that they are out of money and that their credits do not 
transfer. We are trying to give them the information up front 
so that they are able to make the best choice for their career 
as they are transitioning from the military into civilian life. 
And I believe it is incumbent upon Congress to ensure to the 
best of our ability that the benefits and opportunities that we 
afford them, that they have earned, that they are able to use 
it in the wisest way they deem for their families. So Mr. 
Chairman, I look forward to working with you and all my 
colleagues here on the Committee to help our veterans. And I 
appreciate the bipartisan support on this bill, and would 
really encourage support from each of you to help our veterans 
in this role. Thank you very much, and I yield back.

    [The prepared statement of Jody Hice appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Hice. Congressman 
Newhouse, you are recognized for five minutes.

          OPENING STATEMENT OF HONORABLE DAN NEWHOUSE

    Mr. Newhouse. Good morning. Thank you, Chairman Miller, 
Ranking Member Brown, and Members of the Committee for inviting 
me to testify before you today on H.R. 3216, the Veterans 
Emergency Treatment Act.
    I believe one of the most important functions of our 
Federal government is to support and sustain those who have 
been willing to sacrifice all they have to defend our Nation. 
Whenever our government fails to meet this responsibility I 
believe swift action must be taken.
    As everyone on this Committee is well aware, we have heard 
far too many distressing stories in recent years of the 
Department of Veterans Affairs failing to provide our veterans 
with the care they deserve. This legislation seeks to address 
one of these problems. In short, H.R. 3216 would ensure that 
every enrolled veteran who arrives at an emergency department 
of a VA medical facility, and indicates an emergency condition 
exists is assessed, and treated in an effort to prevent further 
injury or death. It would accomplish this by applying the 
statutory requirements of the Emergency Treatment and Labor 
Act, or EMTALA, to emergency are furnished by the VA to 
enrolled veterans.
    EMTALA grants every individual a right to emergency care. 
While a 2007 Veterans Health Administration directive indicates 
that the VA complies with the intent of EMTALA requirements, VA 
hospitals are non-participating hospitals and therefore are not 
obligated to fulfill EMTALA requirements. It has become 
abundantly clear that the VA is not fulfilling the EMTALA 
directive. All too frequently the policy is to turn down those 
who access the emergency room.
    My attention was first drawn to this issue because of the 
experience of one of my constituents. In February of 2015 64-
year-old Army veteran Donald Siefken from Kennewick, Washington 
arrived at the Seattle VA Hospital emergency room in severe 
pain and had a broken foot that had swollen tot he size of a 
football. No longer able to walk, he requested emergency room 
staff assist him in traveling the ten feet from his car to the 
emergency room. Hospital personnel promptly hung up on him 
after instructing him that he would need to call 911 to assist 
him at his own expense. He was eventually assisted into the 
emergency room by a Seattle fire captain and three 
firefighters.
    Another notable incident related occurred in New Mexico in 
2014 when a veteran collapsed in the cafeteria of a VA facility 
and ultimately died when the VA refused to transport him the 
500 yards across the campus to the emergency room. It is 
actually the Veterans Health Administration's stated policy 
that all transfers in and out of VA facilities of patients in 
the emergency department or urgent care units are accomplished 
in a manner that ensures maximum patient safety and is 
compliance with the transfer provisions of EMTALA and its 
implementing regulations. Unfortunately, however, this policy 
is not always followed and occasionally locally designed 
transfer policies at VA facilities serve to undermine efforts 
to provide emergency care to veterans in these critical 
moments.
    Additionally in some of these incidents, there was clear 
confusion on the part of the VA facilities about their own 
transfer policies. This is why Congress must act.
    I am grateful for the support that this legislation has 
received from leading veterans organizations, including The 
American Legion, Disabled American Veterans, as well as the 
Veterans of Foreign Wars. And I look forward to working with 
these organizations to make adjustments as needed that the 
legislation may need to ensure veterans receive improved 
medical services during emergency medical situations.
    Thank you again, Mr. Chairman, for holding this hearing 
today. I look forward to answering any questions you may have. 
And I ask unanimous consent to submit for the record a response 
from the VA to my letter of June, 2015, as well as a letter of 
support from the Retired Enlisted Association on my 
legislation.
    The Chairman. Without objection, so ordered.
    Mr. Newhouse. Thank you.
    The Chairman. Thank you very much, Mr. Newhouse. 
Congressman Young, you are recognized for five minutes.

           OPENING STATEMENT OF HONORABLE DAVID YOUNG

    Mr. Young. Thank you, Chairman Miller, Ranking Member 
Brown, and Members of this distinguished Committee. My 
colleagues, thank you for the invitation to testify on my bill, 
H.R. 5392, the No Veterans Crisis Line Call Should Go 
Unanswered Act. I greatly appreciate this opportunity to appear 
before you this morning.
    I want to share with you all here a story. In April, an 
Iowa veteran called the VA veterans crisis line, the 
confidential, toll-free hotline providing 24-hour support for 
veterans seeking crisis assistance. This veteran was having a 
rough day and he needed help. As the veteran sought the help he 
desperately needed, the phone keep ringing, and ringing, and 
ringing. He tried again, and again, but the only answer was all 
circuits are busy, try your call later. This hotline designed 
to provide essential support for veterans and their families 
and friends had let him down. This heartbreaking story is 
tragically true. It is not unique. And thankfully, this veteran 
was able to contact a friend who got him the help he was 
seeking.
    In 2014, a number of complaints about missed or unanswered 
calls, unresponsive staff, as well as inappropriate and delayed 
responses to veterans to crisis prompted the VA Office of 
Inspector General to conduct an investigation into the veterans 
crisis line. The investigation found gaps in the quality 
assurance process, and provided a number of recommendations to 
address the quality, responsiveness, and performance of the 
veterans crisis line, and the mental health care provided to 
our veterans.
    Now despite promises by the VA to implement changes to 
address problems facing veterans who use the crisis line, these 
problems, unfortunately, they are still happening. Mr. 
Chairman, they happen to the constituents in the district I am 
privileged to represent, and they happen in other districts as 
well, and are without a doubt continuing to happen today.
    Veterans deserve more. They deserve quality, effective 
mental health care. A veteran in need cannot wait for help, and 
any incident where a veteran has trouble with the veterans 
crisis line is simply unacceptable.
    Now the story I shared of the Iowa veteran's experience 
that Saturday evening has troubled me. His experience is why I 
am here before you today, working to introduce a bill that 
ensures we follow through on the promises our country has made 
to our veterans. This bill requires the VA to create and 
implement documented plans to improve responsiveness and 
performance of the crisis line, an important step to ensure our 
veterans have unimpeded access to the mental health resources 
that they need.
    The unacceptable fact is while these quality standards 
should already ben in place, they are simply not. My bill does 
not duplicate existing standards or slow care for veterans. 
Instead, it puts in place requirements aligning with the 
recommendations made by the OIG, the Office of the Inspector 
General, and other government accountability organizations to 
improve the veterans crisis line. My bill requires the VA to 
develop and implement a quality assurance program, and process 
to address responsiveness and performance of the veterans 
crisis line and backup call centers, and a timeline of when 
objectives will be reached. It also directs the VA to create a 
plan to ensure any communication to the veterans crisis line or 
backup call center is answered in a timely manner by a live 
person and document the improvements they make providing those 
plans to Congress within 180 days of the enactment of this 
bill.
    Mr. Chairman and Ranking Member, my colleagues, this bill 
would help the VA deliver quality mental health care to 
veterans in need, Iowa veterans, and all veterans, have faced 
enormous pressures, sacrificed personal and professional gains, 
and experienced dangerous conditions in service to our Nation, 
and many are returning home with Post-Traumatic Stress Disorder 
and other unique needs which require counseling and mental 
health support. And we should thank them for their service and 
we do, but we need to make sure that we provide that promise to 
them. This is why I introduced this bill, to honor and thank 
our veterans, and let them know America supports them. Our 
veterans answer our Nation's call and we shouldn't leave them 
waiting on the line.
    I appreciate and I thank the Committee for working with me 
on this bill, and for your attention on this important issue. I 
look forward to continuing to work with you to provide our 
veterans with the best care possible. I thank the chair, the 
Ranking Member, my colleagues, and I yield back.

    [The prepared statement of David Young appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Young. Our final 
Members testifying today on a piece of legislation is Mr. 
Lamborn from Colorado. You are recognized for five minutes.

          OPENING STATEMENT OF HONORABLE DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, and I will be brief. 
I ask Members to support H.R. 5416, which would help the 
families of deceased veterans who received care through the 
Choice program.
    Currently, the family of a deceased veteran who passes away 
in a non-VA hospital that is under contract is given a burial 
allowance of $747. However, if the veteran dies while receiving 
health care at a non-VA facility under the Choice program the 
family is only provided a $300 burial allowance. Mr. Chairman, 
it is not right that families are penalized if a veteran uses 
the Choice program. Veterans should be able to participate in 
the Choice program without having to worry about the financial 
impact on their loved ones.
    My bill, H.R. 5416, would correct this inequity and allow 
families of veterans in the Choice program to qualify for the 
$747 burial allowance. This would make things fair and 
equitable. I ask the Committee to consider it favorably, and I 
yield back.

    [The prepared statement of Doug Lamborn appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Lamborn. I 
appreciate your brevity this morning, and I would ask Members 
if you have any questions of any of the legislative sponsors?
    Ms. Brown. I think I have one.
    The Chairman. Ms. Brown?
    Ms. Brown. Is it Mr. Rice? Hice. Mr. Hice, my question is, 
it is very interesting, is this just Veterans Affairs? Or is 
this Veterans and the Department of Education, who really know 
more about accreditation and other things?
    Mr. Hice. Of course we would work together with both, but 
this is directly with the VA and trying to help. And again, all 
we are doing is providing information to the veterans, which 
obviously comes under the VA, to make sure that they get the 
information that they need.
    Ms. Brown. Well I guess my question is, does the VA have 
that information as far as whether or not a program is 
accredited?
    Mr. Hice. Yes, in that regard we are working with other 
departments, of education and so forth, to gather all of the 
accurate information that is needed. And all of the schools 
already are under law, required to place their articulation 
information on their Web sites, but some of those schools it is 
not easily found. And so this would just help, take that 
information that already is available and put it in a very 
easily available manner for the veterans.
    Ms. Brown. Thank you. You know, many schools have a 
transfer policy, you may be taking a class at the community 
college and maybe the university does not take it. So I would 
be interested in talking more about it as we move forward with 
the bill. Thank you.
    Mr. Hice. Well, thank you. And we would be interested in 
talking as well. And again, the choice of a school is 
irrelevant to us. They can go wherever they want to. We just 
want to make sure they have the appropriate information.
    The Chairman. Dr. Ruiz? And we do have a very large second 
panel. So you are--no, no, you can go ahead.
    Mr. Ruiz. Absolutely. I will be quick. Congressman 
Newhouse, your bill, my understanding is that all emergency 
departments are, need to function under EMTALA. Your bill, is 
it, what is the difference with the current law that we have 
now? There are some emergency departments who have difficulty 
complying with EMTALA, both public, private, and within the VA. 
So does this help with the implementation of EMTALA?
    Mr. Newhouse. The, thank you for your question. The 
Veterans Administration facilities are directed to comply with 
the intent of EMTALA but they are not legally required to 
fulfill those obligations. And so this would clear up any 
question there might be on the part of employees or 
administrators of those facilities. So it just makes it, brings 
them under the same requirements as every other medical 
facility in the country.
    Mr. Ruiz. Thank you. I yield back my time.
    The Chairman. Ms. Brown?
    Ms. Brown. I will be quick. I do have one question for Mr. 
Yoho. I think your bill is, I will probably cosponsor it, I 
don't know for sure. Can you give me some information on how 
much it would cost the office, because I have a large veteran 
population, and, you say $100,000, we can discuss more about 
the cost later. How much would it cost each Member? It is a 
good bill but to pay for it out of our office account I find 
very interesting.
    Mr. Yoho. The certification costs would be minimal. We 
would be certified through the VA, the Department of Veterans 
Affairs. I do not have an exact cost but the estimate was under 
$1,000. So it is something that, again, we are already doing 
this work. We have already got a privacy form. The veterans 
come to us as a last resort. And it goes back to customer 
service for our veterans and expediting that.
    Ms. Brown. But we, you know, they have up here, they train 
our staff in casework. Would this be a part of that training?
    Mr. Yoho. Right. We could, you know, tie it in with that. 
We would work that out with the Veterans Administration.
    Ms. Brown. Well thank you very much.
    Mr. Yoho. Yes, ma'am.
    The Chairman. Thank you very much, Members. Thank you to 
the first panel. We appreciate your testimony today. And as you 
depart, we would ask the second panel if they would come on up 
to the table.
    Thank you very much, Members, and welcome to the second 
panel. If you would, before we begin, I was remiss, I should 
have done this at the beginning of the hearing today. Our 
colleague Tim Walz lost his brother in a tragic camping 
accident on Sunday. His brother was killed in a freak accident 
during a storm while he was camping with his son. The son was 
seriously injured. Tim is not with us today, and I would just 
like to pause for a moment of silence for Tim in honor of his 
brother and his family.
    [Moment of silence.]
    The Chairman. Thank you very much, and thank you to the 
second panel for joining us today. And joining us Honorable 
Sloan Gibson, Deputy Secretary for the Department of Veterans 
Affairs. He is accompanied today in the first row by Laura 
Eskenazi, the Executive in Charge and Vice Chairman of the 
Board of Veterans Appeals; David McLenachen, the Deputy Under 
Secretary for Disability Assistance for the Veterans Benefits 
Administration; and Dr. Maureen McCarthy, the Assistant Deputy 
Under Secretary for Health, Patient Care Services for the 
Veterans Health Administration. Also with us on the second 
panel this morning is Mr. Raymond Kelley, the Director of 
National Legislative Service for the Veterans of Foreign Wars 
of the United States; Paul Varela, the Assistant National 
Legislative Director for the Disabled American Veterans; Carl 
Blake, the Associate Executive Director for Government 
Relations for Paralyzed Veterans of America; Lou Celli, the 
Director of the National Veterans Affairs and Rehabilitation 
Division for The American Legion; and Mr. Rick Weidman, the 
Executive Director for Policy and Government Affairs of Vietnam 
Veterans of America. Again, thank you all for being here today. 
Thank you to the Deputy Secretary for agreeing to appear in a 
second panel so that we could kind of compress everything 
today. But Mr. Secretary, you are recognized now for your 
opening statement. My script says five, but I think I actually 
scripted you for a little bit longer. So you are recognized.

          OPENING STATEMENT OF HONORABLE SLOAN GIBSON

    Mr. Gibson. Okay, thank you very much, Mr. Chairman. And a 
very special thank you for including appeals in this hearing. 
And Congresswoman Titus, thank you very much for your 
sponsorship of the appeals legislation.
    We are pleased to be here to share our views and very 
grateful for the opportunity. You have already introduced the 
others that are with me. I also want to acknowledge our 
partners from the veterans service organizations, as well as 
state and county veterans groups, and the myriad of other 
veterans stakeholders. They all did some very heavy lifting, 
and spent many hours helping us craft the appeals modernization 
draft legislation.
    While my written statement covers the broad and extensive 
range of bills on the docket today, I will reserve most of my 
remarks for reform of the appeals process. Let me start by 
making three quick points. First, a reminder that while we 
support many of the bills on the agenda today, we also know how 
important it is to veterans now, and in the future that the 
bills' requirements are resources for successful 
implementation.
    Second, I would like to thank the Committee for inclusion 
of H.R. 4150, which will yield dividends for VA health care by 
allowing implementation of more flexible work schedules for 
doctors, and make us more competitive with the private sector.
    And lastly, let me touch just briefly on H.R. 5166, also 
known as the WINGMAN Act. We believe that veterans should be in 
control of who has access to their private information. We are 
concerned that under this bill, that may or may not be the 
case, and we would approach this in a different way by 
continuing the work that we have already got underway to make 
the veteran's entire case file, claims file, available to the 
veterans through e-benefits so that the veteran would be in a 
position to be able to share that with whomever the veteran 
wished to do.
    Moving on to appeals, H.R. 5083, the VA Appeals 
Modernization Act of 2016, will help veterans immensely by 
modernizing a process that is now failing them.
    Appeals reform, as noted earlier, is a top priority to VA, 
and we fully support this legislation. It is critical to 
remember that the cost associated with implementing this new 
legislation is essentially zero. The additional funds that we 
hope Congress will provide year by year to reduce the inventory 
in the current system is separate and distinct from the 
legislation to modernize the process.
    Current appeals process leaves veterans frustrated and 
waiting far too long. It is conceived, as noted earlier, over 
80 years ago, a collection of process that have accumulated 
over time, unlike any other appeals process in government. 
Layers of additions to the process have made it a complicated, 
opaque, unpredictable, and less veteran-friendly. It makes 
adversaries out of veterans, and VA and it is ridiculously 
slow; average processing time for all appeals is about three 
years. For appeals that make their way to the Board of 
Veterans' Appeals, the average is five years.
    Many appeals are much older than that. Last year, the Board 
was still adjudicating an appeal that originated 25 years ago, 
which has been decided 27 times. It is not right for veterans 
and it is not right for taxpayers, and it is only going to get 
worse, unless we find a way forward. We now have over 450,000 
appeals pending. Without major reform, average wait times will 
grow from the current three to five years, to something on the 
order of ten years of veterans waiting for a decision.
    In the meantime, we are working within existing restraints 
and resources to try to respond to the problem. We are 
upgrading our technology around appeals, applying lessons 
learned from VBA's modernization and transformation of the 
claims process, adopted a standard notice of disagreement form 
to initiate appeals. In VBA, we have added 300 additional 
staff, just focused on appeals work over the last year, and in 
2016, we allocated $10 million in overtime, just for appeals 
work; we had previously been having some of our appeals staff 
working overtime on disability claims. Now when an appeals 
staffer is working overtime, they are working exclusively on 
appeals.
    Output by the Board of Veterans' Appeals has risen 33 
percent since 2013. We are actually processing peels at the 
highest rate since 1988, which was before a number of changes 
in the appeals process that occurred at that time. Despite our 
best efforts, veterans keep waiting longer for appeals 
decisions, and without reform enabled by legislative action, 
the wait will grow much longer.
    Problems rooted in our antiquated, complex and inefficient 
appeal process, which makes it impossible to keep up with a 
growing workload. Between an aging veteran population and some 
younger veterans returning home with higher levels of 
disability, it is no surprise that we are seeing record numbers 
of disability claims with more medical issues per claim.
    Looking back from 2010 to 2015, VBA completed more than a 
million claims annually. 2015, they completed a record number 
of 1.4 million claims, but more claims decided means more 
appeals. As was noted earlier, the ratio has remained about the 
same. The rate of appeal has remained about the same, and the 
result is that we have, Chairman, as you noted, a 35 percent 
increase in total appeals pending, just in the last three 
years.
    The current appeal process is failing veterans. The status 
quo is not an option. The solution is fundamental reform, and 
without that, we are going to have veterans waiting much, much 
longer for their appeals decision.
    We strongly support this legislation which has brought VA, 
veterans service organizations, and other stakeholders together 
in support of this bill. Time to act is now.
    I know I am giving short shrift to many other bills on the 
agenda, many of which VA supports or proposes some modification 
to in order to better serve veterans, but I felt like it was a 
priority to address this critical need of our veterans, fixing 
the broken appeals system.
    Thank you, and we look forward to answering your questions.

    [The prepared statement of Sloan Gibson appears in the 
Appendix]

    The Chairman. Thank you very much. You did do that in five 
minutes.
    Mr. Kelley, you are recognized for five minutes.

                  STATEMENT OF RAYMOND KELLEY

    Mr. Kelley. Mr. Chairman, on behalf of the 1.7 million 
members of the Veterans of Foreign Wars and our Auxiliaries, 
thank you for the opportunity to testify today. The VFW is 
supportive of the majority of the bills that are under 
consideration, but I am going to limit my remarks to just three 
of them.
    H.R. 5047: The VFW supports the intent of this legislation. 
However, we do not believe VA can provide specific articulation 
agreements to veterans, due to the fact that the Department of 
Education does not track these types of agreements between 
individual institutions.
    The VFW does agree with section 1, paragraph B of this 
legislation, which would require the Secretary of Veterans 
Affairs to include information regarding counseling services 
and articulation agreements with the certificate of eligibility 
for education benefits.
    H.R. 5166: The VFW does not support this legislation at 
this time. While we agree that there should be more efficient 
ways for congressional constituents' service staff to assist 
veterans, there are current controls in place to limit access 
to veterans' records, and those controls must be preserved 
under any expansion of access. The VFW listed our concerns in 
our written testimony.
    H.R. 5083: The VFW has actively participated in a series of 
meetings with VA and other VSOs in an attempt to identify 
opportunities for improvement to the current appeals process. 
While the VFW is supportive of the legislation, there are 
several areas that have not been fully addressed. Solutions to 
these areas must be found.
    These areas include duty to assist. We have two concerns 
about limiting duty to assist at BVA. First, it is unclear 
what, if any, action is required if a claimant submits new 
evidence during the appeals process. It is likely that 
additional development is required, however, the proposal does 
not address how that will be accomplished.
    Second, we are concerned that if there is limited duty to 
assist requirements of the Board, veterans who submit new 
evidence to the Board would not know to take that evidence back 
to the middle lane because the Board would not require further 
development; instruction from the Board to the veteran must be 
made clear.
    Docket flexibility: Currently, the Board is limited to only 
one docket. Under this proposal, VBA would have to maintain at 
least two dockets in order to be efficient to work cases. The 
VFW suggests a total of five dockets during the transition--two 
dockets during the resolution of the current backlog, and then 
three additional dockets for the new proposal.
    New evidence: It is our belief that eliminating the new 
material standard would reduce non-substantive appeals by 
allowing regional offices to make a merit decision on the 
evidence of record. The VFW proposes that the only requirement 
to obtain reconsideration of a claim should be submission of 
new evidence.
    Higher-level review: The VFW believes that the decision 
review officer position must be retained, as opposed to 
allowing a higher grade to conduct the review, as proposed 
under this legislation. Further, the VFW believes that the 
difference of opinion reviewer should be able to remand claims 
for additional development based on evidence received during a 
difference of opinion review.
    Claims in different lanes at the same time: Another 
unresolved issue is whether claimants may have the same issue 
in more than one lane simultaneously. It is for this reason, we 
urge Congress to address the submission of evidence during an 
appeal, and to which entity it should be submitted. The VFW 
suggests that if the Board cannot order a remand to properly 
develop evidence submitted during an appeal, then a claimant 
should have the right to submit that evidence in the center 
lane while the appeal is pending at the Board.
    Reports: We recommend a requirement that VA collect data, 
analyze it, and report that information to Congress and to the 
public.
    The Court of Appeals for Veterans Claims: To ensure that 
veterans are not discouraged from appealing to the Court, we 
urge Congress to amend this proposal to allow claimants to 
submit evidence within one year of a Court decision.
    This legislation, even if approved with VFW's 
recommendation, is only one-third of the solution. A 
comprehensive plan by VA to address the current backlog of 
pending appeals, and an allocation of sufficient resources by 
Congress to allow VA to execute that plan, must be fully 
developed.
    Thank you again for the opportunity to testify today, and I 
look forward to any questions you or the Committee may have.

    [The prepared statement of Raymond Kelley appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Kelley.
    Mr. Varela, thank you. You are recognized for five minutes.

                    STATEMENT OF PAUL VARELA

    Mr. Varela. Chairman Miller, Ranking Member Brown, and 
Members of this Committee, good morning. Thank you for inviting 
DAV to testify at this legislative hearing, and to present our 
views on the bills under consideration.
    All bills under consideration are important today. I will 
focus my oral remarks on H.R. 5083, VA Appeals Modernization 
Act of 2016, and direct the Committee to our written testimony 
for DAV's position on the remaining bills.
    Mr. Chairman, H.R. 5083 comes as a result of collaboration 
between VBA, the Board of Veterans' Appeals, or Board, and the 
11 major stakeholder organizations, including DAV, that assists 
veterans each and every day with their claims and appeals.
    For the past four months, this workgroup has been meeting 
intensively with the goal of developing a new structure for 
processing claims and appeals. DAV and other VSO stakeholders 
continue to work with the Board and the VBA to resolve and 
clarify some unresolved issues to further improve the proposed 
new framework. While we support the H.R. 5083, some issues need 
to be further explored to ensure veterans do not suffer any 
negative unintended consequences.
    Furthermore, changes to any part of H.R. 5083 could affect 
our ultimate support of the bill, therefore, we urge this 
Committee and VA to continue working alongside DAV and other 
stakeholders in a transparent and collaborative manner. In 
change to the current process must protect the due process 
rights of veterans. As VSOs, we understand the current system, 
its benefits, and its weaknesses. Core tenets of any new system 
must ensure to protect effective dates and due process rights 
for veterans; they earned it, and they deserve it. Veterans 
must also be allowed opportunities to introduce new evidence 
without having to endure a long and arduous formal appeals 
process to the Board.
    Three options to redress VBA decisions are contemplated 
within the new framework; first, readjudication; second, a 
higher-level review; and finally, a formal appeal to the Board. 
One of these three options must be elected within one year of a 
decision.
    We are pleased that H.R. 5083 contains one additional 
change that we have suggested, and VA agreed to income, which 
is language to clarify that all higher-level reviews would be 
done as de novo reviews, without the veteran having to 
affirmatively elect this review option. This provision must be 
maintained in any legislation--within any legislation moving 
forward.
    H.R. 5083 would also amend existing statute to change the 
new and material evidence standard to a new and relevant 
evidence standard, as it relates to readjudication and 
supplemental claims. We understand VA's intent as it pertains 
to adjudication of unrelated evidence, however, this revised 
standard would not prevent submission of truly unrelated or 
irrelevant evidence; instead, creating a new and untested 
standard could result in additional appeals on procedure before 
the substance of the claim is adjudicated.
    Veterans must be made aware of new notification provisions 
and the redesigned claims, and appeals process being proposed. 
We recommend legislation include a requirement that VA create, 
in conjunction with stakeholders, an online tutorial and 
utilize other Web or social media tools to enhance veterans' 
understanding of how claims decisions are made, and how to 
choose the best options available in the new framework.
    Some questions remain unresolved, such as how the 
introduction of new evidence would be treated by VBA and the 
Board, and how duty to assist requirements will apply; how will 
the Board handle new evidence received outside the limited 
evidentiary filing periods; how will new employees be trained 
under both, the old and new systems, so that there is efficient 
administration of these two parallel systems; how will be the 
Court view the existence of two different standards for 
critical matters such as the duty to assist?
    We are pleased that VA has developed a plan to run the new 
framework, while simultaneously addressing the almost 450,000 
pending appeals, however, this will require additional 
resources. Unless VA requests and Congress provides adequate 
resources to meet VBA and Board staffing, infrastructure, and 
IT requirements, success would be unlikely. We are encouraged 
to CVA's proposal for greater resources to make this new claims 
and appeals system successful.
    We implore Congress to seriously consider appropriate 
funding levels as H.R. 5083 moves forward. There is some work 
that still needs to be done and clarifications that need to be 
addressed, but we remain committed to partnering with Congress, 
VA, and other stakeholders to resolve these issues. Mr. 
Chairman and Members of this Committee, thank you for the 
opportunity to testify today, and I look forward to your 
questions.

    [The prepared statement of Paul Varela appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Varela.
    Mr. Blake, you are recognized for five minutes.

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Chairman Miller, Ranking Member Brown, Members 
of the Committee, on behalf of Paralyzed Veterans of America, I 
would like to thank you for the opportunity to testify today. 
There is no question that many of these bills will have a 
significant impact on delivery of care, and also the benefits, 
through the appeals process. You have our written statement and 
many of the recommendations related to some of these bills, so 
I will limit my comments to only a couple of the bills under 
consideration.
    Obviously, the hot topic of the day is H.R. 5083, the 
appeals modernization bill. I will say up front that PVA 
supports the framework as outlined by H.R. 5083. I think that 
this bill goes a long ways towards addressing many of the 
concerns that were raised throughout the process that we were 
part of, along with our colleagues here at the table, and with 
the VA. I would actually like to applaud the VA for the effort 
that they put forth to work through this appeals modernization 
process.
    In my time here, this is probably the first time I have 
ever actually seen it work this way in this extensive, a 
process with all issues being considered and proper 
consideration being given to addressing those concerns, so that 
when the legislation was brought forward by Ms. Titus, it 
properly reflected the concerns that we raised. We appreciate 
the fact that this bill takes into account our concerns, and we 
hope that it will be considered and moved forward.
    I think the other big issue that has been raised in 
previous testimony to the Senate, and it has come up in our 
discussions is, what to do about the legacy appeals, the 
backlog, whatever you want to call it. I think that that 
problem cannot be overlooked. We would hate to see the 
mishandling of the current legacy appeals undermine all the 
work that has been put into this appeals modernization process.
    We appreciate the fact that the VA has already begun the 
process of meeting with us, with the organizations here at the 
table to try to come up with a workable solution to the legacy 
appeals problem. I would say that a lot of progress has been 
made. We are still not there. There are a couple of options 
that are floating around right now that are being considered. I 
would say that one of them would allow for sort of an off-ramp 
process into the knew appeals modernization framework. I think 
on its face, that probably sounds like a good thing, but I 
think just shifting a significant portion of those legacy 
appeals into that system doesn't change the fact that those are 
still existing appeals, and could create a backlog that might 
undermine this new system before it ever gets started.
    So we appreciate the time that has been invested into it. 
We look forward to continuing the work. We realize that this is 
an absolutely critical problem that must be addressed because, 
as the deputy secretary said, you know, it will be unacceptable 
that a decade from now, some of these appeals could be ten 
years on average and that there could be up to two million 
appeals if this process continues as it is in the backlog; that 
would be totally unacceptable.
    With regards to H.R. 4764, the PAWS Act, we clearly 
understand and support the intent of the legislation. We 
recognize the benefit that service animals provide. I think 
there is still some debate over how that fits into the issue of 
veterans with severe mental illness, in the case of this bill, 
severe PTSD, but I think there has been a lot of work that 
suggests that this is a useful and important tool for veterans 
as they go through the rehabilitation process.
    A couple of the concerns that I would raise with that bill 
are, one, as with many other pieces of legislation that have 
been considered in the halls of Congress over the last several 
years, we don't like the inequity created by the post-9-1-1 
versus pre-9-1-1 connection that is in the bill. The fact is, 
there are many veterans of previous eras that could benefit 
from these provisions, just as much as the post-9-1-1 era, and 
we would hate to see those folks be left out in the cold by 
this legislation.
    Secondly, I think the bill overlooks how service animals 
are currently provided through VA. It is my understanding that 
the VA has no direct cost in procuring a service animal that is 
trained and provided to a veteran. They make the determination 
a veteran is deemed eligible. These individuals typically are 
referred to nonprofit entities that basically manage the 
service animal empire, we will call it, and those individuals 
or those entities, then, provide the service animals for 
veterans.
    I think the intent of the bill is good. I would hate to see 
the construct of the bill upend the process that seems to work 
in the vein of trying to get veterans who have a severe mental 
illness or PTSD access to these same service animals. So I 
think some of those considerations need to be given before this 
bill is just advanced as it is constructed.
    Lastly, I would like to thank Mr. O'Rourke for his work on 
H.R. 5162. We support the intent. I think there is still a 
little more work that needs to be done. But his office has been 
great in reaching out to us and expressed a great deal of 
interest in trying to work through whatever details need to be 
hashed-out to make sure that the bill does exactly what he 
intends, and that veterans are best served by that legislation.
    So with that, Mr. Chairman, I would like to thank you for 
the opportunity to testify. I would be happy to answer any 
questions that you may have.

    [The prepared statement of Carl Blake appears in the 
Appendix]

    The Chairman. Thanks.
    Mr. Celli, you are recognized for five minutes.

                    STATEMENT OF LOUIS CELLI

    Mr. Celli. As we wind down this legislative session, The 
American Legion is eager to see this Congress address 
legislative reforms that will help tune-up VA offerings, and 
the restorative services we maintain for our community of 
defenders that have earned our respect, our loyalty, and our 
admiration.
    Chairman Miller, Ranking Member Brown, distinguished 
Members of this extremely important Committee, on behalf of 
National Commander Dale Barnett and The American Legion, we 
thank you for the opportunity to testify regarding The American 
Legion's position on the pending and draft legislation. Before 
I begin, I would just like to take a minute to pause and 
recognize Chairman Miller on behalf of The American Legion, as 
this might very well be the last opportunity we will have the 
privilege of presenting formal testimony to this Committee 
while under the Chairman's leadership. Chairman Miller, The 
American Legion salutes you and your service and your 
dedication to the veterans of this Nation. It has been an honor 
and a pleasure working with you and your team, and we will 
always remember our time together with respect, admiration. 
Thank you for your service, sir.
    Of the 12 bills being discussed today, The American Legion 
would like to highlight two as a complete discussion of each of 
these bills is contained in our previously submitted testimony, 
a copy of which I am sure you all have. H.R. 5083, the Appeals 
Modernization Act of 2016, is an important step toward the 
exact type of good stewardship this Committee has ensured is a 
hallmark of your work. Streamlining a complicated and legally 
burdensome process while preserving and actually increasing the 
rights of claimants and doing so in a manner that will 
ultimately save taxpayer dollars, is a rare and noble 
accomplishment.
    H.R. 5083 represents a combined effort between your staff, 
the Department of Veterans Affairs, and the veterans service 
organizations who serve our veterans every day. We are proud of 
the work we have done here and the product that we have 
produced. In addition, we have developed an intelligent and 
comprehensive plan for addressing the existing inventory of 
appeals that is logical, reasonable, and continues to serve 
veterans' best interests.
    You have already heard much about the mechanical details of 
this plan, so I won't belabor them, but what I will say is that 
it was extremely gratifying to have all of the stakeholders in 
the room at one time acting as good stewards for veterans, the 
process, and the Nation. The American Legion strongly urges 
this Committee and the Full House of Representatives to pass 
this measure together with the Senate, and to get this bill 
signed into law before we run out of time, in this 
administration.
    The next bill that I want to address is the WINGMAN Act. 
While The American Legion appreciates the tireless support 
congressional liaisons provide at the district and national 
level, VA disability claims and appeals management is a 
complicated and technical process. Merely having access to view 
a claimant's record would in no way enable the moderately 
trained viewer of the record to offer the type of comprehensive 
and legally supported advice that these claimants are looking 
for.
    A simple request of: "I just want to know what is happening 
with my claim because it has been a year since I have heard 
anything", is actually a much more complicated discussion than: 
I see your claim is at the X, Y, Z regional office, but I don't 
see what is happening to it now.
    Highly trained service officers, who have years of 
experience, often have difficulty tracking down the exact 
status as on specific claims, and because many, if not most, 
are co-located in the regional offices, have vastly more 
resources at their disposal to assist the veteran or their 
family member. Further, each record accessed is authorized by a 
power of attorney. If The American Legion is representing a 
claimant and the claimant contacts their representative's 
office seeking a status, and that staff member changes the 
power of attorney, The American Legion will no longer represent 
that veteran; the congressional representative will.
    When veteran claimants call congressional offices, the best 
thing that that office can do is recommend that the claimant 
secure an accredited representative to assist them with the 
process. And if they already have, the congressional 
representative is always welcome to call the accredited rep to 
help the claimant understand his or her status.
    If congressional leaders would like accredited 
representatives in their office to process constituent claims, 
The American Legion would be happy to facilitate such a program 
once your office secures the appropriate funding.
    With that, The American Legion opposes the WINGMAN Act, and 
would be happy to answer any questions you may have.

    [The prepared statement of Louis J. Celli appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Celli.
    Mr. Weidman, you are recognized for five minutes.

                   STATEMENT OF RICK WEIDMAN

    Mr. Weidman. Good morning, Mr. Chairman. VVA would like to 
associate their--ourselves with the remarks of the Legion in 
regard to your leadership of this Committee, which has been 
strong, not always uncontroversial, but always zeroing in on 
what is good for the veteran, and we applaud and absolute you, 
as well, sir.
    I am going to comment just on a couple of bills. The first 
is Mr. Hice's bill, H.R. 5047. We applaud this bill and would 
like to see it moved to enactment fairly quickly, what is 
missing is something that specifically says that VA has the 
authority to enforce this act, and what measures can be taken, 
in regard to reducing or eliminating G.I. Bill payments to said 
institution until they articulate all of the things in the bill 
that are basic that should be shared up front. And so we would 
be happy to work with you and Mr. Hice in order to do that.
    The second piece that I wanted to comment on--we wanted to 
comment on is Ms. Brown's bill, H.R. 5407. We strongly favor 
this to zero in on the families that are homeless, particularly 
single parents. But a concomitant thing we encourage you to put 
in this bill, a section that ups the authority of the Homeless 
Veterans' Reintegration Program. HVRP is the most cost-
effective, cost-efficient program the Department of Labor has, 
and can prove it, because it is all based on payments.
    This is the first time that we have ever gotten up to the 
fully authorized--this year--the fully authorized request from 
the president for 50 million. We would suggest that the cap be 
raised to at least 75 million, if indeed, not 100 million for 
this program. The reason is, it works. I mean, what part of 
veterans, homeless, getting a job and getting off the street 
don't people understand? And, particularly, if it is a single 
parent that involves a child.
    The last bill I would like to--we would like to comment on 
here, and a lot of these are extremely important, although very 
targeted bills and we favor most of them, the Appeals 
Modernization Act. We also participated and applaud Deputy 
Secretary Sloan Gibson for participating and convening this 
authority. It is never been done before, of us talking directly 
of all the folks who had a stake, from National Veterans Legal 
Service Program to NOVA, to the big six, to you name it was 
represented, all the way down to the county veteran service 
officers.
    So, it was intense sessions, more time than any of us, I 
think, had ever directed in such a short time to trying to look 
at policy together. The recognition that has--that we have to 
move together is key.
    What didn't happen at those meetings, even though Vietnam 
Veterans of America, we regularly raised it, is, we have to 
have something that sets precedent in veterans' claims. It is, 
in the end, a set of legal laws, of statutes. And the American 
jurisprudence system could not operate without setting 
precedent and having lower courts follow the precedent, one. 
Two, you are not going to be able to really automate this into 
an automated system if you don't have precedent that is set. 
Because once you have precedent on a certain kind of claim, 
then you can write the rules, change the rules, and automate 
it, and nobody needs to touch it ever again. You still would 
have all the rights to appeal if you disagreed with that, but, 
frankly, we believe that most veterans--or a significant number 
of veterans anyway--appeal, because nobody explains to them why 
their initial claim was turned down, but this would eliminate 
that drag. For the taxpayers to continue to spend more money, 
we think is crazy--to have more bodies--and many of those 
individual adjudications are going to be wrong.
    We believe that there is about 15 to 20 claims that are 
basically the same, and each one being adjudicated for the 
10,000 times to 100,000 times each makes no sense. It should be 
automated rules and it is not that difficult. I talked 
extensively with Bud Bucum, who is a BVA leader, and Bud was 
the operations person for H. Ross Perot when EDS, electronic 
data systems, went into existence. He certainly worked writing 
rules-based adjudication of claims on a much larger scale than 
VA, so, I want to bring him in if you have a chance before this 
Congress goes out, Mr. Chairman.
    Last but not least, we don't oppose many of the things that 
have been suggested here, with the exception of, if you are 
going to let a veteran through all the other permutations, keep 
the original date of claim, then the things that go to the CVAC 
should also be able to retain, if they mandate it back, that 
original filing date. And so it is a disincentive vote, then, 
for anybody to ever take it to the Court of Veterans Appeals. 
And we would like to see that modified in this. But lastly, and 
most importantly, we have got to have precedent or we're never 
going to get out of this big hamster wheel.
    Thank you, Mr. Chairman.

    [The prepared statement of Rick Weidman appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Weidman. I 
appreciate it.
    Members, I have two quick questions I want to ask Deputy 
Secretary Gibson before the clock starts. The first one is 
about the notice last week that Secretary McDonald was not 
going to use expedited removal authority from the Choice Act. I 
don't think that is appropriate, but that was not my decision, 
obviously. There is a pending legal case on the issue. DOJ has 
only said they won't defend a small portion of that.
    And so I guess the Members would probably want an update on 
what the secretary's plan is moving forward withholding senior 
VA leaders accountable.
    Mr. Gibson. Yes, sir. Great question.
    First of all, that was my decision--I own it--not Bob's. We 
should have done a better job of communicating it. Bad on us. 
Bad on me.
    Secondly, as we looked at the situation, recognizing that 
the Justice Department would not be defending that particular 
provision of the Choice Act, we work hard to build a case that 
we believe will withstand appeal. The concern that we had was, 
regardless of how hard we worked, and all the evidence that we 
compiled to support a removal or a removal from the senior 
executive service, that if we made that, put that forth under 
the expedited authority of the Choice Act, that we were giving 
the senior executive a, basically, a roadmap for having our 
decision overturned.
    So the idea is reverting back to the old authority. When 
you gave us the authority--and I made the decision, every 
single senior executive action that we took to the department 
that involved either removal or removal of the senior executive 
service, we used the expedited authority for that. Not one 
single time did we go back to the old authority.
    So we feel like we have to do that in this interim period 
of time so that the decisions that we make can actually stick 
and not be overturned on this legal technicality. And my hope 
would be that Congress would approve the Veterans First Act, 
which basically addresses this issue both, for by transitioning 
medical center directors and network directors, to Title 38, 
changing the appeal right and process for other senior 
executives, and then for rank and file members of the staff, 
being able to appeal to the full MSPB.
    The Chairman. The other issue, I think that we need to have 
a little clarity on is some comments that Dr. Shulkin made 
yesterday in front of the Senate as it related to some IT 
provisions and retiring VistA, possibly, in favor of a modern, 
commercial platform. Can you elaborate a little bit on what is 
going on and how long before the Department gets an official 
notification?
    Mr. Gibson. Sure. First of all, it would appear as though 
we are batting zero on our timely communication on issues. 
Apologies. And I say that only--am very serious about it, even 
though I make it with a little levity.
    I think the timing of the hearing and the subject of the 
hearing, and the witnesses of the hearing really put us in a 
position where we really needed to go ahead and raise the issue 
in that particular forum. What we have done is, really, at this 
stage, only look from a planning standpoint. As you know very 
well, the plan all along has been to continue to invest in 
VistA evolution.
    As we have brought in a new information and technology--a 
new chief information officer from the private sector; a new 
under secretary from health, from the private sector; a new 
principal deputy under secretary for health, who came to us 
from DoD, and actually participated in the work that was done 
that resulted in the Cerner contract at DoD. What we have done 
is taken a look forward and concluded that we believe, based on 
everything we know, and the way the electronic health care 
market exists today, that the right long-term solution for us 
is a solution with a commercial off-the-shelf application.
    That happens also to be the recommendation that we expect 
to be coming out of the Commission on Care. We are at the 
absolute earliest stage. I would say that, you know, that is 
what we sensed the direction is. We need to come sit down with 
you, and with the staff, and with other Members of the 
Committee and discuss our sense of all of that in much more 
fulsome detail, because ultimately, whatever direction we go in 
will be dependent upon the Congress' willingness to authorize 
and appropriate the funds required in order to be able to move 
ahead.
    The Chairman. Thank you very much for the update. We look 
forward to further discussion--
    Mr. Gibson. Yes, sir.
    The Chairman [continued]. --and with that, I will waive my 
question time and move to Ms. Brown.
    Mr. Gibson. Thank you, sir.
    Ms. Brown. And I will be expedited, quick. First of all, 
let me thank you all for your comments and your testimony.
    Just a quick comment. Mr. Weidman, I am very interested in 
working with you to make my bill as--our bill as doing the 
things that we want to do, so we can do away with families that 
are homeless on the street, because that is just not 
acceptable. And I feel that the agencies need to work closer 
together, whether it is the Department of Labor, Agriculture, 
whoever--whatever services, wraparound services, we need to 
work together to make sure that they get what they need--we 
need to do it. So thank you very much.
    On the issue about the dogs being on transportation, there 
is really a shortage of dogs. I mean we use them for security. 
We use them for veterans. We use them for a lot of different 
things, so we need to look at that as we move forward.
    The Federal prison system actually do the initial training 
of the dogs--I have seen it, and they do an excellent job--and 
then there is a program that once they leave there, they go 
down to Orlando and stay with whoever's training them for a 
year, and then they are placed in different organizations. So, 
it is amazing that there is really a shortage of these dogs.
    So, as we move forward--I don't know why everybody is 
looking at me kind of blank--but the dogs--I am a person that 
in the past, I have not been a dog lover, but now I am a dog 
lover, and I see how wonderful they respond to veterans, but 
they also--we use them for security. We use them for so many 
things.
    So, thank you very much, and as we move forward, we need to 
take a look at it, and I yield back the balance of my time.
    The Chairman. Thank you very much, Ms. Brown.
    Dr. Benishek, you are recognized.
    Mr. Benishek. Thank you, Mr. Chairman.
    Well, good morning or good afternoon, I guess, it is now. 
Mr. Gibson, I have got a few questions for you, unfortunately, 
I guess.
    Mr. Gibson. I'm sure they are great questions.
    Mr. Benishek. Well, you know, I have been concerned about 
this mental health crisis line thing--
    Mr. Gibson. Yes.
    Mr. Benishek [continued]. --and my pet peeve about not 
being able to reach the crisis line at a VA medical center via, 
you know, a one-digit thing. And I am a proud co-sponsor of Mr. 
Young's legislation to have quality control standards for a 
mental health crisis.
    And in conversations with you, I think there was some 
concern over the fact that we weren't converting to a single-
digit number because you didn't have enough people to answer 
that call. Well, that would be still be the same as if you had 
to dial a ten-digit number. Where are we? I mean, apparently, 
you don't believe that Mr. Young's bill makes any sense, but 
there is still a problem in the VA, and why not, why doesn't 
this make any sense?
    Mr. Gibson. Thank you for the question.
    What we have begun rolling out--we started, actually, in 
the middle of May--it is called Option 7. And by, I believe it 
is the beginning of the second week of August, every single 
medical center in the country, the first item on the IVR when 
the veteran calls in will be: If you are in crisis, press 7. 
And the call will go immediately and directly to the Veterans 
Crisis Line.
    Mr. Benishek. So, by August 2nd?
    Mr. Gibson. By the second week of August--
    Mr. Benishek. Second week of August.
    Mr. Gibson [continued]. --you will have that implemented. 
What we are doing right now--
    Mr. Benishek. At every VA in the country, you are saying?
    Mr. Gibson. Yes, every single one. And I recall your 
conversation at breakfast about that. And as we looked at that, 
we took that into account as we were doing our planning.
    As we--we have been investing in technology and staff and 
facilities--
    Mr. Benishek. Well, that answers my question, directly, 
and, you know, I look forward to making a few calls the second 
week of August.
    Mr. Gibson. You know, I would be glad to give you a list of 
facilities that we have already converted and you can start 
calling now.
    Mr. Benishek. Well, last time, it was 14--only 14 the last 
time I asked.
    Mr. Gibson. Fifty-five is the last count that I got.
    Mr. Benishek. All right. Well, that is an improvement. 
Thank you for that.
    Mr. Gibson. Yes, sir.
    Mr. Benishek. What is the reason that the burial benefits 
to veterans differs between people going to one hospital versus 
another?
    Mr. Gibson. I have no earthly idea. We support the change 
in the legislation and, in fact, what we have asked for in TA 
is allow us to pay the maximum amount, because $747 didn't go 
very far to pay burial expenses.
    If we are able to pay the maximum amount routinely, then 
what that does is, it let's us expedite the process. Rather 
than having the veteran submitting invoices and all that sort 
of thing, just let us pay the maximum amount, $747, and we get 
it done.
    Mr. Benishek. Well, I am just--go to another bill, this 
WINGMAN bill, there were some concerns about this. And, you 
know, we spend a lot of time in our office investigating and 
trying to help veterans with a variety of issues related to 
their claims and all that. And our staff, you know, has to--I 
mean the veteran has to sign off in order to give our staff 
permission to even learn about the file--
    Mr. Gibson. Right.
    Mr. Benishek [continued]. --and I--you know, we want that. 
But I think the staff just wants to have--and I think, 
communicate with veterans services officers all the time trying 
to find out what the problem is with these claims. And I think 
it is just a matter of the time.
    We want to be able to have access to the accurate 
information and try to improve the time that we can solve these 
problems faster. And I don't think--what is the concern amongst 
the--is there a problem? I guess some people raised the 
question as to there is a problem--this is a problem.
    So why is it a problem, since the caseworker from my office 
has to get this information eventually anyway in order to be 
effective. So--I don't know--Mr. Gibson, please answer shortly 
so it will give the other guys a chance to voice their 
concerns.
    Mr. Gibson. One of the issues is, even if you grant that 
access, if a claim has been brokered, you may not know where 
that claim went. So you don't know where it is in the process. 
So there is a lot of behind-the-scenes things that won't be 
solved immediately with that.
    Also, on the back end of that, if a VFW service officer 
looks at a claim that they are not supposed to look at, they 
lose their certification. They lose their job.
    If your employee looks at it, they just lose their 
certification. There is no real incentive not to violate and 
get curious, and see who they are going to look at, and whose 
cases they may open up and just look through. So, those are the 
types of concerns; we need to make sure there is a back end to 
protect veterans' privacies. For us, it is being fired. That is 
not necessarily the case with the congressional office.
    Mr. Benishek. Does anyone else have a comment?
    Mr. Blake. Dr. Benishek, if I understand the bill, right, 
it would essentially give a congressional staff Member an 
access point so they can look into a claims file and then see 
it. They could look into the system and see where it is at.
    And a veteran, on average, would call and say, I would like 
to know what the status of my claim is, what is going on with 
my claims? And if an individual looks at it out of context, 
they can't tell that veteran what they really want to know. And 
being able to see the claim in space, doesn't tell the veteran 
anything. It doesn't tell them where it actually is in the 
process, what is being considered, what evidence issues there 
may be. It doesn't fully contemplate--
    Mr. Benishek. Well, no, I--you know, I think the veterans 
service officers, you know, are critical in this process, and 
that the people that I employ probably have no idea as to the 
details, although I think they may not be happy if I said that, 
but--because they are very interested in adjudicating and 
helping, you know, these veterans get service. And have a 
legislative liaison person that we can reach out to, to 
facilitate this is helpful, I think.
    Mr. Celli. All right. Well, I know you are out of time, but 
I can tell you that I know The American Legion and I suspect my 
colleagues also would be more than happy to come in and sit 
down with your staff and try to work something out that works 
for everyone--
    Mr. Benishek. All right.
    Mr. Celli [continued]. --something we would all be able to 
get behind.
    Mr. Benishek. All right. Thanks.
    Sorry, Mr. Chairman.
    The Chairman. That is quite all right.
    Ms. Titus?
    Ms. Titus. Well, thank you, Mr. Chairman. I would like to 
thank all the witnesses for all their help in putting together 
the appeals bill. I don't know if you all can see this or not, 
but this is the current appeals process; it looks like some 
kind of Rube Goldberg scheme.
    But, anyway, this is a historic moment, so I appreciate 
your suggestions and comments, but let us not move forward with 
this. This is a time we have got to do it, and if we don't do 
it now, the situation is just going to get worse.
    Mr. Gibson, thank you, especially, for being here too. I 
have talked to the CBO, the Congressional Budget Office, to try 
to get a score on the bill, and so far they have told us that 
it is going to be kind of negligible; the only cost would be to 
do training some of the employees on the new process.
    Could you--I understand you have done some budget analysis 
too. Can you tell us what you found about cost?
    Mr. Gibson. That parallels the analysis that we have done 
and all the conversations that have been had, all the 
information that we have furnished to the CBO, we continue to 
believe that the modernization of the appeals process has a 
negligible cost.
    Ms. Titus. And related to that, I know that we have seen 
the figure that by 2027 it will take ten years to do an appeal, 
and under the new system, I think the goal is under one year. 
Can you tell us what the cost would be to get to that goal if 
we keep the old system instead of going to the new system?
    Mr. Gibson. Well, you know, what we have modeled there is 
an additional $2.6 billion on top of the three and a half 
billion that we would expect to spend in ordinary course of 
business adjudicating appeals over the coming ten-year period 
of time. That actually doesn't quite get you to the one-year 
standard; it gets you to about a two-year standard, but it is a 
very, very expensive way to try to solve a fundamental problem.
    And, frankly, it still leaves us with a process that is 
hard to understand, it is not simple, it is not an opaque 
process, and so it doesn't meet all the needs of our veterans.
    Ms. Titus. So, from rather insignificant costs with the new 
system to 2.6 billion additional dollars with the old system--
    Mr. Gibson. Yes, ma'am.
    Ms. Titus [continued]. --besides, then you still have the 
old system, that would be the difference?
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. We came at this through a very collaborative 
effort. The VSOs were very much involved, and at the table; we 
have heard that repeatedly. But would you kind of describe for 
us, the system, where we came up with this new framework?
    Mr. Gibson. Well, I would--you know, I would start by 
saying the fact that there were no fisticuffs over the previous 
four months as we were going through this process, is one of 
the really great positive signs. As a couple of my colleagues 
here have mentioned, this is not something that we have really 
done before.
    The plea was: The process is broken, we are failing 
veterans, the time to fix it is now. And the approach was: 
Let's put it all on the table.
    I would salute all of these organizations and the others 
that were mentioned. And I am reminded of my conversation with 
Bob Wallace from VFW after the Senate hearing on this topic, 
where he was observing to me that we have got to get to a point 
here in Washington where ``compromise'' isn't a dirty word. You 
know, we all came into this process, all with sort of 
preconceived notions about what we wanted, but what we tried to 
do was focus on a system that is fair, that is relatively 
simple, that is transparent, and delivers a timely result. I 
mean, those were sort of the guiding principles that I think we 
would all say we tried to manage toward.
    And I don't know that--I am certain that what we have isn't 
perfect. I am certain that we don't have complete and unanimity 
about this, but if we hold this opportunity hostage for 
perfection or total unanimity, we are never going to get 
anything done. I think the time to act is right now.
    And I am grateful to all of our partners for the work that 
they did to help us get to where we are. And I would say that 
we have committed to this group, and I will do it here again 
publicly, to continue to work on the legacy appeals and the 
current inventory of appeals; likewise, we are putting 
everything on the table there to try to figure out the best way 
forward.
    Ms. Titus. Well, thank you, and thank all of you for being 
such a part of this.
    One last quick question. We heard about the due process. We 
want to protect the due process. Do you all feel confident that 
the due process of the veteran is protected under this new 
system?
    A nod or--would be fine. I guess they can't get a nod on 
the record, but if anybody doesn't to speak up.
    Mr. Kelley. If we ensure that the duty to assist is solved 
in this, that at some point, the veteran is aware of what to do 
with new evidence that is not going to be seen by the Board or 
by the Court, that they know what to do with that, so their 
effective date is protected and that piece of information does 
have that due process of being seen and adjudicated.
    Ms. Titus. Thank you.
    Mr. Weidman. If this bill moves forward, VVA strenuously 
objects to changing new and substantive, to new and relevant. 
VA gets to decide what is relevant, as opposed to the veteran 
decide what is--what needs to be going on the record. So they 
don't even have to put it on the record if they don't want to 
consider it.
    And as we move towards a veteran-centric system, much of 
our problem with this is, it is not a veteran-centric system, 
number one, and number two, as I mentioned before, the whole 
lack of precedence means you can't automate like you should be 
able to, because the rules aren't there. I mean, legally, it is 
not going to hold up.
    So, the question of due process is some--in some ways it 
diminishes, and we have a problem with that.
    Ms. Titus. Okay. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Dr. Abraham?
    Mr. Abraham. A couple quick questions for Mr. Gibson. In 
view of what you and Dr. Miller--I mean, Mr. Miller, just 
talked about with Dr. Shulkin on the IT system--
    Mr. Gibson. Yes, sir?
    Mr. Abraham [continued]. --in reference to 5083, what is it 
going to take as far as time and cost to spool this up and get 
it uploaded to the VA's IT system as it stands today and 
looking into the future?
    Mr. Gibson. You are talking about the modernized appeals 
process?
    Mr. Abraham. That is right.
    Mr. Gibson. Okay. We estimate that it is about an 18-month 
timeline. We would be doing several things in parallel; system 
changes to--in VBMS, training for staff, increased hiring of 
staff, as well as a rule-making process, because--
    Mr. Abraham. And that is with the current software or are 
you anticipating new software?
    Mr. Gibson. I think there would be some necessary--I am 
going to look back here to make sure I am not saying something 
stupid; all right, thanks--I am not. Or they say I am--I am not 
sure which that was.
    I think the changes from a programming standpoint, I don't 
believe are that consequential. You know, there are some 
changes that go into the system that have to do with 
communicating our decision, because a lot of that process has 
been automated. And we have committed to a much more fulsome 
process in terms of communicating a decision to a veteran on 
the front-end in easy-to-understand language, so that they can 
actually understand what we are talking about doing.
    So, I think all of that taken together is about an 18-month 
process, but I don't think the costs associated with that are 
nominal costs; these are not significant costs.
    Mr. Abraham. And just one final question. Mr. Blake alluded 
to it; 5083 really doesn't, I don't think, addresses the 
current backlog.
    Mr. Gibson. That is correct.
    Mr. Abraham. What are you guys going to do about that, or 
how are you going to address that?
    Mr. Gibson. Well, as several have mentioned here, we are 
working together to figure that out. We are looking at some 
process changes. We are also looking at different alternatives 
about some interim surge, and we intend to ask Congress in 2018 
and 2019 for additional resources to be able to accomplish 
that.
    Mr. Abraham. What--
    Mr. Gibson [continued]. Well, what we have modeled 
previously was an aggregate over a five-year period of time of 
an additional $700 million over a--spread over a five-year 
period of time. Now, we are looking at variations on that to 
determine the timing and the adequacy of that, and, again, we 
are doing it in concert with our partners here.
    If we did something like the off-ramp alternative, that 
probably would change it, I would like to think in a positive 
way, because it basically expedites the work for the veteran.
    Mr. Abraham. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you very much.
    Ms. Radewagen?
    Ms. Radewagen. Thank you, Mr. Chairman. I want to thank the 
panel for appearing today and thank you for your service to the 
Nation. I just have one question.
    Mr. Secretary, in your testimony, you refer to an appeal--
the Board is still adjudicating an appeal that originated 25 
years ago--
    Mr. Gibson. Yes, ma'am.
    Ms. Radewagen [continued]. --even though the appeal had 
previously been decided by VA more than 27 times, you said.
    Mr. Gibson. Yes, ma'am.
    Ms. Radewagen. How would enacting H.R. 5083 address the 
issue of endless appeals and ensure that all veterans receive 
accurate and timely decisions? And how would this proposal 
reduce the appeals backlog when veterans are allowed to retain 
their effective date by submitting new and relevant evidence 
once a year?
    Mr. Gibson. Yes, ma'am. First of all, as you can seen here, 
part of what the collaborative work has been is to preserve the 
rights and opportunities of veterans to pursue their claim in a 
fulsome manner, and that has--we have worked collaboratively to 
try to get there.
    In the course of accomplishing that, what happens is, there 
is still the possibility that a veteran, like our veteran of 25 
years, who has been--whose claim has been decided 27 times--
incidentally, that veteran is receiving 100 percent 
compensation, 100 percent service-disabled--that they would 
continue to submit additional evidence to continue to pursue 
the claim.
    The huge majority of veterans don't want to do that. There 
are going to be some relatively small number, that I have no 
doubt, will do that. The vast majority of veterans, when they 
actually get into an appeal, often times will say, even once 
they have gotten their decision, even if it didn't go their 
way, they say, well, I just wanted somebody to hear--to be 
heard. I wanted to understand or I wanted to see what was in 
the claim.
    We were talking earlier about the access to the claims 
file. Darn it, veterans ought to see what is in their claims 
file. I mentioned that in the opening statement and I have been 
pushing now, for over a year, to get that done. And as we are 
migrating eBenefits over into Vets.gov, the plan is to do that. 
We hope by the end of this year to be able to provide a veteran 
access to their claim file through eBenefits. We may not be 
able to do quite all of it in December--some of that may spill 
over into 2017--but that is the objective there. Because they 
should see; that is part of creating this kind of transparent 
process.
    And then when you look at the lanes that we have created, 
the ability for a veteran at the point of a decision to say, 
first of all, he understands better why all or a portion of his 
claim wasn't approved in the first place, because we provide a 
more elaborate discussion, then the veteran can make an 
informed decision: Oh, I realize now there is a vital piece of 
evidence missing in my claim.
    So the veteran can supplement--can submit a supplemental 
claim--not into the three-year appeal process--but right back 
into the 125-day claim process and be able to get a decision 
or, alternatively, the veteran wants to pursue the issue to the 
Board.
    And so it is giving the veteran those kinds of choices, 
fair, simple, transparent, and timely. That is what the huge, 
huge majority of veterans want. They don't want a process that 
turns over and over, but I have no doubt that there will be 
some very small number of veterans who choose to do that.
    Ms. Radewagen. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you very much. Members, thank you. To 
the panel, thank you for being with us.
    I have a couple of questions that I will send in to you for 
the record. One is, you know, can reform, be it appeals reform 
or any other type of reform, be achieved without 
accountability? So I will give you some time to think about 
that for a response.
    And number two, for all the VSOs here, if Ms. Titus' 
appeals reform bill were to advance as it is in its current 
state, would you support or oppose it? So that question will be 
coming to you.
    And I know there will be a plethora of questions for the 
record that Members will have because, obviously, the appeals 
reform bill is very complicated, and we need to kind of dig 
into the weeds a little bit. But thank you all for being here 
today.
    I would ask unanimous consent that all Members would have 
five legislative days, with which to revise and extend their 
remarks or add extraneous material.
    Without objection, so ordered. This hearing is now 
adjourned.

    [Whereupon, at 12:28 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

         Prepared Statement of Representative Ted S. Yoho, DVM
                          H.R. 5166 - WINGMAN
    Good Morning Mr. Chairman, Ranking Member, and distinguished 
committee members. I want to take a moment to thank you all for 
allowing me to testify on behalf of the veterans and their families 
nationwide who stand to benefit from the enactment of H.R. 5166, 
Working to Integrate Networks Guaranteeing Member Access Now Act - more 
commonly referred to as, the WINGMAN Act.
    Over the past two years, my office has urged the Department of 
Veterans Affairs (VA) to work with Members of Congress to grant 
certified constituent advocates' read-only access to the Veterans 
Benefits Management System (VBMS). Three letters were sent to Veterans 
Affairs Secretary Bob McDonald by a bipartisan group of Members of 
Congress asking for the VA to act on its own and provide this access 
but to no avail. Over one-hundred and two Members signed one or more of 
the letters, including Members of this Committee, and the request was 
endorsed by Veterans of Foreign Wars.
    During this time, a July 10, 2015 story broke reporting that the 
Los Angeles Veterans Affairs Regional Office was shredding documents 
needed to process claims, further adding to the necessity of the VA to 
grant read-only access to e-Claims. During this time, thousands of 
veterans and their families remained in limbo awaiting resolution on 
their claim - some who had already been waiting for years. Veterans and 
their families should have to wait no longer for the VA and this 
institution to act.
    It is unconscionable that a single man or woman who has answered 
the call to serve our nation, protect our freedoms, and potentially 
sacrifice their life should have to wait to receive the care and 
benefits they have more than earned. Unfortunately, the reality for 
many of our veterans is that the system designed to have their back 
leaves them questioning whether or not the country cares at all what 
happens after they fulfill their contract. They become statistics, 
numbers on a page that can wait until it is convenient for bureaucrats 
in Washington to act.
    I requested a report regarding wait-times to hear back from the VA 
from my constituent advocates who work hundreds of cases for veterans; 
the average time it takes to receive a response from the VA is six 
months and in one case, it took a year. A year for the VA to respond to 
a Congressional office inquiring about a veteran's claim; this is 
unacceptable.
    With read-only access, certified staff need only make a single 
request from the VA, after obtaining the constituent's privacy release 
form. The mechanism we would recommend the VA use to permit certified 
staffers access would be similar to that currently used by claims 
agents - form 21-22A. This process would limit access solely to 
veterans who have requested the congressional office act on their 
behalf, as well as limit access for cases germane to each 
Congressperson's district.
    WINGMAN also ensures the integrity of VSOs remains intact through a 
nonrecognition clause. This means that congressional advocates will 
continue to refer a first-time claimant to service officers and claims 
agents and only take on the veterans' case after all other resources 
have been exhausted; which is the current process followed.
    Additionally, the cost to implement WINGMAN is assumed by whichever 
Congressional office is requesting access. I recognize not every office 
wants nor needs this access as they may have a significantly smaller 
veteran population in their District. However, for offices that do want 
this access, they will be required to use their MRA to cover the cost 
to train and certify their staff. This is an opportunity for Congress 
to literally put their money where their mouth is and alleviate some of 
the barriers preventing veterans from receiving the consideration they 
deserve in a timely fashion.
    I would also like to stress that this bill does not grant access to 
files constituent advocates do not already have permission to possess. 
It simply removes the VA as middle-man and allows advocates to access 
the records more quickly.
    My Republican co-lead on this bill, Representative Davis, knows all 
too well the pitfalls of maintaining the status quo and not making this 
critical change. As a district staffer for sixteen years, he 
experienced first-hand the difficulties of navigating the VA in order 
to help veterans. Often when veterans would visit him pleading for 
help, it was as a last resort and because they had nowhere else to 
turn. I agree with him when he emphasizes that, as a Member of 
Congress, helping veteran constituents is one of the most important 
duties we have the honor of being able to fulfill.
    There are over one-hundred and thirty Members cosponsoring the 
House bill, four have cosponsored the Senate version sponsored by 
Senator Cassidy, and AMVETS has endorsed this reasonable request. I 
thank the committee for their consideration of WINGMAN and hope we can 
work together to see this initiative through.

                                 <F-dash>
              Prepared Statement of Congressman Jody Hice
    I would like to thank Chairman Miller and Ranking Member Brown for 
holding this hearing today and inviting me to testify on behalf of my 
bill, H.R. 5047, the ``Protecting Veterans Educational Choice Act of 
2016.''
    Mr. Chairman, there are nearly one million student veterans using 
their Post-9/11 GI Bill benefits to pursue their educations, and that 
number is only expected to grow over the next several years. Despite 
this benefit - which is the most generous educational benefit our 
nation has ever offered - many veterans still end up having to take out 
student loans to cover the full cost of their education.
    In many cases, this is due to situations where veterans don't 
realize - or have been deliberately misled by college recruiters - that 
credits earned at one institution will not transfer to another school 
until they are already in the process of transferring to a new school 
after they have already expended a significant portion of their Post-9/
11 GI Bill benefits.
    The ability to transfer credits from one institution to another is 
governed by sets of credit transfer agreements between schools known as 
articulation agreements. If two institutions do not have an 
articulation agreement in place, there is no guarantee that a school 
will accept any of the credits earned at the other institution.
    To prevent situations where veterans - many of whom are first-
generation college students - are surprised by this aspect of higher 
education, I introduced H.R. 5047, the ``Protecting Veterans' 
Educational Choice Act of 2016.'' My legislation would require the 
Department of Veterans Affairs to include information about 
articulation agreements, as well as information about educational 
counseling services provided by the VA, to every veteran actively 
seeking to use their Post-9/11 GI Bill benefits.
    In addition, H.R. 5047 would require VA counselors who provide 
educational or vocational counseling to inform veterans about the 
various agreements that exist between schools that govern the transfer 
of credits. While schools are required by the Higher Education Act to 
provide on their websites - in an easily accessible manner - the 
policies of the institution related to transfer of credit from other 
institutions, these policies are not necessarily well-advertised. I am 
happy to work with the Committee to clarify the language so that 
providing veterans with this information will not be administratively 
burdensome for the VA counselors.
    My overall goal with this legislation is to ensure that no veteran 
feels as though he or she has misused their benefits because of a lack 
of information at the start of the process. Ultimately, decisions 
regarding how and where to use these benefits are rightfully left to 
those who served our country. However, it is incumbent upon Congress to 
ensure that our veterans are as informed as possible about the benefits 
and opportunities that they have earned. I strongly believe that this 
legislation will go a long ways to help accomplish this.
    Mr. Chairman, I look forward to working with you and all of my 
colleagues on the Committee on ways to improve this bipartisan bill and 
move it towards a mark-up.
    I yield back.

                                 
        Prepared Statement of Representative David Young (IA-03)
    Chairman Miller, Ranking Member Brown, and Members of this 
distinguished Committee.
    Thank you for the invitation to testify on my bill, H.R.5392, the 
No Veterans Crisis Line Call Should Go Unanswered Act. I greatly 
appreciate this opportunity to appear before you this morning.
    In April, an Iowa veteran called the VA Veterans Crisis Line - the 
confidential, toll free hotline providing 24 hour support for veterans 
seeking crisis assistance. This veteran was having a rough day and he 
needed help. As the veteran sought the help he desperately needed, the 
phone kept ringing, and ringing, and ringing. He tried again, but the 
only answer was ``all circuits are busy - try your call later.'' This 
hotline, designed to provide essential support for veterans and their 
families and friends, let him down.
    This heartbreaking story is tragically true, but it is not unique. 
And, thankfully this veteran was able to contact a friend who got him 
the help he was seeking.
    In 2014, a number of complaints about missed or unanswered calls, 
unresponsive staff, as well as inappropriate and delayed responses to 
veterans in crisis prompted the VA Office of the Inspector General to 
conduct an investigation into the Veterans Crisis Line. The 
investigation found `gaps in the quality assurance process,' and 
provided a number of recommendations to address the quality, 
responsiveness, and performance of the Veterans Crisis Line and the 
mental health care provided to our veterans.
    Despite promises by the VA to implement changes to address problems 
facing veterans who use this Crisis Line these problems are still 
happening, Mr. Chairman - they happened to constituents in the District 
I'm privileged to represent and they are without a doubt continuing to 
happen today.
    Veterans deserve more - they deserve quality, effective mental 
health care. A veteran in need cannot wait for help and any incident 
where a veteran has trouble with the Veterans Crisis Line is simply 
unacceptable.
    The Iowa veteran's experience that Saturday evening has troubled 
me. His experience is why I am here before you today - working to 
introduce a bill that ensures we follow through on the promises our 
country has made to our veterans.
    My bill, the No Veterans Crisis Line Call Should Go Unanswered Act, 
H.R. 5392, requires the VA to create and implement documented plans to 
improve responsiveness and performance of the crisis line, an important 
step to ensure our veterans have unimpeded access to the mental health 
resources they need.
    The unacceptable fact is - while these quality standards should 
already be in place, they are not. My bill does not duplicate existing 
standards or slow care for veterans. Instead, it puts in place 
requirements aligning with recommendations made by the OIG and other 
government accountability organizations to improve the Veterans Crisis 
Line.
    My bill requires the VA to develop and implement a quality 
assurance process to address responsiveness and performance of the 
Veterans Crisis Line and backup call centers, and a timeline of when 
objectives will be reached. It also directs the VA to create a plan to 
ensure any communication to the Veterans Crisis Line or backup call 
center is answered in a timely manner, by a live person, and document 
the improvements they make, providing those plans to Congress within 
180 days of the enactment of this bill.
    Mr. Chairman, my bill would help the VA deliver quality mental 
health care to veterans in need - Iowa veterans and all veterans have 
faced enormous pressures, sacrificed personal and professional gains, 
and experienced dangerous conditions in service to our nation. And, 
many are returning home with post-traumatic stress disorder and other 
unique needs which require counseling and mental health supports. And 
we should thank them for their service. This is why I introduced this 
bill - to honor and thank our veterans and let them know America 
supports them. Our veterans answer our nation's call, and we shouldn't 
leave them waiting on the line.
    I appreciate and I thank the Committee for working with me on this 
bill and for your attention to this important issue - I look forward to 
continue working with you to provide our veterans with the best care 
possible.

                                 
                Prepared Statement of Rep. Doug Lamborn
    Thank you, Mr. Chairman,
    I ask Members to support H.R. 5416, which would help the families 
of deceased veterans who received care through the Choice program. .
    Currently, the family of a deceased veteran who passed away in a 
non-VA hospital that is under contract, is given a burial allowance of 
$747. However, if the veteran dies while receiving healthcare at a non-
VA facility under the Choice program, the family is only provided a 
$300 burial allowance.
    Mr. Chairman, it is not fair that families are penalized if a 
veteran uses the Choice program. Veterans should be able to participate 
in the Choice program without having to worry about the financial 
impact on their loved ones. My bill, H.R. 5416, would correct this 
inequity and allow families of veterans in the Choice program to 
qualify for a $747 burial allowance.
    I urge my colleagues to support this bill and yield back.

                                 
            Prepared Statement of The Honorable Sloan Gibson
    Good morning, Chairman Miller, Ranking Member Brown, and Members of 
the Committee. Thank you for inviting us here today to present our 
views on several bills that would affect VA programs and services. 
Joining me today are Laura Eskenazi, Executive in Charge and Vice 
Chairman of the Board of Veterans Appeals (the Board); David 
McLenachen, Deputy Under Secretary for Disability Assistance for the 
Veterans Benefits Administration, and Dr. Maureen McCarthy, Assistant 
Deputy Under Secretary for Health for Patient Care Services, Veterans 
Health Administration (VHA).
    Thank you for the opportunity to come before you today to discuss a 
slate of bills that includes two of the Department's legislative 
priorities, along with additional pieces of legislation. Our pressing 
needs are items that we have outlined in letters to the committee, in 
previous testimony, and in countless meetings with the committee and 
members staffs, which support the MyVA Transformation. Some of these 
critical needs are addressed in bills you are considering in today's 
hearing, but we'd like to work with you on the particular language to 
ensure that, as enacted, the language will have the desired effect of 
helping the Department best serve Veterans. VA will provide views 
shortly on H.R. 5162, the Vet Connect Act of 2016.
    I believe it is critical for Veterans that we all work together and 
gain consensus on a way forward for these pieces of legislation that 
will provide VA with the tools necessary to deliver care and benefits 
at the level expected by Congress, the American public, and deserved by 
Veterans.

Modernizing the VA Appeals System

    Addressing the claims appeals process is a top priority of VA. H.R. 
5083, the VA Appeals Modernization Act of 2016 would provide much-
needed comprehensive reform for the VA appeals process. It would 
replace the current, lengthy, complex, confusing VA appeals process 
with a new appeals framework that makes sense for Veterans, their 
advocates, VA, and stakeholders. VA fully supports this bill.
    The current VA appeals process, which is set in law, is broken and 
is providing Veterans a frustrating experience. Appeals have no defined 
endpoint and require continuous evidence gathering and re-adjudication. 
The system is complex, inefficient, ineffective, confusing, and splits 
jurisdiction of appeals processing between the Board of Veterans' 
Appeals (Board) and the Veterans Benefits Administration (VBA). 
Veterans wait much too long for final resolution of an appeal. We face 
an important decision about the future of appeals for Veterans, 
taxpayers, and other stakeholders.
    Within the current legal framework, the average processing time for 
all appeals resolved in Fiscal Year (FY) 2015 was 3 years. For those 
appeals that reach the Board, on average, Veterans are waiting at least 
5 years for an appeals decision, with thousands of Veterans waiting 
much longer. As Secretary McDonald noted in his February 23, 2016 
testimony, in 2015, the Board was still processing an appeal that 
originated 25 years ago, even though the appeal had previously been 
decided by VA over 27 times. VA continues to face an overwhelming 
increase in its appeals workload. Looking back over FY 2010 through FY 
2015, VBA completed more than 1 million claims annually, with nearly 
1.4 million claims completed in FY 2015 alone. This reflects a record 
level of production. As VA has increased claims decision output over 
the past 5 years, appeals volume has grown proportionately. Since 1996, 
the appeal rate has averaged 11 to 12 percent of all claims decisions. 
The dramatic increase in the volume of appeals is directly proportional 
to the dramatic increase in claims decisions being produced, as the 
rate of appeal has held steady over decades. Between FY 2012 and FY 
2015, the number of pending appeals climbed by 35 percent to more than 
450,000 today. VA projects that, by the end of 2027, under the current 
process, without significant legislative reform, Veterans will be 
waiting on average 10 years for a final decision on their appeal.
    Comprehensive legislative reform is required to modernize the VA 
appeals process and provide Veterans a decision on their appeal that is 
timely, transparent, and fair. This bill would provide that necessary 
reform. The status quo is not acceptable for Veterans or for taxpayers. 
Without legislative change, providing Veterans with timely answers on 
their appeals could require billions of dollars in net new funding over 
the next decade. By contrast, with legislation and a short-term 
increase in funding to address the current pending workload, VA could 
resolve the pending inventory, provide most Veterans with an appeals 
decision within 1 year of filing, and greatly improve the efficiency of 
the Appeals process for years to come. We believe this can be done for 
net additional costs over 10 years in the millions of dollars, not the 
billions required by the status quo, saving money in the long-term 
compared to where we are headed without reform. If we fail to act now, 
the magnitude of the problem will continue to compound.
    A wide spectrum of stakeholder groups have been meeting with VA to 
reconfigure the VA appeals process into something that provides a 
timely, transparent, and fair resolution of appeals for Veterans and 
makes sense for Veterans, their advocates, stakeholders, VA, and 
taxpayers. We believe the engagement of those organizations that 
participated ultimately led to a stronger proposal, as we were able to 
incorporate their feedback and experience having helped Veterans 
through this complex process. The result of these meetings was a new 
appeals framework, virtually identical to H.R. 5083, which would 
provide Veterans with timely, fair, and quality decisions. VA is 
grateful to the stakeholders for their contributions of time, energy, 
and expertise in this effort.
    The essential feature of this newly shaped design would be to step 
away from an appeals process that tries to do many unrelated things 
inside a single process and replace that with differentiated lanes, 
which give Veterans clear options after receiving an initial decision 
on a claim. For a claim decision originating in VBA, for example, one 
lane would be for review of the same evidence by a higher-level claims 
adjudicator in VBA; one lane would be for submitting new and relevant 
evidence with a supplemental claim to VBA; and one lane would be the 
appeals lane for seeking review by a Veterans Law Judge at the Board. 
In this last lane, intermediate and duplicative steps currently 
required by statute to receive Board review, such as the Statement of 
the Case and the Substantive Appeal, would be eliminated. Furthermore, 
hearing and non-hearing options at the Board would be handled on 
separate dockets so these distinctly different types of work can be 
better managed. As a result of this new design, the agency of original 
jurisdiction (AOJ), such as VBA, would be the claims adjudication 
agency within VA, and the Board would be the appeals agency.
    This new design would contain a mechanism to correct any duty to 
assist errors by the AOJ. If the higher-level claims adjudicator or 
Board discovers an error in the duty to assist that occurred before the 
AOJ decision being reviewed, the claim would be returned to the AOJ for 
correction unless the claim could be granted in full. However, the 
Secretary's duty to assist would not apply to the lane in which a 
Veteran requests higher-level review by the AOJ or review on appeal to 
the Board. The duty to assist would, however, continue to apply 
whenever the Veteran initiated a new claim or supplemental claim.
    This disentanglement of process would be enabled by one crucial 
innovation. In order to make sure that no lane becomes a trap for any 
Veteran who misunderstands the process or experiences changed 
circumstances, a Veteran who is not fully satisfied with the result of 
any lane would have 1 year to seek further review while preserving an 
effective date for benefits based upon the original filing date of the 
claim. For example, a Veteran could go straight from an initial AOJ 
decision on a claim to an appeal to the Board. If the Board decision 
was not favorable, but it helped the Veteran understand what evidence 
was needed to support the claim, then the Veteran would have 1 year to 
submit new and relevant evidence to the AOJ in a supplemental claim 
without fearing an effective-date penalty for choosing to go to the 
Board first.
    To fully enable this process and provide the appeals experience 
that Veterans deserve, VBA, which receives the vast majority of 
appeals, would modify its claims decisions notices to ensure they are 
clearer and more detailed. This information would allow Veterans and 
their representatives to make informed choices about whether to file a 
supplemental claim with the AOJ, seek a higher-level review of the 
initial decision within the AOJ, or appeal to the Board.
    H.R. 5083 would not only improve the experience of Veterans and 
deliver more timely results, but it would also improve quality. By 
having a higher-level review lane within the VBA claims process and a 
non-hearing option lane at the Board, both reviewing only the record 
considered by the initial claims adjudicator, the output of those 
reviews would provide a feedback mechanism for targeted training and 
improved quality in VBA.
    Though some may view this reform effort as too accelerated, we 
would like to reiterate that the topic of ``fixing the appeals 
problem'' has been debated and studied by experts in the field for 
many, many years. H.R. 5083 would be a solution to the problem. The 
time to act is now. The legislation itself is cost neutral. We are 
excited to be part of this work and to have the potential to lay down a 
path for future Veterans' appeals that is simple, timely, transparent, 
and fair. We owe it to our country to put in place a modernized 
framework for Veterans' appeals which we believe will serve Veterans, 
taxpayers, and the nation well for years to come.

Improving Recruitment and Retention and Improving Health Care 
    Management

    VA has proposed a number of measures to improve its ability to 
recruit and retain medical professionals. We appreciate your 
consideration today of H.R. 4150, the Department of Veterans Affairs 
Emergency Medical Staffing Recruitment and Retention Act, which is 
based on one of those proposals. The bill allows VA to arrange flexible 
physician and physician assistant work schedules to allow for the 
staffing and full implementation of a hospitalist physician system and 
to accommodate the unusual work schedule requirements for Emergency 
Medicine (EM) Physicians.
    VA supports this measure but would like to discuss two technical 
aspects of this bill with the Committee. There are differences in 
personnel authorities and overtime compensation between physicians and 
physicians' assistants which would present complications in 
implementation of the bill. We therefore propose the bill be limited to 
physicians. We also suggest amending language that limits total hours 
of employment for covered employees to 2,080 hours in a calendar year. 
We suggest a technical amendment to ensure the bill will cover full-
time employees.
    If the bill were revised as recommended above, we believe it would 
result in no additional cost to the Department.

Other Veteran Health Care Measures

    It is important to ensure that Veterans are given the fullest 
possible access to emergency care, and especially that there are not 
barriers to ensuring that patients who seek emergency treatment at VA 
are stabilized and treated. The Emergency Medical Treatment and Labor 
Act (EMTALA) is a federal law that requires anyone coming to an 
emergency department to be stabilized and treated, regardless of their 
insurance status or ability to pay. H.R. 3216, the Veterans Emergency 
Treatment Act would apply provisions similar to what is in (EMTALA) at 
42 U.S.C. Sec.  1395dd to enrolled Veterans requesting examination or 
treatment at a hospital emergency department of a VA medical facility 
(including when a request is made on the Veteran's behalf).
    VA generally supports the intent of the legislation, but does not 
believe it is necessary. VA currently practices under the spirit of 
EMTALA. Additionally, VA Emergency Departments are currently practicing 
under EMTALA guidance.
    We do note, as a technical matter, that H.R. 3216 would only cover 
enrolled Veterans, and not persons who are ineligible for VA health 
care but who require emergency treatment (such as humanitarian cases). 
There are also technical complications under the bill as currently 
written with respect to payment for care by non-VA facilities. We would 
be glad to discuss these issues with the Committee.
    We do not believe this bill would result in any additional costs to 
the Department.
    H.R. 4764, the Puppies Assisting Wounded Servicemembers (PAWS) Act 
of 2016, would require VA to carry out a 5 year pilot program under 
which VA would provide service dogs to eligible Veterans. This would be 
done in addition to other types of treatment provided for posttraumatic 
stress disorder (PTSD) and would be prohibited from replacing an 
established treatment modality.
    While VA certainly understands the intent of this legislation, we 
do not support the bill. VA's Office of Research and Development (ORD) 
is currently conducting a legislatively mandated study ?to learn if 
service dogs are an efficacious intervention in the treatment of 
Veterans with PTSD. We anticipate that our ongoing legislatively 
mandated study ?will be completed before any new legislative authority 
could be enacted and implemented. We strongly recommend that Congress 
await the results of this study, which will address the overarching 
question of whether service dogs are an efficacious intervention for 
Veterans with PTSD. ?
    There are a number of complications and possible unintended 
consequences that could result from enactment of H.R. 4764. This bill 
raises questions of equity or even discrimination if one population of 
Veterans receives a benefit that others do not. There are distinctions 
between emotional support or companion animals and service dogs. This 
is an important consideration, as we have been in recent contact with 
Assistance Dogs International and learned that they do not certify 
programs that provide emotional support animals.
    VA has not developed a cost estimate for this bill, but we note 
that the $10 million offset from the VA Human Resources and 
Administration account would impede significantly our ability to hire 
and retain personnel necessary to fulfill VA's mission of service to 
Veterans. We would be glad to facilitate meetings with clinical and 
research specialists to explain VA's concerns in more detail.
    There is no more critical mission for VA than to respond to 
Veterans who are in crisis. H.R. 5392 No Veterans Crisis Line Call 
Should Go Unanswered Act would direct the Secretary to develop a 
quality assurance document to use in carrying out the Veterans Crisis 
Line (VCL). VA would also be required to develop a plan to ensure that 
each telephone call, text message, or other communication to the VCL is 
answered in a timely manner by a person and consistent with guidance 
from the American Association of Suicidology. (www.suicidology.org).
    VA appreciates the interest of the Congress to ensure our ability 
to respond to Veterans most in need is second to none. VA supports the 
intent of this bill, but we do not believe it is necessary because our 
current efforts fully meet the goals of this bill. The VCL has 
developed a formal quality assurance program and implementation plan 
that includes call monitoring, complaint and compliment tracking, end-
of-call satisfaction measurement, and a formal coaching plan. The 
quality management plan includes a comprehensive database for tracking, 
trending, and reporting on quality improvement data from issue 
identification to actions and resolution for both VCL's primary call 
center and back-up call centers. Data will be used to inform training 
initiatives through a continuous quality improvement cycle that 
includes data collection, analysis and feedback, standard work review/
updates, training, and implementation. The quality assurance program 
will track staff adherence to standard workflow processes and provide 
feedback for every monitored call. These data will be trended and 
incorporated into both New Employee and Remedial Training for 
responders.
    VCL has also created a multidisciplinary Clinical Advisory Board 
consisting of key stakeholders from the VCL, VHA Member Services, VA's 
National Suicide Prevention Program, the Defense Suicide Prevention 
Office, the Center of Excellence for Suicide Prevention, the Substance 
Abuse and Mental Health Service Administration, VHA's Office of Public 
Health, and VA's Mental Illness Research, Education & Clinical Centers 
to share best clinical practices.
    This bill would not result in any additional costs.

VA Benefits Measures

    It is critical that Veterans and Servicemembers considering or 
using VA education benefits have reliable information about schools. 
H.R. 5047, the Protecting Veterans' Educational Choice Act of 2016, 
would require VA counselors who provide educational or vocational 
counseling services to also provide information about articulation 
agreements of each institution of higher learning (IHL) in which the 
Veteran is interested. An articulation agreement is an agreement used 
in transfers between schools that specify the acceptability of courses 
towards meeting degree, certificate, or program requirements. H.R. 5047 
would require VA to provide detailed information on educational 
assistance, including information on requesting education counseling 
services and articulation agreements to each Veteran who receives a 
certification of eligibility.
    VA supports the intent of H.R. 5047, as it outlines robust existing 
practices and services currently provided by counselors during the 
educational and vocational counseling process, as well as important 
information provided by VA when a certificate of eligibility is issued.
    There are no mandatory costs for this proposed legislation as it 
does not change direct benefits to beneficiaries. There are no 
discretionary costs as its requirements are already met by existing 
practices.
    H.R. 5166, the Working to Integrate Networks Guaranteeing Member 
Access Now Act (WINGMAN) Act would require VA to provide 
``accredited,'' permanent congressional staffers designated by a Member 
of Congress with remote, read-only access to VBA's electronic records 
of Veterans they represent, regardless of whether the Veteran whose 
record is accessed has consented to the disclosure of information. The 
bill also clearly states that the provision of access to the 
congressional staffer is not for purposes of representing Veterans in 
the preparation, presentation, and prosecution of claims for Veterans' 
benefits.
    VA understands the interest of Members in Congress in having 
current casework information for their Veteran constituents. VA, 
however, opposes this bill because it raise significant privacy 
concerns, and because it creates confusion with the function of VA's 
accreditation program in ensuring that Veterans have access to 
competent and qualified claims representation.
    The bill would actually provide congressional staff who assist 
constituents of a Member of Congress with greater access to VA records 
than is provided to a VA employee. Under the Privacy Act, Federal 
employees generally may access private records only when necessary to 
perform their duties. This bill would impose no similar restriction on 
access by congressional staff. Congressional staff would have 
unrestricted access to the medical records of Veterans and other VA 
claimants.
    Regarding how the bill conflates the concepts of access to claims 
records and representation of claimants, accreditation by VA as 
attorneys, claims agents, and Veterans Service Organization 
representatives is not done for purposes of providing electronic access 
to VBA's electronic records system. Rather, the purpose of VA's 
accreditation and oversight of representatives, agents, and attorneys, 
and other individuals is to ensure that claimants for VA benefits have 
responsible, qualified representation in the preparation, presentation, 
and prosecution of claims for Veterans' benefits. The laws governing 
accreditation do not address the issue of access to claimants' records, 
which are governed separately by other laws. Making congressional 
employees' access to claimant records a function of VA's accreditation 
program would unnecessarily complicate the operation of that program. 
Further, referring to congressional staff as ``accredited'' can only 
create confusion about whether staffers are accredited by VA for 
purposes of claims representation and what their role is in the claims 
process.
    Additionally, there are serious technological obstacles to 
implementing this bill. The bill would impose on VA a substantial 
burden to accommodate the contemplated access, necessitating changes to 
VA through its current systems. We are unable to provide an accurate 
cost-estimate at this time, although costs associated with changes to 
VA information systems would be substantial.
    VA is always ready to discuss with the Committee other ways VA can 
improve a Member of Congress' ability to effectively work with VA to 
resolve casework issues on behalf of their constituents.
    H.R. 5416, the Expanded Burial Benefits for Veterans Participating 
in the Veterans Choice Program would expand VA's monetary burial 
benefits to cover Veterans who die while hospitalized by VA or a non-VA 
health care provider by expanding the categories of non-VA facilities 
in current law. The bill would expand the facilities covered to include 
a non-VA facility where the Veteran was receiving care under Veterans 
Choice (specifically under Section 101 of the Veterans Access, Choice, 
and Accountability Act of 2014 (Public Law 113-146)).
    VA already pays the burial allowance for Veterans who die while 
receiving care at a non-VA facility when under VA contract. The 
Veterans Choice program is a similar program whereby Veterans can 
receive care from community providers. VA believes this is a logical 
extension of current law to account the supports this proposed 
expansion of burial benefits.
    VA also recommends changing the bill to simply pay the maximum 
benefit instead of the actual cost of the burial and funeral. Under 
current practice, VA generally pays the maximum benefit because the 
current average cost of a Veteran's burial and funeral exceeds by far 
the $700 maximum burial benefit. This change would greatly help VA 
automate and speed the payment of the benefit to the Veteran's family. 
VA would be glad to work with the Committee to refine the bill's 
language.
    We must note that VA support for this bill is contingent on 
Congress providing the necessary resources for carrying it out. Because 
of the relatively short notice for this hearing, VA has not yet 
developed an estimate of the benefit costs associated with this bill.

Other bills

    H.R. 5407, the Homeless Veterans Reintegration Programs for 
Homeless Veterans with Dependent Children would require the Secretary 
of Labor to prioritize the provision of services to homeless Veterans 
with dependent children, as well as submit reports and evaluations to 
the Congress.
    Because this bill concerns responsibilities and programs under the 
Department of Labor, VA defers to the views of that agency on H.R. 
5407.
    H.R. 5420 a bill to authorize the American Battle Monuments 
Commission to Acquire, Operate, and Maintain the Lafayette Escadrille 
Memorial would authorize the American Battle Monuments Commission to 
acquire, operate, and maintain the Lafayette Escadrille Memorial in 
Marne-la-Coquette, France.
    Because this bill concerns responsibilities under the purview of 
the American Battle Monuments Commission, VA defers to the views of 
that agency on H.R. 5420.
    H.R. 5428, the Military Residency Choice Act, would amend the 
Servicemembers Civil Relief Act regarding various tax and residency 
matters. Because this bill concerns responsibilities under the purview 
of the Department of Defense, the Internal Revenue Service, the 
Department of Justice, and others, VA defers to the views of those 
agencies on H.R. 5428.

Closing

    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to questions you or other members may have.

                                 <F-dash>
                 Prepared Statement of Raymond C Kelley
                            WITH RESPECT TO
                          Pending Legislation
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE:
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, thank you for the 
opportunity to provide our remarks on today's pending legislation.

H.R. 3216, VET Act

    The VFW supports this legislation, which would apply the Emergency 
Treatment and Labor Act to emergency care furnished by Department of 
Veterans Affairs (VA) emergency rooms.
    Last year, several instances of wrongdoing came to light where VA 
health care professionals refused to go beyond what their position 
descriptions require them to do and instead chose to deny veterans 
access to the care they needed. This includes a 64-year old veteran 
from Kennewick, Washington who drove to the Seattle VA medical center 
with a broken foot and needed assistance traveling the remaining 10 
feet to the emergency room entrance. Instead of assisting the veteran, 
a medical center employee instructed him to call 911.
    VA later issued a mea-culpa for the incident and VA Under Secretary 
for Health Dr. David Shulkin has instructed all Veterans Health 
Administration employees to ensure these instances are not allowed to 
occur again. While Dr. Shulkin is working to eliminate these errors, 
the VFW believes this legislation would ensure VA has the authority to 
do so.

H.R. 4150, Department of Veterans Affairs Emergency Staffing 
    Recruitment and Retention

    The VFW supports this legislation, which would grant VA medical 
facility staff the ability to have flexible working hours that best 
suit the demand for delivering health care to the veterans they serve. 
In response to last year's access crisis, VA has made a full-fledged 
effort to increase access for veterans who rely on the VA health care 
system for their health care needs. Yet, it continues to face numerous 
challenges in meeting the growing demand on its health care system.
    One of those challenges is the statutory 80-hour biweekly pay 
period limitation for title 38 employees. While most health care 
providers work a traditional 40-hour work week, hospitalist and 
emergency room physicians often work irregular schedules to accommodate 
the need for continuity and efficient hospital care. The VFW supports 
efforts to eliminate this access barrier and improve VA's ability to 
recruit and retain high-quality hospitalist and emergency room 
physicians.

H.R. 4764, Puppies Assisting Wounded Servicemembers Act of 2016

    This legislation would establish a pilot program to provide service 
dogs to veterans suffering from severe post-traumatic stress disorder 
(PTSD). The VFW supports this legislation, but urges the Committee to 
allow veterans of all eras to participate in the program, not just 
those who served after September 11, 2001. PTSD does not discriminate 
by service era, and all veterans deserve parity in the treatment for 
this disorder.
    With such a high ratio of veterans who have defended our nation 
being diagnosed with PTSD, VA must provide veterans mental health care 
options that work best for them. Recent studies show service dogs 
provide positive health care outcomes in veterans with PTSD. Such 
studies illustrate a reduction in symptoms from the PTSD Checklist, 
lowered effects of anxiety and depression disorders, as well as a 
reduced need for psychopharmaceutical prescriptions. Veterans who have 
service dogs also experience an increased participation in social 
settings, as well as overall satisfaction with life. The VFW supports 
continued efforts to evaluate the efficacy of using service dogs to 
treat PTSD and other mental health conditions.
    The VFW also strongly supports the continuance of care this 
legislation requires to maintain eligibility of canine health 
insurance. Continuance of care is crucial to successfully overcoming 
any illness, whether it is physical or mental. With VA only maintaining 
coverage of the service dogs if the veteran continues to see their 
physician or mental health care provider at least once a quarter, this 
legislation would ensure more consistent and open communication between 
the medical provider and veteran.

H.R. 5047 Protecting Veterans Educational Choice Act of 2016

    The VFW supports the intent of this legislation, however, we do not 
believe VA can provide articulation agreements based on the fact that 
the Department of Education does not track these types of agreements 
for individual institutions. Because VA would not have reasonable 
access to this information, it would not be able to fulfill this 
requirement. The VFW does agree that VA should be required to explain 
what an articulation agreement is and how the veteran may obtain 
information about such agreements, and that is why we support Section 
1, paragraph (b) of this legislation.
    There are reports suggesting some veterans are not receiving a 
satisfactory education when using their G.I. Bill benefits and other 
tuition assistance programs. This is because student veterans are 
bombarded with overwhelming amounts of educational information with 
little or no training on how to make an informed decision. We believe 
this issue stems from veterans being unaware of free pre-enrollment 
counseling services offered by VA. Section 1, paragraph (b) of this 
legislation would assist in diminishing this problem. By requiring the 
Secretary of Veterans Affairs to include information with the 
certificate of eligibility for education benefits on how to request 
information for counseling services and articulation agreements, we 
better equip college-bound veterans to make responsible education 
choices.

H.R. 5083, VA Appeals Modernization Act of 2016

    The VFW has actively participated in a series of meetings with 
other Veterans Service Organization (VSO) representatives and officials 
of VA in an attempt to identify opportunities for improvement to the 
current appeals process. We have worked in good faith to craft an 
alternative process which might provide speedier decisions without 
reducing rights and protections currently enjoyed by veterans. While 
the VFW is supportive of the direction this legislation is taking the 
appeals process, there are several areas that have not been fully 
addressed. Solutions to these areas must be found to ensure VA can be 
as efficient as possible and that veterans' rights are protected under 
the new system.

Duty to Assist

    The duty to assist claimants is well established by both regulation 
and case law. If a claimant at any point in the process identifies new 
evidence which is not of record, VA is obligated to assist the claimant 
in obtaining it. While we all want to see all the evidence submitted at 
the start of a claim, we understand that is not always possible. Newly 
discovered service or medical records may point to other evidence which 
must be obtained. New medical evidence may point to the need for an 
additional examination.
    We have two concerns about limiting the duty to assist at the Board 
of Veterans Appeals (BVA). First, it is unclear what, if any, action is 
required if a claimant submits new evidence during the appeal process, 
either in documentary form or during a hearing. It is likely that 
additional development may be required. However, this proposal does not 
address how that is to be accomplished. Should the BVA remand the 
appeal to the Veterans Benefit Administration (VBA) for development? 
Should the appeal be dismissed so the evidence can be developed? Or 
will the BVA make a decision based on the evidence in front of it, 
assuming that if the appeal is denied the newly submitted evidence will 
revert to VBA for additional development and decision? This last 
alternative suggests a legal problem: if the BVA receives evidence 
which in the center lane would trigger the duty to assist, and if the 
BVA makes a decision on that evidence without ordering additional 
development, would the veteran be precluded from bringing the claim 
back to the center lane for development because the issue was decided 
on that evidence?
    Second, we are concerned that with a limited duty to assist 
requirement at the BVA, appeals may not be remanded because the BVA 
decides that the failures are ``harmless error'' and would not affect 
the outcome of the appeal. While we agree that there is danger in 
overdeveloping a record, there is also truth in the old adage, ``you 
don't know what you don't know.''

Docket Flexibility

    Currently the BVA is limited to only one docket. Under this 
proposal, BVA would have to maintain at least two dockets in order to 
have the flexibility to more efficiently work its cases. At the very 
least, the BVA would need a separate docket for the fast, no hearing/
evidence lane so that those appeals are decided as rapidly as possible. 
In addition, BVA would need at least a second docket for those appeals 
requiring hearings. Finally, to achieve the greatest efficiencies, the 
BVA should have a separate docket for appeals wherein the claimant 
submitted additional evidence but did not request a hearing.
    While it may seem a bit extreme, we suggest a total of five dockets 
during transition. We believe the BVA needs the flexibility to use two 
dockets during the resolution of its current backlog: one docket for 
those wherein hearings are requested and a second docket for those 
appeals without hearings. It needs three additional dockets under this 
proposal: one docket for the fast appeals lane; one docket for the 
hearing lane and one docket where evidence is submitted but no hearing 
is requested.

New Evidence

    Under current law, a claimant must submit new and material evidence 
in order to reopen a claim after a final disallowance. We have long 
believed that this creates an unnecessary burden on both VA and 
veterans. In practical terms, VA is required to make a decision as to 
whether evidence is both new and material. A Veterans Law Judge 
recently estimated that between 10-20 percent of the appeals he reviews 
each year are on the issue of whether evidence is new and material.
    It is our belief that eliminating the new and material standard 
would reduce non-substantive appeals by allowing regional office staff 
to make a merits decision on the evidence of record. With merits 
decisions, veterans have a better understanding of why the evidence 
they submitted was not adequate, and any appeal is on the substance of 
the decision, not on whether the evidence was new or material.
    During our discussions with VA on an improved appeals process, we 
have argued that while a new and relevant evidence standard is 
potentially lower than the current new and material evidence 
requirement, it still imposes a bar to merits decisions, creating 
unnecessary work for regional office staff and unnecessary appeals to 
the BVA.
    The VFW proposes that the only requirement to obtain 
reconsideration of a claim should be the submission of new evidence.

Higher Level Review

    Under 38 CFR 3.2600, claimants may elect a review by a Decision 
Review Officer (DRO).
    This individual has the authority to conduct a de novo review of 
the evidence, order additional development as needed, and make a 
decision. No deference is given to the prior decision.
    Under this proposal, a difference of opinion review is provided. 
The reviewer need not be a DRO but can be anyone of a higher grade 
detailed to make the review. It is likely that this reviewer will not 
receive separate training and will have this assignment as an adjunct 
duty.
    The VFW believes that while retention of a difference of opinion 
review is potentially beneficial to claimants, this change in authority 
will ensure that less well qualified individuals will conduct these 
reviews, decreasing quality and increasing the number of claimants 
denied, thereby increasing appeals.
    Further, VA intends to make these reviews based solely on the 
evidence of record and preclude the authority to order additional 
development except for duty to assist errors. This presents the same 
problems for a claimant at a difference of opinion review as it does 
for evidence submitted at a BVA hearing described above. Any evidence 
submitted during a difference of opinion hearing would not be subject 
to the duty to assist. Once a decision is made, how might a claimant 
receive assistance by VA as required by the current duty to assist 
provisions of the law? This problem is not resolved by the language of 
this proposal. The VFW believes that the difference of opinion 
reviewers should be able to remand a claim for additional development 
based on evidence received during the difference of opinion review.

Claims in Different Lanes at the Same Time

    One of the unresolved issues is whether claimants may have the same 
issue in more than one lane simultaneously. Under the proposed appeals 
process, it appears that the following scenario is not precluded:

    A veteran files an appeal in the BVA fast lane (no evidence, no 
hearing). Several months later, and before the BVA issues a decision, 
the veteran obtains new evidence which is pertinent to the claim. Since 
the veteran is precluded from submitting it to the BVA, he/she must 
submit it to the claims lane for consideration and adjudication. 
Depending on the nature of the evidence and the relative efficiency of 
the regional office staff, it is possible that the veteran could 
receive a favorable decision at the regional office prior to the 
issuance of the BVA decision.
    It is for this reason that we urge Congress to address the 
permissibility of submitting evidence during the pendency of an appeal 
and to which entity it should be submitted. The VFW suggests that if 
the BVA cannot order a remand to properly develop evidence submitted 
during an appeal, than claimants should have the right to submit that 
evidence to the center lane while an appeal pends at the BVA.

Reports

    The only way to know whether a process is working is by collecting 
and studying the data generated by it. Noticeably absent from the 
proposed legislation is any requirement that VA collect data, analyze 
it and report to Congress and the public. At a minimum, Congress and 
the veteran community might want to know the following on a regular 
recurring basis:

     <bullet>  Current backlog

      I   The total number of appeals pending
      I   The subtotals of pending appeals at each stage of processing
      I   The average days pending at each processing stage
      I   What actions were taken during the reporting period to 
process and resolve pending appeals in each processing stage
      I   The oldest pending appeals at each stage and what action VA 
has taken to process them.

    <bullet>  Similar questions could be asked of VA concerning the new 
claims and appeal process

      I   How many claims are pending in each lane
      I   Average timeliness for processing claims and supplemental 
claims, by regional office
      I   Average timeliness for processing claims in the difference of 
opinion lane, by regional office
      I   Average days pending of appeals in the fast lane at the BVA
      I   Average days pending of appeals in the hearing lane at the 
BVA
      I   Average days pending of appeals in the evidence only lane at 
the BVA
      I   Total number of IMO requests made by the BVA
      I   Total number of IMO requests approved by the Compensation 
Service

    <bullet>  And, of course,

      I   Appeals granted, remanded and denied under the current 
appeals process
      I   Appeals granted, remanded and denied under the proposed 
appeals process.

Court of Appeals for Veterans Claims

    Veterans could be adversely effected by these changes because they 
will be discouraged from seeking review by the Court of Appeals for 
Veterans Claims (CAVC). As this proposal is currently written, the only 
finality to the process occurs when one of three things happens:

    1.The veteran becomes satisfied with a decision and stops seeking 
additional benefits;
    2. The veteran fails to submit new (or new and relevant) evidence 
within the one year period following a VA decision; or
    3.The veteran seeks review by the CAVC and is denied.

    Under this proposal, the only possible time a veteran might seek 
review by the CAVC of a decision is when he/she has completely 
exhausted every possible piece of new evidence and has absolutely 
nothing left to submit to VA. One could argue that this is good for 
veterans and the BVA since it ensures that only those claimants who 
have no more evidence to submit go to the CAVC. Fewer appeals mean 
fewer remands.
    It also means fewer precedent decisions instructing VA that their 
practices do not conform to regulations and their regulations do not 
conform to the law. The CAVC has provided a significant and useful 
function throughout its nearly 30 years of existence--it has told VA 
when it was doing things wrong.
    This bill is intended to create a new claims and appeals process. 
VA must write regulations which fill in the gaps and provide additional 
guidance to both VA employees and veterans. Without judicial review, 
there exists no entity which can review VA's actions and determine 
whether they follow the law.
    This proposal is designed to significantly reduce the impact of the 
CAVC on claims processing with VA by discouraging veterans from 
appealing to the Court. To ensure that veterans are not discouraged 
from appealing to the CAVC, we urge Congress to amend this proposal to 
allow claimants to submit new evidence within one year of a CAVC 
decision.
    This legislation, even if approved with VFW's recommendations, is 
only one third of the solution. There are two elements missing from 
this proposal:

    <bullet>  A comprehensive plan by VA to competently and efficiently 
address the current backlog of pending appeals; and,
    <bullet>  An allocation of sufficient resources by Congress to 
allow VA to execute its plan.

Plan to Reduce Current Backlog

    VA must have a plan in place to process to completion the 450,000 
pending appeals. It must be part of the proposed legislation for two 
reasons:

    VA will need additional latitude to process its current backlog of 
appeals. Changes to claims and appeals processing which VA may wish to 
consider include:

    a.Allow the BVA greater flexibility in managing its workload. 
Specifically, the BVA should be able to maintain a second docket to 
allow faster processing of non-hearing appeals.

    b.There are many cases pending BVA review which have additional 
evidence submitted while the issue was on appeal but not considered by 
VBA. In order to facilitate efficiencies, VA should be allowed to 
screen and assign those appeals to regional office staff for the 
purpose of determining whether the benefit may be granted. We suggest 
that with the greater number of Rating Veterans Service Representatives 
available to review those appeals, many could be granted without 
further appellate review. In the case where a full grant of benefits is 
not possible, the case can be returned to the BVA for further 
consideration without loss of place in the docket.

    c.In the alternative, VA could create a cadre of DRO's who are 
tasked with pre-screening and deciding cases on appeal. They would have 
the authority to grant any benefit allowed under the law. They could 
also identify deficiencies in the record and order a remand. This 
alternative would free up VLJ's and their staff attorneys to more 
efficiently process other appeals pending before the BVA.

Staffing

    The other fundamental fact which must be acknowledged is that 
despite substantial increases in VA staffing over the past decade, VA 
remains unable to adequately process all its work.
    VA has received funding to perform only some of the functions 
assigned to it. If Congress expects VA to fulfill all of its tasks in a 
timely manner, it must provide the personnel to do so. Without 
appropriate levels of staffing, VA will continue to fail and veterans 
will continue to wait for decisions on their claims.
    Today, VA has sufficient personnel to process claims to completion 
in a reasonable time. It has sufficient staff to process appeals 
expeditiously. However, it does not have sufficient staff to do both 
functions simultaneously.
    The resolution of this backlog requires Congress to adequately 
staff both VBA and BVA to process the work it has before it.
    VA has been working on a plan for maintaining its current claims 
workload while attacking legacy appeals. Over the past several weeks, 
VA, at the suggesting of the VFW, reviewed and modified its FTE 
requirements to attach the legacy workload. While the new projections 
are more realistic, it remains to be seen whether VA's estimate is 
sufficient to complete this project by 2022. However, we do know this: 
allocation of fewer resources by Congress will guarantee that some, 
perhaps many appellants will wait until 2025 or longer to receive a 
decision by BVA.

Recommendations:

    Our recommendations for amending this proposal are summarized 
below:

    1.Require VA to devise a detailed and comprehensive plan for 
processing its current work while also processing its current appeals 
workload. This plan should include an estimate of total staffing 
required and a projected completion date based on receipt of that 
additional staff.
    2.Congress should provide the additional staffing as required. 
Failure to do so will ensure that appeals will continue to increase. 
Congress must properly resource VA to ensure the backlog of appeals is 
resolved quickly and efficiently.
    3.Congress should provide BVA with the flexibility to establish an 
additional docket to process its current workload.
    4.Once a new claims and appeal process becomes effective, provide 
the BVA with the flexibility to establish up to three additional 
dockets to handle appeals.
    5.Congress should allow VA eighteen months or longer to publish and 
finalize regulations necessary to implement this proposal.
    6.BVA should be required to remand to the center lane for 
additional development any evidence submitted during the difference of 
opinion or appeal process which triggers the duty to assist.
    7.If Congress limits the duty to assist as shown in the current 
version of this bill, it should allow the submission of new evidence in 
the center claims lane while cases are pending in either the difference 
of opinion or appeals lane.
    8.The DRO position should be retained.
    9.Congress should eliminate the new and material evidence 
requirement found in 38 USC 5108 and require only new evidence in order 
to reopen a claim.
    10.Evidence required to file a supplemental claim should be new 
evidence and not new and relevant evidence.
    11.Congress should require VA to provide the reports outlined 
earlier in this testimony and any other reports it deems appropriate.
    12.Considering the critical role of the CAVC in the oversight of 
VA's rules making and claims processing, we encourage Congress to 
provide claimants with the opportunity to submit new evidence within 
one year of a CAVC decision.

H.R. 5162, Vet Connect Act of 2016

    This legislation would lift the restriction on VA's ability to 
share the health care records of certain veterans without written 
consent from such veterans.
    To protect veterans diagnosed with drug abuse, alcoholism, the 
human immunodeficiency virus, and sickle cell anemia from 
discrimination based on their health conditions, Congress requires VA 
to receive written consent from such veterans before sharing their 
health information with non-Department health care professionals. 
However, legislation that has been enacted since this restriction was 
created now protects veterans from discrimination based on their health 
conditions. That is why the VFW supports efforts to streamline VA's 
ability to share veterans' health care information with non-Department 
health care professionals who provide care to such veterans through 
VA's community care programs.
    Proper sharing or exchange of veterans' medical records is 
imperative if VA is to properly coordinate care for veterans who 
receive non-VA care through the Choice Program or other community care 
programs. While we understand patient privacy concerns that have been 
raised in the past, VA must be authorized to make all health 
information available to community providers who deliver care to our 
nation's veterans.

H.R. 5166, the Working to Integrate Networks Guaranteeing Members 
    Access Now Act

    The VFW does not support this legislation at this time. While we 
agree there should be a more efficient way for congressional 
constituent services staff to assist veterans, there are current 
controls in place to limit access to veterans' records, and those 
controls must be preserved under any expansion of access.
    The VFW would insist that a release must still be signed before any 
access to records can be granted. There must be a limitation on access 
to only veterans who are constituents of the member of Congress. When a 
Power of Attorney (POA) is held by an individual or organization, that 
POA must be notified of the request. Any ``accredited'' congressional 
employee must be viewed as an ``agent'' regardless of that employee's 
status with a State Bar Association. This will ensure the employee's 
certification includes passing a certification test. Currently, VA 
provides background checks at no cost to Veterans Service 
Organizations. If this will also be the case with accredited employees, 
funding must be provided. If the intent is for congressional offices to 
reimburse VA for the cost of such background checks, it must be 
explicitly defined in legislation.
    Under current law, there are level-sensitive restrictions on most 
VA employees, preventing them from viewing certain files without 
expressed consent. These restrictions must extend to these accredited 
employees as well. Lastly, VA must have a tracking system to ensure 
these employees are only assisting their congressional constituents. 
Additionally, there must be a consequence for congressional staff found 
to have abused any aspect of their authority.

H.R. 5392, No Veterans Crisis Line Call Should Go Unanswered Act

    The VFW supports this legislation which would require VA to develop 
a quality assurance plan to ensure the Veterans Crisis Line operates 
according to industry standards.
    The VFW was disturbed to learn that many vulnerable veterans who 
took the important first step towards addressing suicidal thoughts by 
calling the Veteran Crisis Lines (VCL) were sent to voicemail. 
According to VA, these phone lines are expected to be answered 24/7 to 
ensure veterans, service members and their families are able to seek 
assistance whenever they need it.
    In 2015, the VA Office of Inspector General (OIG) reported that the 
VCL received nearly 1,600 phone calls per day; however, the daily 
average of answered phone calls was only 1,400. The VFW is glad to see 
that VA has made a number of improvements to the call center in 
Canandaigua, NY to address the issues highlighted in the OIG's report. 
VA now provides VCL employees with additional training and employee 
wellness programs to ensure they are ready and able to assist veterans 
contemplating suicide, significantly reduced reliance on backup call 
centers and redesigned call center layout for maximum efficiency. While 
VA's progress is commendable, the VFW supports continued efforts to 
ensure veterans who turn to VA during their time of need receive the 
care and service they need.

H.R. 5407, Amends title 38, United States Code, to direct the Secretary 
    of Labor to prioritize the provision of services to homeless 
    veterans with dependent children in carrying out homeless veterans 
    reintegration programs.

    No veteran deserves to live on the streets of the nation they 
defended, and their children most certainly should not be forced to 
either.
    That is why the VFW supports this legislation, which would 
prioritize homeless veterans with dependent children for reintegration 
programs. This legislation would also require a more thorough analysis 
of data collected on those using these programs so gaps in access can 
be identified and addressed.
    The VFW conducted a survey of women veterans. In this survey of 
1,922 female veterans, 78 reported being homeless. Of these women, 70 
percent of respondents specified that they have children, and that 
having children significantly impacted their ability to receive health 
care, due to the lack of access to affordable child care. Only 10 
percent of women who are not homeless said their children impact their 
ability to utilize VA benefits, yet 32 percent of women who are 
homeless said it has an impact. Without child care they struggle to 
make their VA appointments.
    By requiring more extensive reporting and analysis of data 
regarding homeless veterans who use reintegration programs will allow 
VA and Congress to more thoroughly understand the obstacles, barriers 
and needs these veterans face. This pilot program will make it easier 
to properly treat and prevent veteran homelessness in the future.

H.R. 5416, A bill to amend title 38, U.S.C., to expand burial benefits 
    for veterans who die while receiving hospital care or medical 
    services under the Veterans Choice Program.

    Under current law, VA will assist in paying funeral and burial cost 
of certain veterans. One of these provisions requires VA to assist in 
paying funeral expenses when a veteran dies in a VA facility. This 
includes veterans who are receiving care under section 1703 of title 
38, U.S.C. However, current law does not allow for VA to provide this 
benefit if a veterans dies while under the care of the Choice Act.
    This bill will allow VA to extend this benefit to veterans who 
receive care under the Choice Act. The VFW fully supports this bill.

H.R. 5420, A bill to authorize the American Battle Monuments Commission 
    to acquire, operate and maintain the Lafayette Excadrille Memorial 
    in Marne-la-Coquette, France.

    The Lafayette Excadrille Memorial was built to memorialize U.S. 
pilots who flew combat missions with the French military prior to U.S. 
entry into WWI. Over the years, the memorial fell into a state of 
disrepair. A foundation was formed to restore the memorial. At that 
time the American Battle Monuments Commission (ABMC) provided $2.1 
million to the project.
    To ensure the memorial receives the care and recognition it 
deserves, the VFW supports this bill, which calls for the monument to 
be put under the care of the AMBC.

Military Residency Choice Act

    The VFW supports this legislation that would provide military 
spouses the option of choosing the same residency status as their 
spouse.
    Spouses of our service members are faced with the difficulty of 
constantly moving to meet the demands of their spouse's military 
service. Protecting spouses of our military from losing residency in 
their home-of-record, while also allowing them to elect to have the 
same residency as their partner will greatly ease some of the stressors 
military families face. It will also make it easier for them to file 
taxes and vote.

Draft Legislation to improve the recruitment of physicians in the 
    Department of Veterans Affairs

    The VFW supports this draft legislation, which would authorize VA 
to recruit medical professionals before completing their residency 
programs.
    With more than 120,000 medical trainees receiving their clinical 
training in VA medical facilities every year, VA is the largest 
provider of education and training for health care professionals in the 
country. Unfortunately, VA is currently prohibited from recruiting 
medical professionals receiving training in its medical facilities 
until they complete their residency. By that time VA is competing with 
private sector health care systems that are able to hire new health 
care professionals sooner and pay them more.
    The VFW strongly believes that VA must have the tools to quickly 
recruit a high performing health care workforce. This includes 
providing VA the proper authority to recruit health care providers 
before they complete their residency programs. This legislation would 
rightfully authorize VA to offer health care providers undergoing the 
final stages of their training a conditional offer to ensure they can 
consider VA as a viable option after completing their training.
    Mr. Chairman, this concludes my testimony, and I look forward to 
any questions you or the Committee may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, the VFW 
has not received any federal grants in Fiscal Year 2016, nor has it 
received any federal grants in the two previous Fiscal Years.
    The VFW has not received payments or contracts from any foreign 
governments in the current year or preceding two calendar years.

                                 
                  Prepared Statement of Paul R. Varela
    Mr. Chairman and Members of the Committee:
    Thank you for inviting the DAV (Disabled American Veterans) to 
testify at this legislative hearing of the House Veterans' Affairs 
Committee. As you know, DAV is a non-profit veterans service 
organization comprised of 1.3 million wartime service-disabled veterans 
that is dedicated to a single purpose: empowering veterans to lead 
high-quality lives with respect and dignity.
    DAV is pleased to be here today to present our views on the bills 
under consideration by the Committee.
              H.R. 3216, Veterans Emergency Treatment Act
    This measure seeks to apply the statutory requirements of the 
Emergency Treatment and Labor Act (EMTALA) to emergency care furnished 
by the VA to enrolled veterans who arrive at the emergency department 
of a VA medical facility and indicate an emergency condition exists.
    Specifically, the bill would require a VA health care facility to 
conduct a medical examination of an enrolled veteran to determine if an 
emergency medical condition exists; if such condition exists, the VA 
facility must either stabilize the patient or comply with the statutory 
requirements of a proper transfer; and if an emergency medical 
condition exists and has not been stabilized, the facility may not 
transfer the patient unless the patient, after being made aware of the 
risks, makes a transfer request in writing or a physician certifies 
that the medical benefits of a transfer outweigh the risks.
    DAV previously testified in February 2016 before the Subcommittee 
on Health urging consideration be given to use the Emergency Medical 
Treatment and Labor Act and we thank the sponsor for its introduction 
and the Committee for its consideration.
    Because of the high prevalence of mental and behavioral challenges 
in the veteran patient population, we ask the Committee consider 
strengthening this bill to include behavioral conditions in defining 
``emergency medical condition,'' so that the definition of an emergency 
condition for VA purposes would be ``a medical or behavioral condition 
manifesting itself by acute symptoms of sufficient severity (including 
severe pain) such that the absence of immediate medical attention could 
reasonably be expected to result in..'' Furthermore, we recommend the 
Committee consider conforming title 38, United States Code, section 
1725(f)(1) to these new requirements should this bill become law.
    With the recommended modifications above, DAV would strongly 
support this legislation based on DAV resolutions 103 (enhance VA 
mental health programs), 104 (enhance medical services for women 
veterans) and 125 (integrate emergency care as part of VA's medical 
benefits package).
 H.R. 4150, Department of Veterans Affairs Emergency Medical Staffing 
                     Recruitment and Retention Act
    This bill would authorize VA to arrange flexible physician and 
physician assistant work schedules to be more or less than 80 hours in 
a biweekly pay period if the total of such employees' hours of 
employment in a calendar year do not exceed 2,080 hours per individual.
    The 80-hour work week limit required by federal law is adversely 
affecting VA's ability to hire emergency medicine physicians and 
hospitalists. There are no private sector health care systems that have 
this kind of 80-hour week requirement.
    Emergency medicine physicians and hospitalists specialize in the 
care of patients in the hospital, often working irregular work 
schedules to accommodate the need for continuity of efficient hospital 
care. This change would accommodate the unusual work schedule 
requirements for emergency medicine physicians and align VA practices 
with the private sector, facilitating the recruitment, retention of 
emergency physicians and hospitalist physicians at VA medical centers.
    DAV has received no resolution on this specific issue but would not 
oppose the bill's favorable consideration due to its beneficial nature.
 H.R. 4764, Puppies Assisting Wounded Servicemembers (PAWS) Act of 2016
    This bill if enacted would create a five-year pilot program to pair 
eligible veterans suffering from the most severe levels of post-
traumatic stress with service dogs, including the provision of VA-
funded veterinary insurance. Veterans participating in this program 
would need to complete evidence-based treatment but remain 
significantly symptomatic as evidenced by their Global Assessment of 
Functioning score. Veterans enrolled in the program would be referred 
to an accredited dog assistance organization to be paired with a 
service dog. Training for the dog would be paid by VA not to exceed 
$27,000 per dog. Participating veterans must see a VA primary care or 
mental health care provider at least quarterly. At the conclusion of 
the five-year program, the Government Accountability Office would be 
required to conduct a study to evaluate the effectiveness of the 
program and impact on health outcomes.
    DAV recognizes that trained service animals can play an important 
role in maintaining functionality and promoting veterans' recovery, 
maximum independence and improve their quality of life. We also 
recognize service dogs can be instrumental in improving symptoms 
associated with post-deployment mental health problems, including PTSD. 
We recognize this pilot program could be of benefit to veterans 
suffering from post-deployment mental health struggles, including PTSD, 
and are supportive of non-traditional therapies and expanded treatment 
options for veterans.
    DAV resolution 221, adopted at our most recent convention, calls 
for VA to complete its plan to conduct thorough research and expansion 
of ongoing model programs to determine the most efficacious use of 
guide and service dogs in defined populations, in particular veterans 
with mental health conditions, and to broadly publish the results of 
that research. We are pleased to offer our support of the intent his 
bill; however, we are concerned with the $10 million offset for fiscal 
years 2017-2022 from VA's department of Human Resources.
    It is important to be mindful of the difficulties facing VA as it 
seeks to fill vacancies throughout the health care system. Human 
Resources must have the resources it needs to attract, train, and hire 
health care professionals on all levels. We are concerned that funds 
from VA Human Resources to support this pilot program could impede 
necessary modernization of this department diminish the effectiveness 
of these programs.
 H.R. 5047, Protecting Veterans' Educational Choice Act of 2016 (Hice)
    This bill would direct the Secretary of Veterans Affairs and the 
Secretary of Labor to provide information to veterans and members of 
the Armed Forces about articulation agreements between institutions of 
higher learning.
    There are currently nearly one million student veterans using their 
Post-9/11 GI Bill benefits to pursue their educations, and that number 
is only expected to increase over the next several years. Despite this 
generous benefit, many veterans still end up having to take out student 
loans to cover the full cost of their education. In many cases, this is 
due to situations where veterans are unaware that credits earned at one 
institution of higher learning will not transfer to another school 
until after they are in the transfer process and have already expended 
a significant portion of their Post-9/11 GI Bill benefits.
    This bill would require the VA to include information about the 
educational services available to all veterans seeking to use their 
Post-9/11 GI Bill benefits. In addition, H.R. 5047 would also require 
VA counselors who provide educational or vocational counseling to 
inform the veterans about the various agreements that exist between 
schools that govern the transfer of credits.
    This information concerning articulation agreements could serve 
those seeking higher education by removing unnecessary time spent on 
void classes. Knowledge of articulation agreements would alleviate 
potential delays pursuing courses that do not transfer.
    DAV has received no resolution from our members concerning this 
bill, but we would not oppose its passage.
        H.R. 5083, VA Appeals Modernization Act of 2016 (Titus)
    Mr. Chairman, H.R. 5083, the VA Appeals Modernization Act of 2016 
comes as a result of a collaborative effort among VBA, the Board and 11 
major stakeholder organizations-including DAV-that assist veterans with 
their appeals. For the past three months, this workgroup has been 
meeting intensively with the goal of developing a new structure and 
system for appealing claims decisions. However, this recent effort 
actually builds on that of a very similar workgroup involving VSOs, 
VBA, and the Board that began meeting over two years ago. That 
workgroup spent over six months examining the cause of and possible 
solutions to the rising backlog of appeals. At that time, the claims 
backlog was finally beginning to drop after years of transformation 
efforts.
    The signature achievement of that first VSO-Department of Veterans 
Affairs (VA) workgroup was the development of and widespread support 
for the ``fully developed appeals'' (FDA) proposal. Under the FDA 
proposal, veterans could have their appeals routed directly to the 
Board by agreeing to eliminate several processing steps at the regional 
office level, forego hearings, and take greater responsibility for 
developing evidence necessary to properly consider their appeals. The 
FDA was modeled on a similar claims initiative - the ``fully developed 
claims'' (FDC) program - which has contributed to dramatic improvement 
in claims processing times at VBA.
    As a result of that VSO-VA collaboration, legislation was drafted 
and introduced by Rep. O'Rourke and Chairman Miller in the House and 
approved as part of H.R. 677. Senate legislation was also introduced by 
Senators Sullivan, Casey, Heller and Tester (S. 2473) and has been 
approved by the Senate Veterans' Affairs Committee as part of the 
Veterans First Act omnibus bill. We want to thank everyone involved for 
your efforts in advancing FDA legislation.
    As you are aware, the FDA's premise of eliminating certain appeals 
processing steps at VBA while providing a quicker route for appeals to 
the Board has essentially been incorporated into this comprehensive 
appeals reform bill. Though not as far-reaching as this proposed 
legislation, the FDA pilot program could reduce the time some veterans 
wait for their appeals decisions by up to 1,000 days, while lowering 
the workload on both VBA and the Board.
    Building on the work of the earlier VSO-VA workgroup, and 
particularly its FDA proposal, VA convened the latest workgroup in 
March of this year to examine whether agreement could be reached on 
more comprehensive and systemic change. Over a very compressed but 
intensive couple of months, that included a number of closed-door, all-
day sessions, the workgroup was able to reach general consensus on 
principles, provisions and ultimately the legislation before us. DAV 
and most of the other stakeholders support moving forward with this 
appeals reform legislation, notwithstanding some remaining issues yet 
to be addressed.
    We believe that if all stakeholders continue working together - in 
a good faith partnership with full transparency - we have a good chance 
of resolving the remaining issues and achieving an historic reform this 
year. However, as we have long said, the most important principle for 
reforming the claims process was getting the decision right the first 
time; we must also ensure that this appeals reform legislation is done 
right the first time. Further changes to any part of H.R. 5083 could 
affect our ultimate support for the bill; therefore, we urge this 
Committee and VA to continue working with DAV and other stakeholders in 
a transparent and collaborative manner.
    With that in mind, while the latest workgroup was initially focused 
on ways to improve the Board's ability and capacity to process appeals, 
from the outset we realized that appeal reforms could not be fully 
successful unless we simultaneously looked at improving the front end 
of the process, beginning with claims' decisions. One of the issues 
that development of the FDA proposal exposed was the importance of 
strengthening decision notification letters provided by VBA in order to 
improve decisions about appeals options. A clear and complete 
explanation of why a claim was denied is key to veterans making sound 
choices about if and how to appeal an adverse decision. Therefore, a 
fundamental feature of the new appeals process must also ensure that 
claims' decision notification letters are adequate to properly inform 
the veteran.
    The workgroup agreed that decision notification letters must be 
clear, easy to understand and easy to navigate. The notice letter must 
convey not only VA's rationale for reaching its determination, but also 
the options available to claimants after receipt of the decision. H.R. 
5083 would require that in addition to an explanation for how the 
veteran can have the decision reviewed or appealed, all decision 
notification letters must contain the following information to help 
them in determining whether, when, where and how to appeal an adverse 
decision:

    (1) A list of the issues adjudicated;
    (2) A summary of the evidence considered;
    (3) A summary of applicable laws and regulations;
    (4) Identification of findings favorable to the claimant;
    (5) Identification of elements that were not satisfied leading to 
the denial;
    (6) An explanation of how to obtain or access evidence used in 
making the decision; and
    (7) If applicable, identification of the criteria that must be 
satisfied to grant service connection or the next higher level of 
compensation for the benefit sought.

    DAV recommends that in order to better inform veterans about this 
new notification provision and the redesigned claims and appeals 
process being proposed, the legislation should include a requirement 
that VA create an online tutorial and utilize other web or social media 
tools to enhance veterans' understanding of how claims decisions are 
made and how to choose the best options available in the redesigned 
appeals system.

The Current Appeals System

    In order to evaluate the new appeals framework proposed in H.R. 
5083, it must be compared to the existing system. Currently, if a 
veteran is not satisfied with their claims decision, they may appeal 
the decision by completing a Notice of Disagreement (NOD) form which 
provides them two options: a de novo review or a traditional appeal to 
the Board of Veterans Appeals. The de novo option takes place locally 
within the VARO, and is performed by a Decision Review Officer. The de 
novo process allows the introduction of new evidence and a hearing, 
requires VBA to fulfill its ``duty to assist'' throughout the process, 
and provides a full de novo review of the claim. If benefits are 
granted in the de novo process, the effective date for the award would 
be the date of the claim, if the facts found support entitlement from 
that effective date.
    The second NOD option is to formally appeal to the Board. When a 
veteran chooses this option, the VARO must prepare a Statement of Case 
(SOC) for the veteran and then the veteran must complete the VA Form 9 
specifying the issues they are appealing and the reasons supporting 
their appeal. If new evidence is submitted after the NOD requiring 
development, a Supplemental Statement of Case (SSOC) may also be 
issued. A veteran who elected a de novo review but who was not awarded 
the full benefits sought may also continue their appeal to the Board as 
described above. As part of the Board process, appellants have the 
opportunity to request a hearing and introduce new evidence at any 
time. Throughout its consideration of an appeal, the Board is required 
to comply with VA's ``duty to assist'' and performs a de novo review of 
all the evidence submitted, before and after the date of the NOD 
filing.
    If the Board does not grant the full benefit sought, the veteran's 
primary recourse would then be to appeal to the Court of Appeals for 
Veterans Claims (``Court''), which can take many more years before 
final disposition. Alternatively, the veteran at any time could file a 
new claim with new evidence, which could be processed under the FDC 
program in less than 125 days, however the effective date for this 
claim would be the new filing date, potentially requiring the veteran 
to forfeit months or years of entitlement to earned benefits.
    In many cases the Board will remand the claim back to VBA for 
either procedural errors (i.e. - ``duty to assist'' errors) or for the 
development of new or existing evidence needed to make a final 
determination. More than half of all pending appeals will be remanded 
at least once under the current system, lengthening the time veterans 
wait for final resolution of their appeals and contributing to the 
growing backlog of pending appeals.
    The current system allows veterans unlimited opportunities to 
submit new evidence to support their appeals, requires that VA fulfill 
its ``duty to assist'' to veterans by securing and developing all 
potential evidence but requires that the formal appeal be maintained in 
order to protect the effective date of the original claim. While these 
features help ensure that veterans rights are protected, they have 
evolved into a system that incentivizes many veterans to file and 
maintain formal appeals because there is no other option available to 
protect their earliest effective dates, which could affect thousands of 
dollars in earned benefits.

A New Framework for Veterans' Claims and Appeals

    Understanding the benefits and weaknesses of the current system, 
the workgroup developed a new framework that could protect the due 
process rights of veterans while creating multiple options to receive 
favorable decisions more quickly. A critical factor was developing a 
system that would allow veterans to protect their earliest effective 
dates while allowing them opportunities to introduce new evidence, 
without having to be locked into the long and arduous formal appeals 
process at the Board.
    In general, the framework embodied in H.R. 5083 would have three 
main options for veterans who disagree with their claims decision and 
want to challenge VBA's determination. Veterans must elect one of these 
three options within one year of the claims decision.
    First, there will be an option for readjudication and supplemental 
claims when there is new evidence submitted or a hearing requested. 
Second, there will be an option for a local, higher-level review of the 
original claims decision based on the same evidence at the time of the 
decision. Third, there will be an option to pursue a formal appeal to 
the Board - with or without new evidence or a hearing.
    The central dynamic of this new system is that a veteran who 
receives an unfavorable decision from one of these three main options 
may then pursue one of the other two appeals options. As long as the 
veteran continuously pursues a new appeals option within one year of 
the last decision, they would be able to preserve their earliest 
effective date, if the facts so warrant. Each of these options, or 
``lanes'' as some call them, have different advantages that allow 
veterans to elect what they and their representatives believe will 
provide the quickest and most accurate decision on their appeal.
    For the first option - readjudication and supplemental claims - 
veterans would be able to request a hearing and submit new evidence 
that would be considered in the first instance at the VARO. VA's full 
``duty to assist'' would apply during readjudication, to include 
development of both public and private evidence. The readjudication 
would be a de novo review of all the evidence submitted both prior to 
and subsequent to the claims decisions until the readjudication 
decision was issued. If the veteran was not satisfied with the new 
decision, they could then elect one of the other two options to 
continue pursuing their appeal.
    For the second option - the higher-level review - the veteran could 
choose to have the review done at the same local VARO that made the 
claim decision, or at another VARO, which would be facilitated by VBA's 
electronic claims files and the National Work Queue's ability to 
instantly distribute work to any VARO. The veteran would not have the 
option to introduce any new evidence nor have a hearing with the 
higher-level reviewer, although VBA has indicated it will allow 
veterans' representatives to have informal conferences with the 
reviewer in order for them to point out errors of fact or law. The 
review and decision would be de novo and a simple difference of opinion 
by the higher-level reviewer would be enough to overturn the original 
decision. If the veteran was not satisfied with the new decision, they 
could then elect one of the other two options to pursue resolution of 
their issue. .
    For this higher-level review, the duty to assist would not apply 
since it is limited to the evidence of record used to make the original 
claims decision. If a duty to assist error is discovered that occurred 
prior to the original decision, unless the claim can be granted in 
full, the claim would be sent back to the VARO to correct any errors 
and readjudicate the claim. If the veteran was not satisfied with that 
new decision, they would still have all three options to resolve their 
issue.
    Mr. Chairman, we are pleased that H.R. 5083 contains one additional 
change that we have suggested and VA has agreed to include, but that is 
not in the Senate companion draft. H.R. 5083 has language to clarify 
that all higher-level reviews would be done as de novo reviews, without 
the veteran having to affirmatively elect a de novo review option. We 
strongly recommend this provision be maintained in any legislation 
moving forward.
    These first two options take place inside VAROs and cover much of 
the work that is done in the current de novo process, although it would 
be separated into two different lanes: one with and one without new 
evidence and hearings. VA has also proposed eliminating the position of 
Decision Review Officers and reassigning these personnel to functions 
that are appropriate to their level of experience and expertise, such 
as higher-level reviewers.
    For the third option - Board review - there would be two separate 
dockets for veterans to choose from: an ``expedited review'' that 
allows no hearings and no new evidence to be introduced; and a more 
traditional appeal that allows both new evidence and hearings. Both of 
these Board lanes would have no duty to assist obligation to develop 
any evidence submitted. For both of these dockets, the appeal would be 
routed directly to the Board and there would no longer be SOCs, SSOCs 
or Form 9s completed by VBA or the veteran.
    The workgroup established a goal of having ``expedited review'' 
appeals resolved within one year, but there was no similar goal for the 
more traditional appeals docket. While eliminating introduction of 
evidence and hearings would naturally make the Board's review quicker, 
it is important that sufficient resources be allocated to the 
traditional appeal lane at the Board to ensure a sense of equity 
between the two dockets. We would recommend that language be added to 
H.R. 5083 to ensure the Board does not inequitably allocate resources 
to the ``expedited review'' lane.
    For the traditional Board appeal lane, veterans could choose either 
a video conference hearing or an in-person hearing at the Board's 
Washington, DC offices; there would no longer be travel hearing options 
offered to veterans. New evidence would be allowed but limited to 
specific timeframes: if a hearing is elected, new evidence could be 
submitted at the hearing or for 90 days following the hearing; if no 
hearing is elected, new evidence could be submitted with the filing of 
the NOD or for 90 days thereafter. If the veteran was not satisfied 
with the Board's decision, they could elect one of the other two VBA 
lane options, and if filed within one year of the Board's decision, 
they would continue to preserve their earliest effective date. The new 
framework would impose no limits on the number of times a veteran could 
choose one of these three options, and as long as they properly elected 
a new one within a year of the prior decision, they would continue to 
protect their earliest effective date.
    If the Board discovers that a ``duty to assist'' error was made 
prior to the original claim decision, unless the claim can be granted 
in full, the Board would remand the case back to VBA for them to 
correct the errors and readjudicate the claim. Again, if the veteran 
was not satisfied with the new VBA claim decision, they could choose 
from one of the three options available to them, and as long as they 
properly make the election within one year of the decision, they would 
continue to preserve their earliest effective date.
    One additional option becomes available after a Board decision: the 
appellant would also have the opportunity to file a Notice of Appeal to 
the Court of Appeals for Veterans Claims (``Court'') within 120 days of 
the Board's decision, which is the current practice today. Decisions of 
the Court would be final.
    H.R. 5083 would also amend existing statute to change the ``new and 
material evidence'' standard to a ``new and relevant evidence'' 
standard, as it relates to readjudication and supplemental claims. 
Under current law, a claim can only be reopened if ``new'' and 
``material'' evidence is presented, which was designed to prevent 
unnecessary work reviewing immaterial evidence that would not affect 
the outcome of a claim. However, in practice this standard has often 
had the opposite effect, requiring VBA to make a ``new and material'' 
determination, which can then be appealed to the Board, often requiring 
a hearing, and adding years of delay before getting to the core issue 
of whether the evidence would actually change the claim decision.
    This provision would replace the term ``material'' with the term 
``relevant,'' and add a definition of ``relevant evidence'' as 
``evidence that tends to prove or disprove a matter in issue.'' While 
we understand the intention of VBA in trying to deter submission of 
unrelated evidence, we believe that this revised standard would not be 
any more effective in preventing submission of truly unrelated and 
irrelevant evidence. Instead, creating a new and untested standard 
could result in additional appeals on procedure before the substance 
was adjudicated, and then it, too, could be appealed.
    For this reason, DAV and others involved in the first appeals 
workgroup had discussed revising this standard by amending section 5108 
of title 38, United States Code, to require VBA to review all evidence 
submitted in order to directly address the substance of the issue 
rather than be required to first clear a procedural hurdle. The 
workgroup considered changing section 5108 to read as follows:

    Sec.  5108 Evidence presented for disallowed claims
    If evidence is presented with respect to a claim which has been 
disallowed that adds to or changes the facts as previously found by the 
Secretary, the Secretary shall develop or adjudicate the claim as 
appropriate.

    For truly unrelated evidence, the determination that such evidence 
does not ``add to or change the facts'' underlying the claim decision 
should not require any more time than a determination of whether such 
evidence is new or material. Thus, we recommend the Committee consider 
incorporating this alternative approach as an amendment to the bill.
    H.R. 5083 also includes an amendment to section 5104A to require 
that any finding made during the claims or appeals process that is 
favorable to the claimant would be binding on all subsequent 
adjudicators within the Department, unless clear and convincing 
evidence is shown to the contrary to rebut such favorable finding. In 
the new structure in which appeals can move back and forth from the 
Board to VBA, veterans must be reassured that favorable findings cannot 
be easily overturned by a different adjudicator or reviewer during this 
process. Thus, we strongly support this section.
    Overall the new framework embodied in H.R. 5083 could provide 
veterans with multiple options and paths to resolve their issues more 
quickly, while preserving their earliest effective dates to receive 
their full entitlement to benefits. The structure would allow veterans 
quicker ``closed record'' reviews at both VBA and the Board, but if 
they become aware that additional evidence was needed to satisfy their 
claim, they would retain the right to next seek introduction of new 
evidence or a hearing at either VBA or the Board. If implemented and 
administered as envisioned by the workgroup, this new appeals system 
could be more flexible and responsive to the unique circumstances of 
each veteran's claim and appeal, leading to better outcomes for many 
veterans.

Remaining Issues and Questions Related to Appeals Reform Legislation

    Over the past several weeks, DAV and other VSO stakeholders have 
continued to work with the Board and VBA to resolve and clarify a 
number of issues, further improving the proposed new appeals structure. 
While we believe H.R. 5083 should be moved forward in the legislative 
process, there are still some critical issues that need to be further 
explored to ensure that there are no unintended negative consequences 
for veterans.
    One of the most critical questions is how the introduction of new 
evidence will be treated by VBA and the Board, and how ``duty to 
assist'' requirements will apply. For the higher-level review, no new 
evidence is allowed; however, there is an informal opportunity for the 
veteran's representative to conference with the reviewer to point out 
errors. If during this conference, the representative identifies 
evidence not yet submitted as part of their discussion, how will the 
higher-level reviewer acknowledge or treat this information? Will they 
refer the claim back to the readjudication option as a supplemental 
claim, indicating there is evidence that needs to be developed? Will 
they inform the representative or the veteran directly that if there is 
new evidence that may affect the decision, the veteran should file a 
supplemental claim for readjudication to present that evidence directly 
or through a hearing?
    Similarly, there are questions that need to be answered about how 
the Board will handle new evidence introduced outside the limited 
opportunities allowed at and 90 days after the filing of an NOD or a 
Board hearing. What happens if a veteran elects the Board option with a 
hearing and submits new evidence to the Board prior to the hearing 
date: will the Board hold the evidence until the hearing and then 
consider it, or will the Board return or ignore the evidence?
    In addition, since there is no ``duty to assist'' requirement after 
the NOD filing, what if evidence properly submitted indicates that 
additional evidence exists which could affect the decision: will the 
Board ignore that evidence or inform the veteran that there was 
additional evidence that could have changed the decision but that it 
was not sought nor considered? Will or should the Board remand the 
appeal back to the VBA for readjudication to allow for full development 
of all evidence? In order to protect the veteran's due process rights, 
we would recommend that these uncertainties be resolved before final 
legislation is enacted into law, preferably through clear and 
unambiguous statutory language.
    There are also two critical operational concerns that will effect 
whether the new appeals structure can be properly implemented as 
envisioned. First, the Board and VBA must develop and implement a 
realistic plan to address the almost 450,000 appeals currently pending, 
most of which are still within VBA's jurisdiction. Until these pending 
appeals are properly resolved, no new appeals structure or system can 
expect to be successful. While we have been in discussion with VBA and 
the Board about how best to address these legacy appeals, we have yet 
to agree on formal plans to deal with its current backlog of appeals. 
We need Congress to perform aggressive oversight of this process to 
ensure a proper outcome.
    Furthermore, since appeals that are filed today can take years to 
be completed, some will last more than a decade, how will VBA and the 
Board operate two different appeals systems simultaneously, each with 
separate rules for treating evidence and the ``duty to assist?'' How 
will new employees be trained under both the old and new systems so 
that there is efficient administration of these two parallel appeals 
systems? How will the Court view the existence of two different 
standards for critical matters such as the ``duty to assist'' veterans? 
We would recommend that these questions be thoroughly considered by the 
Committee and discussed with VSOs to avoid future problems.
    Finally, as mentioned above, the most critical factor in the rise 
of the current backlog of pending appeals was the lack of sufficient 
resources to meet the workload. Similarly, unless VBA and the Board 
request and are provided adequate resources to meet staffing, 
infrastructure and IT requirements, no new appeals reform will be 
successful in the long run. As VBA's productivity continues to 
increase, the volume of processed claims will also continue to rise, 
which has historically been steady at a rate of 10-11 percent of claims 
decisions. In addition, the new claims and appeals framework will 
likely increase the number of supplemental claims filed significantly. 
We are encouraged that VA has indicated a need for greater resources 
for both VBA and the Board in order to make this new appeals system 
successful; however, too often in the past funding for new initiatives 
has waned over time. We would urge the Committee to seriously consider 
proper funding levels are appropriated as this legislation moves 
forward.
    Mr. Chairman, H.R. 5083 represents a true collaboration between VA, 
VSOs and other key stakeholders in the appeals process. Building on the 
work first begun two years ago, tremendous progress has been made this 
year culminating in this appeals reform legislation. There are still a 
number of improvements and clarifications that must be made to H.R. 
5083 but we remain committed to working with Congress, VA and other 
stakeholders to resolve them as soon as feasible. Working together, we 
are hopeful that the Senate and House will enact comprehensive appeals 
reform legislation before the end of this year to provide veterans with 
quicker favorable outcomes, while fully protecting their due process 
rights.
             H.R. 5162, Vet Connect Act of 2016 (O'Rourke)
    Currently, title 38, United States Code, section 7332(b)(2) 
prohibits VA from providing or sharing patient information relating to 
drug abuse, alcoholism or alcohol abuse, infection with HIV or sickle 
cell anemia (7332-protected information) with public or private health 
care providers, including with Indian Health Service (IHS) health care 
providers, providing care to the shared patient under normal treatment 
situations without the prior signed, written consent of the patient.
    Clearly current law places the restriction on this protected 
information because discussing, diagnosing, and treating drug abuse, 
alcoholism or alcohol abuse, infection with HIV or sickle cell anemia 
are sensitive, private issues between a patient and his or her 
provider. This privacy has been deemed particularly important because 
any breach of privacy may result in stigmatization or discrimination 
against such patients. Veteran patients who are concerned that their 
health information will not be held private or secure may be 
discouraged from seeking treatment for these conditions and may be 
dissuaded from pursuing or adhering to recommended treatment regimens.
    Despite these concerns, this measure would include a provision for 
the disclosure of VA records of this protected information to a health 
care provider in order to treat or provide care to a shared patient. It 
is purported this restriction poses potential barriers to the 
coordination and quality of care provided to veterans who are shared 
patients with other public or private health care providers. In DAV's 
judgement, a potential barrier is not a compelling interest to overcome 
a patient's right to privacy.
    As this Committee is aware, the protection of information under 
section 7332 is not immune to all circumstances. In medical emergencies 
VA is allowed to disclose such protected information'' to medical 
personnel who have a need for information about a patient for the 
purpose of treating a condition which poses an immediate threat to the 
health of any individual and who requires immediate medical 
supervision. The medical emergencies exception only extends to medical 
personnel for the purpose of treating a condition that poses a certain 
type of medical threat or emergency; it does not extend to treatment of 
a patient in non-emergent situations.
    It has been asserted that public and private health care providers 
are often unable to obtain a signed, written consent from prior to 
patient presenting for a care appointment, resulting in a delay in 
treatment to the patient. In some cases the public or private health 
care provider is not able to obtain a signed, written consent due to a 
patient's lack of competency.
    Veteran patients who are legally incompetent have the same right to 
privacy enjoyed by veterans who are competent. To this end, the medical 
community has been clear in that the patient deemed to lack capacity to 
make reasoned medical decisions, a surrogate selected by the patient 
would need to be enlisted to make decisions on the patient's behalf.
    DAV understands and supports increased use and appropriate sharing 
of health data; however veteran patients also want to be assured of the 
privacy and security provided for protected information. We urge the 
committee and the sponsor of this legislation strike a more balanced 
policy between the competing aims of sharing data and protecting 
privacy. We recommend such broad language be amended to affect only 
shared patients and only for the purpose of completing a treatment plan 
to which the veteran patient has agreed.
H.R. 5166, the Working to Integrate Networks Guaranteeing Member Access 
                                Now Act
    This bill would provide certain permanent Congressional employees 
with read-only remote access to the electronic Veterans Benefits 
Administration (VBA) claims records of veterans who are constituents of 
Members. These employees would be prohibited from modifying any data, 
processing, preparing or prosecuting of claims.
    These designated Congressional staff members could utilize this 
system to provide their constituents with information relevant to the 
processing of their claims or appeals. Designated staff members would 
require certification by the VA in order to access this system in the 
same manner currently required for agents or attorneys under title 38, 
United States Code. Any costs associated with gaining access to these 
VA systems would be incurred by the particular Member of Congress whose 
staff accessed these records.
    DAV has no resolution relative to this issue, but would not oppose 
passage of the legislation.
    H.R. 5392, No Veterans Crisis Line Call Should Go Unanswered Act
    If enacted, this bill would seek to improve the responsiveness and 
performance within the Department of Veterans Affairs (VA) Veterans 
Crisis Line, and its backup centers, by directing the Secretary to 
establish a quality assurance process. Upon enactment of this bill the 
Secretary would have 180 days to submit to Congress a quality assurance 
process that outlines performance indicators and objectives to improve 
the responsiveness in calls, texts, or other communications received by 
the Veterans Crisis Line and backup call centers. Under this bill, the 
crisis line and backup call centers would periodically be tested and 
any noted deficiencies corrected.
    DAV acknowledges the importance of ensuring that a call from a 
veteran in crisis does not go unanswered, and we acknowledge the crisis 
line as a successful component in VA's suicide prevention efforts. 
However, only one month ago, DAV testified before this Committee that 
despite the measurable success with answered calls, dispatched 
emergency services and referrals to care, service problems were 
identified earlier this year in a VA Inspector General report. 
Specifically, complaints included some calls going unanswered, lack of 
immediate assistance, delayed arrival of emergency services, and 
difficulty using the call line during a crisis. We understand these 
deficiencies have been corrected, but continued evaluation and program 
improvement is needed. For these reasons, we are pleased that an 
outside evaluation of the VA's mental health system is now underway, as 
mandated by the Clay Hunt SAV Act, to be completed by the end of fiscal 
year 2017. Going forward, these evaluations will be continued on an 
annual basis.
    VA has also taken steps to address the increase in demand for the 
crisis line by increasing the number of responders to a total of 310 
full time employee equivalents. On May 12, 2016, VA provided testimony 
stating that, since January 1, 2016, 29 administrative personnel have 
been brought on to augment specific areas such as analytics, knowledge 
management, quality assurance, and training. While the crisis line is a 
very important element to VA's suicide prevention efforts, the area of 
crisis management needs more focus. When a veteran is experiencing a 
mental health crisis and is asking for help, ready access to a mental 
health specialist and/or specialized program is crucial. Other areas of 
VA focus should include negative perceptions and concerns veterans may 
have about VA care, and continuing challenges in scheduling 
appointments. VA should utilize its peer specialists to follow up with 
veterans waiting for care. According to VA, peer-to-peer interactions 
have been extremely helpful to patients and treating clinicians.
H.R. 5407, to direct the Secretary of Labor to prioritize the provision 
 of services to homeless veterans with dependent children in carrying 
              out homeless veterans reintegration programs
    If enacted, this bill would modify title 38, United States Code to 
prioritize the provision of services to veterans who are homeless with 
dependent children in carrying out homeless veterans' reintegration 
programs. This bill also includes a Congressional reporting 
requirement, not only to identify any gaps in services, safety and 
shelter provided to homeless veterans with dependents, but also to 
provide recommendations for improvements of discovered deficiencies.
    DAV has not received a specific resolution that calls for 
prioritization of services to homeless veterans with dependent 
children; however, DAV Resolution 118 calls for the improvement of the 
coordination of services of federal, state and local agencies, and 
improved comprehensive housing and child care services, which allow our 
support of the intent of this bill. Also, DAV's report, Women Veterans: 
The Long Journey Home, identifies the need for VA to work with 
community partners as it seeks to strengthen homeless veterans programs 
and in its efforts to prevent veterans homelessness.
    H.R. 5416, to expand burial benefits for veterans who die while 
 receiving hospital care or medical services under the Veterans Choice 
             Program of the Department of Veterans Affairs
    This bill would add new eligibility criteria for VA burial 
allowance for veterans who die while receiving hospital or medical care 
under section 101 of the Veterans Choice and Accountability Act of 2014 
(Choice).
    Current law provides that when a veteran's death occurs in a non-VA 
facility that has been authorized to provide hospital services, a death 
will be treated as if it occurred in a VA facility for the purpose of a 
burial or plot allowance. However, veterans receiving care and services 
at non-VA facilities, under the Choice program are not currently 
authorized this plot allowance.
    This bill would bring parity between those veterans already covered 
under law for non-VA care and those authorized for hospital and medical 
care services under the Choice program.
    DAV has not received a resolution regarding this issue, but would 
not object to enactment of this legislation.
  H.R. 5420, to authorize the American Battle Monuments Commission to 
  acquire, operate, and maintain the Lafayette Escadrille Memorial in 
                       Marne-la-Coquette, France
    This measure would allow the American Battle Monuments Commission 
to acquire, operate, and maintain the Lafayette Escadrille Memorial, 
located outside Paris, France in Marnes-la-Coquette-a memorial that 
pays tribute to and is a final resting place for America's first combat 
aviators.
    DAV has received no resolution, and takes no position on this bill.
               Draft Bill, Military Residency Choice Act
    This measure would amend the Servicemembers Civil Relief Act to 
authorize spouses of service members to elect to use the same residence 
as the service members. This would ease tax preparation for spouses who 
would accompany their service members on military duty assignments.
    Under the 2003 Servicemembers Civil Relief Act, ``a servicemember 
shall neither lose nor acquire a residence or domicile for purposes of 
taxation with respect to the person, personal property, or income of 
the servicemember by reason of being absent or present in any tax 
jurisdiction of the United States solely in compliance with military 
orders.'' This allowed the service member to establish a state of 
residency during their career. Regardless of duty station, they 
maintain the same state for tax and voting purposes as their state of 
residency.
    Many service members choose a state early in their career and 
maintain that same state throughout their career. In 2009, the Military 
Spouse Residency Relief Act (MSRRA) was signed into law, The MSRRA 
amends the Servicemember Civil Relief Act to include the same 
privileges to a military service member's spouse, provided that the 
service member and the spouse choose residency in the same state for 
tax purposes.
    DAV has received no resolution, and takes no position on this bill.
    This concludes my testimony, Mr. Chairman. DAV would be pleased to 
respond to any questions from you or the Committee Members concerning 
our views on these bills.

                                 
                    Prepared Statement of Carl Blake
    Chairman Miller, Ranking Member Brown, and members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to present our views on the broad array of pending 
legislation impacting the Department of Veterans Affairs (VA) that is 
before you today. No group of veterans understand the full scope of 
care provided by the VA better than PVA's members-veterans who have 
incurred a spinal cord injury or disease. Most PVA members depend on VA 
for 100 percent of their care. They are the most vulnerable when access 
to health care, and other challenges, impact quality of care. These 
important bills will help ensure that veterans receive timely, quality 
health care and benefits services.
          H.R. 3216, the ``Veterans Emergency Treatment Act''
    PVA supports H.R. 3216, the ``Veterans Emergency Treatment Act.'' 
This legislation would clarify how VA provides care to veterans who 
present at the hospital for treatment of a medical emergency. VA must 
provide a medical screening examination to determine if an emergency 
medical condition exists to any veteran who presents to a VA Emergency 
Department seeking care. If an emergency medical condition exists, the 
VA must provide appropriate care to treat the veteran, or if the 
facility is unable to provide the care, transfer the veteran to a 
facility that is able to properly care for the veteran. The bill 
clarifies that the stipulations of the Emergency Treatment and Labor 
Act (EMTLA) be required of VA as well. While most VA facilities do 
unofficially adhere to the EMTLA practices, this bill would ensure it 
throughout the Department. Further, it offers veterans an actionable 
recourse if denied treatment from a facility.
   H.R. 4150, the ``Department of Veterans Affairs Emergency Medical 
               Staffing Recruitment and Retention Act.''
    PVA supports H.R. 4150, the ``Department of Veterans Affairs 
Emergency Medical Staffing Recruitment and Retention Act.'' This 
legislation would allow for flexibility and irregular shifts among 
physicians that is required to meet the needs of patients receiving 
emergency care. The Veterans Health Administration requires that full-
time employees work 80 hours per biweekly pay period. Yet the average 
emergency physician works 12 hour shifts, making it difficult to have 
an equal number of shifts for each week. This legislation would allow 
for full-time status to be determined as more or less than 80 hours 
biweekly as long as the total hours of employment do not exceed 2,080 
hours in a calendar year. At a time when recruitment of providers has 
never been more urgent or more difficult, such flexibility can only 
serve as an attractive quality to prospective providers.
H.R. 4764, the ``Puppies Assisting Wounded Servicemembers (PAWS) Act of 
                                2016.''
    PVA understands the intent of H.R. 4764, the ``Puppies Assisting 
Wounded Servicemembers (PAWS) Act of 2016,'' and we support the 
provision of service animals to veterans who need them. If enacted, 
this legislation would direct the VA to carry out a pilot program to 
provide service dogs to certain veterans with severe post-traumatic 
stress disorder (PTSD). PVA believes service animals are a successful 
form of therapy for veterans battling PTSD and other mental health 
conditions. Veterans with service dogs report improved emotional 
regulation, sleep patterns, and a sense of personal safety. They also 
experience reduced levels of anxiety and social isolation.
    However, this bill as written does not appropriately reflect the 
fact that the VA currently does not provide service animals to any 
veteran directly. Service animals are provided to veterans by 
organizations responsible for the training and provision of service 
animals, not the VA. The VA currently bares no direct cost when it 
comes to providing service animals. As it is, we are not aware of a 
demonstrated need for VA to be the procurer of service animals. 
Additionally, this bill would have the VA provide service dogs only to 
veterans with PTSD, excluding veterans with other mental health 
conditions and physical disabilities who would also benefit.
    Currently, VA provides veterinary health insurance and other 
ancillary benefits to service animals used for veterans with physical 
disabilities. While this bill would make PTSD service dogs eligible for 
existing benefits, (something VA currently has the authority to do) it 
goes a step beyond by charging VA with procuring a trained, capable 
dog. We are concerned that creating a new process to place service dogs 
with veterans with PTSD confuses the process among veterans with other 
needs. Lastly, this bill restricts eligibility for the program to post-
9/11 veterans. While PVA understands the cost concerns involved in such 
a program, we do not believe they justify the unequal access to mental 
health care.
 H.R. 5047, the ``Protecting Veterans' Educational Choice Act of 2016"
    The ``Protecting Veterans' Educational Choice Act'' requires 
Department of Veterans Affairs counselors who provide educational or 
vocational counseling to inform veterans about the articulation 
agreements of the schools they are interested in attending. In 
addition, the Secretary would be required to provide information about 
educational assistance to veterans, including how to request counseling 
and articulation agreements, when issuing a veteran's certificate of 
eligibility for education assistance. Making veterans aware of 
counseling and transfer options is important to helping veterans with 
disabilities better understand the opportunities available to them and 
will allow them to make informed decisions. PVA supports this 
legislation.
         H.R. 5083, the ``VA Appeals Modernization Act of 2016"
    PVA has a highly trained force of over 70 service officers who 
spend two years in specialized training under supervision to develop 
veterans' claims for both our member and non-member clients. We 
maintain a national Appeals Office staffed by attorneys and legal 
interns who represent clients at the Board of Veterans' Appeals 
(Board). We also have attorneys who practice before the Board and 
before the Court of Appeals for Veterans Claims which enables 
continuity of representation throughout subsequent appellate court 
review.
    In March 2016, VBA, the Board and major veterans service 
organizations (VSO's) partnered to form a working group with the goal 
of reforming the appeals process. The number of pending appeals has 
surpassed 440,000. If the process goes unaddressed, VA projects that 
the appeals inventory will climb to over two million over the course of 
the next decade. Experienced Veteran Law Judges (VLJ) who adjudicate 
appeals are a commodity and form a critical component of the system. 
This attribute limits VA's ability to scale its resources to the extent 
necessary to deal with such an inventory. Ten years from now, if the 
system remains unchanged, veterans will expect to wait six years for a 
decision. We believe reform is necessary, and we support this 
legislation moving forward.
    PVA is encouraged by VA's ambitious efforts to achieve reform. The 
haste with which it desires to move, though, invites caution from those 
who recognize that overhauling such a complex process will produce 
unintended consequences. While we have a responsibility to serve the 
veteran community and tackle problems, we also have the responsibility 
to ensure that in doing so we do not leave veterans worse off. VA has 
recognized that VSO's have specific concerns and has worked with us to 
find solutions that move us forward without diluting veterans' rights 
in the process.
    As we promote and seek public support for change, it is easy to use 
statements such as, ``there are veterans who are currently rated at 100 
percent who are still pursuing appeals,'' to illustrate the problems 
that pervade the system. PVA will be the first to point out, though, 
that a veteran rated at 100 percent under 38 U.S.C. Sec.  1114(j) might 
also be incapacitated to the point that he or she requires 24 hour 
caregiver assistance. A 100 percent service-connected disability rating 
does not contemplate the cost of this care, and veterans may seek 
special monthly compensation (SMC) to the tune of thousands of dollars 
needed to address their individual needs. Few people would disagree 
that pursuing these added disability benefits are vital to a veteran's 
ability to survive and maintain some level of quality of life. Without 
clarification, such statements lead people to believe that veterans are 
the problem.
    This is why PVA believes it is so important to ensure that VSO's 
remain as involved in the follow-on development process and 
implementation as they are now if this plan is to succeed. This is a 
procedural overhaul, and VSO's are the bulwark that prevents procedural 
change from diluting the substantive rights of veterans. 
Notwithstanding the strong collaboration between VA and the various 
stakeholders over the last few months, many important questions remain 
unanswered at this stage in the development process.

The Framework

    There is no shortage of news articles and academic pieces that 
attempt to illustrate for readers the level of complexity and 
redundancy in the current appeals process. It is a unique system that 
has added layer after layer of substantive and procedural rights for 
veterans over the years. The most notable aspect differentiating it 
from other U.S. court systems is the ability for a claimant to inject 
new evidence at almost any phase. While this non-adversarial process 
offers veterans the unique ability to continuously supplement their 
claim with new evidence and seek a new decision, it prevents VA from 
accurately identifying faulty links in the process, whether it be 
individual raters or certain aspects of the process itself.
    As the working group came together and began considering ways to 
address the appeals inventory, it became clear that a long-term fix 
would require looking beyond appeals and taking a holistic view of the 
entire claims process. The work product in front of us today proposes a 
system with three distinct lanes that a claimant may enter following an 
initial claims decision-the local higher-level review lane, the new 
evidence lane, and the Board review lane. The work horse in this system 
is the new evidence lane. The other two serve distinct purposes focused 
on correcting errors.
    When a claimant receives a decision and determines that an obvious 
error or oversight has occurred, the local higher-level review lane, 
also known as the difference of opinion lane, offers a fast-track 
ability to have a more experienced rater review the alleged mistake. 
Review within this lane is limited to the evidence in the record at the 
time of the original decision. It is designed for speed and to allow 
veterans with simple resolutions to avoid languishing on appeal.
    If a claimant learns that a specific piece of evidence is 
obtainable and would help him or her succeed on their claim, the new 
evidence lane offers the option to resubmit the claim with new evidence 
for consideration. VA indicates that its goal is a 125-day turn around 
on decisions within this lane. Another important aspect is that the 
statutory duty to assist applies only to activity within this lane.
    The third lane offers an appeal to the Board. Within this lane 
there are two tracks with separate dockets. One track permits the 
addition of new evidence and option for a Board hearing. The other 
track permits a faster resolution by the Board for those not seeking to 
supplement the record. A claimant within this track will not be 
permitted to submit new evidence, but they will have an opportunity to 
provide a written argument to accompany the appeal.
    If the claimant receives an unfavorable opinion at the Board, he or 
she may either revert to the new evidence lane within one year or file 
a notice of appeal with the Court of Appeals for Veterans Claims (CAVC) 
within 120 days. Unfavorable decisions at the Court would be final, and 
the claimant would no longer have the benefit of the original effective 
date associated with that claim.
    One of the most beneficial aspects of this new plan is the 
protection of the effective date. Choosing one lane over the other does 
not limit the ability to later choose a different lane. The decision to 
enter any of the lanes must be made within one year of receiving the 
previous decision. Doing so preserves the effective date relating back 
to the date of the original claim. Another major issue with the claims 
process that is addressed in this plan is improved decision notices. A 
thorough understanding of why a claimant received an adverse decision 
leads to educated decisions with regard to subsequent lane choices or 
discontinuing the claim altogether.

PVA's Concerns

    PVA is concerned with the dissolution of the Board's authority to 
procure an independent medical examination or opinion (IME) under 38 
U.S.C. Sec.  7109. VA originally proposed to dissolve this authority in 
order to maintain consistent application of the concept of having all 
development of evidence take place at the Agency of Original 
Jurisdiction (AOJ) level in the New or Supplemental Evidence Lane. 
Throughout extended discussions and negotiations on this topic, PVA has 
worked with the Board to find an alternative authority supported by 
certain administrative processes which would collectively preserve the 
function of Sec.  7109. While we believe the outright removal of Sec.  
7109 is a choice of form over substance which disproportionately 
affects our members, we think certain provisions in this bill might 
preserve the core attributes of Sec.  7109 to an acceptable level.
    An IME is a tool used by the Board on a case-by-case basis when it 
``is warranted by the medical complexity or controversy involved in an 
appeal case.'' Sec.  7109(a). The veteran may petition the Board to 
request an IME, but the decision to do so remains in the discretion of 
the Board. The Board sua sponte may also request an IME. VA's standard 
for granting such a request is quite stringent. 38 C.F.R. 3.328(c) 
states, ``approval shall be granted only upon a determination . . . 
that the issue under consideration poses a medical problem of such 
obscurity or complexity, or has generated such controversy in the 
medical community at large, as to justify solicitation of an 
independent medical opinion.'' The number granted each year usually 
amounts to no more than 100 with approximately 50% being requested by 
the Board itself. Experienced Board personnel thoroughly consider the 
issues which provoke the need for an outside opinion. Complicating the 
process further, the CAVC has carefully attempted to set parameters for 
the proposed questions to be answered by experts. A question presented 
to a medical expert may neither be too vague, nor too specific and 
leading. A question too vague renders the opinion faulty for failing to 
address the specific issue, while a question too specific tends to lead 
the fact finder to a predisposed result.
    By simply striking Sec.  7109 in its entirety, the current bill 
proposes to delegate the procurement of an IME to the AOJ under 
preexisting authority found in 38 U.S.C. Sec.  5109. This is 
problematic because, by its nature, an IME tends to address the most 
complex medical scenarios. Removing this tool from the purview of the 
Board would undermine the reality that properly presenting questions to 
the participating expert is best left to the judge seeking to resolve 
the medical controversy or question. VA's recommendation implicitly 
suggests that AOJ staff members are equipped with the requisite level 
of experience to carry out this delicate exercise. Even more worrisome 
is that in the current claims processing system, IME's are almost 
exclusively requested at the Board level, despite the AOJ's existing 
authority to procure one. This begs the question of how many rating 
officers have the experience and expertise to even identify the need 
for an IME, let alone to draft a nuanced question that would comport 
with veterans' law jurisprudence.
    Dissolving Sec.  7109 would have the additional effect of 
abolishing the centralized office of outside medical opinions. This 
small staff has played a vital role in facilitating IME's and 
maintaining their effectiveness by developing relationships with 
doctors who are experts on particular subjects and willing to do this 
tedious task for almost no money. This office not only expedites the 
receipt of opinions, but it also ensures a high level of quality. Now 
this concentrated effort conducted by a group of people thoroughly 
versed in the IME process will simply disintegrate in favor of IME's 
being requested, maybe, by a savvy rating officer who has the 
wherewithal to recognize the need. Even in such a fortuitous 
circumstance, the rating officer will be left to fend for itself in 
finding a qualified and willing expert to conduct the task-something 
this office would have done for them.
    We recognize that the bill attempts to mitigate against the damage 
of losing Sec.  7109 by supplementing Sec.  5109(d) and Sec.  
5103B(c)(2), but this proposal still discards a properly functioning 
organ of the Board in favor of more Bureaucracy. IME's generally have a 
fast turn-around at the Board, and the weight of the opinion is often 
significant enough to bring finality to a claim. It is possible that VA 
could preserve the function of the office of outside medical opinions 
in some fashion, perhaps consolidating it under VBA's authority. The 
Board has considered our suggestions and alternative proposals in this 
regard. VA's senior leadership has committed to us that it will take 
the necessary steps to preserve the best practices and resources of 
this office. PVA highly recommends that if this Committee is 
entertaining striking Sec.  7109, it should obligate VA to explain how 
it plans to mitigate against the loss of this office and the Committee 
should conduct oversight during implementation. Similarly, the 
decreased efficiency with having the process conducted at the AOJ level 
is also concerning. Instead of the VLJ requesting an IME and receiving 
the opinion, now a second person must review the claim - the rating 
officer who received the file on remand. If a veteran wishes to appeal 
this re-adjudication, we have asked for and received VA's commitment to 
reroute the appeal by default, with exceptions, back to the same VLJ 
who remanded the case to avoid yet another person from having to review 
a claim with enough medical complexity to warrant the IME.
    Under the proposed plan the Board would limit remands to errors 
related to VBA's duty to assist under 38 U.S.C. Sec.  5103A. There are, 
however, circumstances where the AOJ received two separate examinations 
and honored the duty to assist, but an IME is needed to resolve 
conflicting opinions. The current language in the bill does not provide 
the Board the ability to remand a case with an order to procure an IME 
to resolve the conflict in evidence. Of course, we would also note that 
such a situation could easily be resolved if VA would better adhere to 
its own reasonable doubt provision when adjudicating claims. We still 
see too many VA decisions where this veteran-friendly rule is not 
properly applied. More often it appears VA raters exercise arbitrary 
prerogative to avoid ruling in favor of the claimant, adding obstacles 
to a claimant's path without adequate justification. While due 
diligence in gathering evidence is absolutely necessary, too often it 
seems that VA is working to avoid a fair and legally acceptable ruling 
favorable for the veteran. Both the failure to accept and tendency to 
devalue non-VA medical evidence are symptoms of this attitude.
    We also recommend an additional jurisdictional safeguard for the 
Board. In 38 U.S.C. Sec.  7104, it would be helpful to include language 
that addresses situations where the Board finds that an appeal presents 
extraordinary circumstances. The Board, in its sole discretion, should 
be able to retain jurisdiction over a remand of that appeal.
    A second concern that must be noted is the fact that the problem 
that brought us to the table in the first place is not addressed in 
this plan-the current bloated appeals inventory. We are only now in the 
beginning phases of working with VA to address this part of the 
equation. It is extremely difficult to place an effective date on this 
legislation in the absence of a plan to address the inventory. This 
legislation is a way to prevent the inventory from growing, it is not 
the answer to reducing the current inventory. Blurring this distinction 
should be avoided. The question of how this plan should be implemented 
in light of the current situation deserves serious scrutiny that can 
only be applied by further collaboration between VA and the 
stakeholders involved in this process thus far.
    The plan presented here today is predicated on an expectation that 
decisions in the middle lane will be adjudicated within an average time 
of one hundred and twenty-five days. As a result of the Fully Developed 
Claims process and other efforts that included a surge in resources and 
mandatory overtime, VBA is currently doing well in achieving this 
average wait time for initial claims. And while that is encouraging for 
the plan we are contemplating here, the present state of affairs could 
be misleading, and we have not had the opportunity to consider the 
impact on that wait time if the new system were implemented and 
suddenly altered the current workflow. Also left unaddressed is the 
resource requirement that might balloon if the plan runs parallel to 
the current system until all pending claims are phased out and 
resolved. Adequate resources will be essential to weather the growing 
pains as this new system is laid in. Leaving these kinds of questions 
unanswered and moving forward invites the possibility of trading one 
mangled system for another.
    Some stakeholders have expressed concern over the replacement of 
the ``new and material'' evidence standard with ``new and relevant.'' 
PVA believes this is an acceptable standard for veterans to meet. It is 
true that the number of appeals in the system currently disputing a 
decision that evidence submitted was not deemed ``material'' may be as 
high as 20 percent. The concern is that changing ``material'' to 
``relevant'' will simply exchange one appealable issue for another. A 
clever idea was put forward to have VA simply deny the claim if it 
found that the new evidence submitted was not relevant. This would 
prevent a veteran from appealing the relevance determination, and 
thereby significantly reduce the number of forthcoming appeals. 
However, this discounts two things. The first is that ``relevant'' is a 
significantly lower legal threshold than ``material.'' Most 
determinations will actually lead to the admission of the evidence, 
and, therefore, fewer appeals. The second is that it might have the 
counter-intuitive effect of creating a bigger slow-down as raters are 
forced to issue full decision notices when they deny a claim instead of 
simply finding that the evidence was not relevant.
    PVA was a supporter early on of judicial review, and we believe the 
availability of that review has improved the appeals process for 
veterans. We are concerned that this proposal could limit a veteran's 
access to court review, and would be happy to work with the committee 
on creating assurances that this path remains an open and effective 
means to correct error in individual cases as well as to correct agency 
misinterpretations of the law.
    We also have concerns about whether some language as drafted will 
reflect the promises made in those long meetings. For example, it is 
our understanding that reform will not impact the availability of the 
duty to assist but it will only be enforced on remand to the AOJ, yet 
as proposed, the language on this issue is confusing. We suggest a 
clearer approach, so that veterans have the assurance they are not 
losing any existing protections in this reform.
    Finally, this is not simply a VA problem. As stated earlier, PVA 
has many service representatives and spends a great deal of time, 
funds, and effort on ensuring they accomplish their duties at a high 
level of effectiveness. However, it is important that veterans and 
their representatives also share responsibility when appeals arrive at 
the Board without merit. A disability claim that is denied by VBA 
should not automatically become an appeal simply based on the 
claimant's disagreement with the decision. When a claimant either files 
an appeal on his own behalf, or compels an accredited representative to 
do so with no legal basis for appealing, that appeal clogs the system 
and draws resources away from legitimate appeals. Since 2012, PVA has 
taken steps to reduce frivolous appeals by having claimants sign a 
``Notice Concerning Limits on PVA Representation Before the Board of 
Veterans' Appeals'' at the time they execute the Form 21-22 Power of 
Attorney (POA) form. PVA clients are notified at the time we accept POA 
that we do not guarantee we will appeal every adverse decision and 
reserve the right to refuse to advance any frivolous appeal, in keeping 
with VA regulations.
               H.R. 5162, the ``Vet Connect Act of 2016"
    PVA understands the intent of H.R. 5162, the ``Vet Connect Act of 
2016;'' to authorize the Secretary to disclose to non-department health 
care providers certain medical records of the veterans who are in their 
care. However, we question whether there exists a demonstrated need 
that this legislation seeks to address. VA currently has the means to 
share patient records with the consent of the patient or in the case of 
a medical emergency. To relax the protections to share records with any 
non-Department entity exposes veterans' personal information when it is 
not medically necessary.
  H.R. 5392, the ``No Veterans Crisis Line Should Go Unanswered Act''
    PVA generally supports H.R. 5392, the ``No Veterans Crisis Line 
Should Go Unanswered Act.'' The legislation requires the VA to develop 
and implement a quality assurance process to address responsiveness and 
performance of the Veterans Crisis Line and backup call centers, that 
they be answered by a live person and improvements documented 
throughout. It requires there be quantifiable timeframes for objectives 
and that they be consistent with guidance issued by the Office of 
Management and Budget. We find it hard to believe that the VA does not 
currently have in place a quality assurance process, particularly for 
such a critical access tool.
                               H.R. 5407
    H.R. 5407 requires the Department of Labor to prioritize the 
provision of services to homeless veterans with dependent children 
through the Homeless Veterans' Reintegration Program (HVRP). The 
legislation also sets out a new reporting requirement for the Secretary 
to submit an analysis of any gaps homeless veterans with dependent 
children have in accessing shelter, safety, or services. Although the 
provision of these types of services does not impact many of PVA's 
members, PVA generally supports this legislation.
                               H.R. 5416
    PVA supports H.R. 5416, to amend title 38, United States Code, to 
expand burial benefits for veterans who die while receiving hospital 
care or medical services under the Veterans Choice Program. Veterans 
who pass away while in receipt of care from VA through a contracted 
hospital, nursing home, adult day health care, are entitled to burial 
benefits. This bill would make eligible those receiving care under the 
Choice Program. This is clearly a matter of equity. If a veteran has to 
rely upon the Choice Program rather than other similar contracted 
facilities they should be entitled to equal benefits.
                               H.R. 5420
    PVA has no official position on this proposed bill.
             Draft Bill, ``Military Residency Choice Act''
    PVA supports the draft bill, the ``Military Residency Choice Act.'' 
In 2009, Congress passed the Military Spouse Residency Relief Act 
(MSRRA) to alleviate some of the numerous inconveniences that military 
spouses endure each time their service member is uprooted due to 
military orders. Service members have long been able to maintain their 
home state of residency, regardless of where military orders take them. 
The MSRRA extended this benefit to military spouses by allowing them to 
also maintain one state of domicile for purposes of residency, voting 
and taxation. However, the benefit only applies if he or she shares the 
same residency as the service member. If the service member wishes to 
retain his or her original domicile and not the domicile in which he or 
she met and married their spouse, then the spouse cannot use the MSRRA. 
The spouse must change residency each time the service member receives 
orders for a permanent change of station. The Military Residency Choice 
Act remedies this limitation by allowing the spouse to elect the 
service member's state of residency.
    Changing residency every time the Department of Defense moves a 
family is a significant inconvenience to the men and women that stand 
by our service members. There are times when a family may have to move 
twice, and sometimes three times in a year. If the spouse has a 
business, even one operated out of the home, the complicated tax 
preparations during such a year can be daunting. These kinds of 
obstacles discourage spouses from working and voting. Our military 
families sacrifice a life of stability, and they deserve any 
convenience we can offer them.
                     H.R. 5166, the ``WINGMAN Act''
    PVA supports the goal of ensuring veterans receive timely 
information regarding the status of their claims. We appreciate that 
this bill ensures that Congressional employees granted access to such a 
program undergo the same training and certification program that VA 
currently uses to certify VSO representatives and attorneys 
representing claimants. This legislation, however, allows access to a 
claimant's information regardless of whether the covered employees are 
acting under a power of attorney. Claims files contain the most private 
information about that particular veteran and, often times, information 
of other individuals consulted during the claim's development. PVA 
believes that in the interest of maintaining strict protection of such 
private information, this legislation should be limited to those who 
hold a power of attorney. Other logistical issues may also arise in the 
form of the added administrative burden on VA of managing the 
certification process and tracking users. Certainly we do not want to 
see resources that should be applied to adjudicating claims shifted to 
facilitating Congressional involvement unless it produces a significant 
increase in productivity.
    Mr. Chairman, we would like to thank you again for the opportunity 
to testify on these important measures. It is imperative that we remain 
focused on providing the necessary benefits and health care services 
that veterans and their families rely upon. We would be happy to answer 
any questions that you may have.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2016
    Department of Veterans Affairs, Office of National Veterans Sports 
Programs & Special Events - Grant to support rehabilitation sports 
activities - $200,000.
                            Fiscal Year 2015
    Department of Veterans Affairs, Office of National Veterans Sports 
Programs & Special Events - Grant to support rehabilitation sports 
activities - $425,000.
                            Fiscal Year 2014
    No federal grants or contracts received.
                     Disclosure of Foreign Payments
    Paralyzed Veterans of America is largely supported by donations 
from the general public. However, in some very rare cases we receive 
direct donations from foreign nationals. In addition, we receive 
funding from corporations and foundations which in some cases are U.S. 
subsidiaries of non-U.S. companies.

                                
                Prepared Statement ofLouis J. Celli, Jr.
    Chairman Miller, Ranking Member Brown, and distinguished members of 
the committee, on behalf of National Commander Dale Barnett and The 
American Legion; the country's largest patriotic wartime service 
organization for veterans, comprising over 2 million members and 
serving every man and woman who has worn the uniform for this country; 
we thank you for the opportunity to testify regarding The American 
Legion's position on the pending and draft legislation.
      H. R. 3216: Veterans Emergency Treatment Act or the VET Act
    To amend title 38, United States Code, to clarify the emergency 
hospital care furnished by the Secretary of Veterans Affairs to certain 
veterans.

    The VET Act would require that every enrolled veteran is afforded 
the highest level of emergency care at every health care facility that 
is capable of providing emergency care services under VA jurisdiction.
    In 1986, Congress enacted the Emergency Medical Treatment & Labor 
Act (EMTALA) to ensure public access to emergency services regardless 
of ability to pay. Section 1867 of the Social Security Act imposes 
specific obligations on Medicare-participating hospitals that offer 
emergency services to provide a medical screening examination (MSE) 
when a request is made for examination or treatment for an emergency 
medical condition (EMC), including active labor, regardless of an 
individual's ability to pay. Hospitals are then required to provide 
stabilizing treatment for patients with EMCs. If a hospital is unable 
to stabilize a patient within its capability, or if the patient 
requests, an appropriate transfer should be implemented.
    H.R. 3216 would apply the statutory requirements of the EMTALA to 
emergency care furnished by the VA to enrolled veterans who arrive at 
the emergency department of a VA medical facility by indicating an 
emergency condition exists. This bill would also enhance VA's existing 
legislative authorities to allow VA to ensure veterans are provided 
with appropriate medical screening examinations.
    The American Legion believes anytime a veteran reports to an 
emergency department at a VA or non-VA medical facility, the veteran 
should receive a thorough examination to include all appropriate 
ancillary tests to assist the treating clinician to properly diagnose 
the problem.
    The American Legion supports any legislation and programs within 
the VA that will enhance, promote, restore or preserve benefits for 
veterans and their dependents, including timely access to quality VA 
health care. \1\
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 23 (May 2016): Support for 
Veteran Quality of Life

The American Legion supports H.R. 3216.
 H. R. 4150: Department of Veterans Affairs Emergency Medical Staffing 
                     Recruitment and Retention Act
    To amend title 38, United States Code, to allow the Secretary of 
Veterans Affairs to modify the hours of employment of physicians and 
physician assistants employed on a full-time basis by the Department of 
Veterans Affairs.

    The Veterans Affairs Medical Staffing Recruitment and Retention Act 
would give the Veterans Health Administration (VHA) the ability to 
address the unbalanced work schedules that are often associated with 
providing emergency room health care. Since 2003, The American Legion 
through the ``System Worth Saving Program'' has been actively tracking 
staffing shortages at VA medical centers across the country. The 
American Legion's 2014 System Worth Saving report entitled ``Past, 
Present, and Future of VA Health Care'' found that several VA medical 
centers continue to struggle to fill critical positions across many 
disciplines within the healthcare system.
    The American Legion believes the Veterans Health Administration 
must continue to develop and implement staffing models for critically 
needed occupations. \2\
---------------------------------------------------------------------------
    \2\ American Legion Resolution No. 101 (Sept. 2015): Department of 
Veterans Affairs Recruitment and Retention

The American Legion supports H.R. 4150.
H. R. 4764: Puppies Assisting Wounded Servicemembers (PAWS) Act of 2016
    To direct the Secretary of Veterans Affairs to carry out a pilot 
program to provide service dogs to certain veterans with severe post-
traumatic stress disorder.

    Since 1991, the United States has been at war and as a result 
thousands of men and women have returned home with mental and physical 
injuries. The PAWS Act of 2016 would expand access to service dogs for 
veterans suffering from Post-Traumatic Stress Disorder (PTSD) which is 
one of the ``signature wounds'' of the wars in Iraq and Afghanistan.
    H.R. 4764 would create a five-year pilot $10 million program that 
pairs veterans who served on active duty in the Armed Forces on or 
after September 11, 2001 and for veterans who have been diagnosed with 
PTSD rated at a severity level of three or four on the Clinician-
Administered PTSD Scale (CAPS-5) for Diagnostic and Statistical Manual 
of Mental Disorders (DSM-5) with a service dog. Eligible veterans must 
have also completed an evidence-based treatment program and remain 
significantly symptomatic by clinical standards.
    This legislation is important to veterans because it allows the use 
of service dogs to assist in the therapy plan for injured veterans 
returning home from war with traumatic brain injury (TBI) and 
posttraumatic stress disorder (PTSD). Service dogs can act as an 
effective complementary therapy treatment component, especially for 
those veterans who suffer on a daily basis from the physical and 
psychological wounds of war.
    The American Legion urges Congress to provide oversight and funding 
to the VA for innovative, evidence-based complementary and alternative 
medicine (CAM) in treating various illnesses and disabilities. \3\
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 99 (Sept. 2015): Complementary 
and Alternative Medicine

The American Legion supports H.R. 4764.
    H. R. 5047: Protecting Veterans' Educational Choice Act of 2016
    To direct the Secretary of Veterans Affairs and the Secretary of 
Labor to provide information to veterans and members of the Armed 
Forces about articulation agreements between institutions of higher 
learning, and for other purposes.

    H.R. 5047 would provide student-veterans with information on which 
institutions of higher learning could potentially give them credit for 
completed courses if they choose to transfer from their college/
university. This legislation adds to the necessary information that 
empowers student-veterans in making the best decisions in what college/
university they choose to attend for the ultimate goal of obtaining 
their college degree and finding gainful employment.
    The American Legion seeks and supports any legislative or 
administrative proposal that improves, but not limited to, the GI Bill, 
Department of Defense Tuition Assistance (TA), Higher Education Title 
IV funding (i.e. Pell Grants, Student Loans, etc.) and education 
benefits so servicemembers, veterans, and their families can maximize 
its usage. \4\
---------------------------------------------------------------------------
    \4\ American Legion Resolution No. 312 (August 2014): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Learning

The American Legion supports H.R. 5047.
            H.R. 5083: VA Appeals Modernization Act of 2016
    To amend title 38, United States Code, to improve the appeals 
process of the Department of Veterans Affairs.

    More than 1.4 million claims for veterans' disability were 
processed last year, and the Veterans Benefits Administration (VBA) is 
on track to surpass even that number this year. At a ten to twelve 
percentage rate of appeal, the workload at the Board of Veterans 
Appeals (BVA) will likely never disappear.
    With an appeals inventory at roughly half a million pending claims, 
the Department of Veterans Affairs (VA) asked stakeholders to gather in 
several high intensity day-long working meetings to help come up with a 
system that would recommend solutions to help VBA and the Court of 
Appeals for Veterans Claims (CAVC) better process and manage this 
existing workload.
    The American Legion currently holds power of attorney on more than 
three quarters of a million veteran claimants. We spend more than two 
million dollars a year on veteran claims and appeals processing and 
assistance. Our success rate at the BVA hovers at around 80 percent, 
either outright grants of benefits or remands to properly process a 
claim that VA had failed to properly process at the lower level of the 
Regional Office.
    When VA invited stakeholders to the table to discuss appeals 
modernization, The American Legion knew that appeals modernization was 
not about appeals alone, that the recommendations required to 
streamline appeals needed to take place much earlier in the process, at 
the point of the initial adjudication. With that, one of the first 
things the group looked at was the VBA decision notice. Refining the 
initial decision notice is not as easy as it sounds and several of the 
Veterans Service Organizations (VSOs) worked with VA for months in 2014 
to try and improve these letters, with frustrations over lack of 
clarity still remaining. Getting VBA to agree to improve the quality of 
the letter was a landmark accomplishment that got the process off to a 
good start.
    After the initial VA commitment to improve the decision letter, the 
stakeholders listened to what they perceived as barriers to improved 
appeals processing, which supported another of the primary American 
Legion concerns, the lack of a centralized training process. The BVA 
has complained that the appeal case file that is finally presented to a 
veterans law judge looks nothing like the claim that was adjudicated at 
the Regional Office (RO) level in almost all cases, due to the 
allowance of additional evidence during the appeals process. Therefore 
VBA claims they have no way to determine how, or if ROs are 
misinterpreting the law or making mistakes.
    BVA further argued that if there were a process within the appeals 
system that allowed law judges to review disputed decisions that were 
adjudicated at the regional offices, based only on the same information 
that the regional office had at the time the claim was originally 
decided, then BVA would be able to provide a ``feedback loop'' they 
could use to help train and educate ROs, and additionally help identify 
regional offices where the decisions uniformly fail to address specific 
legal issues.
    It was with these two foundational underpinnings that the big six 
VSOs, in addition to state and county service officers, veteran 
advocate attorneys, and other interested groups worked with senior VA 
officials from VBA and BVA to design the framework of the legislation 
being discussed here today.
    The guiding principle leading all of our discussion was ensuring 
that we preserved all of the veteran's due process rights while 
ensuring that they did not lose any of the claim's effective date, 
which we were able to do successfully.
    When we started the design process, we had to suspend dealing with 
the current caseload of appeals while we designed the new model and 
treated the two sets of cases as independent of each other. Now that we 
have designed a more streamlined and effective model for future claims, 
all stakeholders will still need to determine how to deal with the 
existing inventory of appealed claims.
    The design of the proposed appeals process allows for multiple 
options for claimants, as well as options for additional claim 
development, the option to have the decision reviewed by another 
adjudicator (difference of opinion) and the chance to take your case 
straight to the board to have a law judge review the decision and make 
a ruling on your claim.
    The proposed bill provides veterans additional options while 
maintaining the effective dates of original claims. Veterans can elect 
to have an original decision reviewed at the ROs through a Difference 
of Opinion Review (DOOR) which is similar to the function of what the 
Decision Review Officers (DROs) do now. A DOOR provides an opportunity 
for a claimant to discuss concerns regarding the original adjudication 
of a particular issue, or the entire claim, prior to appealing to BVA. 
Additionally, the administrative actions remove the need for a Notice 
of Disagreement (NOD), a process that currently takes 403.6 days, 
according to the April 25, 2016, Monday Morning Workload Report.
    Beyond improvements in administrative functions, the proposed bill 
will enable claimants to select a process other than the standard 
multi-year backlog if they want to have an appeal addressed more 
expediently, and if they believe they have already provided all 
relevant and supporting evidence. Similar to the Fully Developed Claims 
(FDC) program, veterans will be able to elect to have their appeals 
reviewed more expeditiously by attesting that all information is 
included within the claim, VA records, or submitted with VA Form 9 
indicating the intent to have their claims immediately forwarded to BVA 
for review.
    Veterans indicating that they may need additional evidence or time, 
could elect to have their claim reviewed in the current BVA format 
allowing additional evidence to be entered into the record. For 
veterans requiring additional evidence, such as lay statements from 
friends and families or a private medical examination rebutting VA 
medical examinations, this is a viable alternative to allow the time 
and opportunity to provide further development necessary to 
substantiate the claim for benefits.
    Throughout this entire process, veterans will be able to maintain 
their effective date of the original claim. Recognizing that an 
increased burden is being placed upon veterans, VA will permit veterans 
to maintain their effective dates, even if BVA denies the claim. If an 
appeal is denied by BVA, the veteran can submit new and minimally 
relevant evidence to reopen the claim at the RO while holding that 
effective date that may have been established long before the second 
filing for benefit.
    Just as we did when we worked in partnership with VA to roll out 
the Fully Developed Claims process, The American Legion is willing to 
put in the necessary work to ensure this program is successful. We 
recognize the increased burden it can place on veterans; we also 
recognize that our approximately 3,000 accredited representatives have 
the tools to ensure success for the veterans and claimants we 
represent. Throughout the year, we will continue to work with our 
representatives, our members, and most importantly, our veterans to 
understand the changes in law, and how they will be able to succeed 
with these changes.
    Reforming a process as complex as the disability claims system is 
not simple, and not every aspect of appeals reform is able to be 
legislated, some parts are more nuanced and require the attention of 
all stakeholders. The American Legion is committed to providing 
constant feedback as we move forward with appeals modernization. We 
believe that the architects of this proposal have acted in good faith, 
and we support their efforts to modernize the appeals process for the 
good of veterans.

The American Legion supports H.R. 5083.
                  H. R. 5162: Vet Connect Act of 2016
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to disclose to non-Department of Veterans Affairs 
health care providers certain medical records of veterans who receive 
health care from such providers.

    With over 43,000 unfilled positions within VA, the Veterans 
Healthcare Administration (VHA) is relying on an increase of community 
healthcare providers to supplement care for veterans. By VHA referring 
care to health care providers out in the community, sharing of a 
veteran medical record continues to be a barrier which creates delays 
in care. By not having access to a veterans' medical records, 
physicians will not be able to get the full medical history of the 
veteran they are treating.
    H.R. 5162 would decrease the bureaucratic red tape at VA by 
allowing non-VA doctors who are involved in the veterans' care easier 
access to their medical records so doctors and veterans can make better 
health care decisions.
    The American Legion requires that VA provide non-VA to VA providers 
with full access to VA's Computer Patient Record System (CPRS) to 
ensure the contracted community provider can review the patient's full 
history; allow the community provider to meet all of the quality of 
care screening and measures tracked in CPRS; and speed up receipt and 
documentation from the non-VA provider encounter to ensure it is added 
to the veterans' medical record. \5\
---------------------------------------------------------------------------
    \5\ Resolution No. 46: (Oct 2012): Department of Veterans Affairs 
(VA) Non-VA Care Programs

---------------------------------------------------------------------------
The American Legion supports H.R. 5162.

 H. R. 5166: Working to Integrate Networks Guaranteeing Member Access 
                     Now Act or the ``WINGMAN Act''
    To amend title 38, United States Code, to provide certain employees 
of Members of Congress and certain employees of State or local 
governmental agencies with access to case-tracking information of the 
Department of Veterans Affairs.

    H.R. 5166 would grant access to the Department of Veterans Affairs 
(VA) Veterans Benefits Management System (VBMS) for the purpose of 
assisting constituents. According to the bill, Members could select an 
employee, and at a cost to the employee or member, would receive the 
necessary training to gain accreditation to legally review veterans' 
records within VBMS. The American Legion has over 3,000 accredited 
representatives located throughout the nation. These professionals 
receive regular professional training to ensure they have the most 
current understanding of the impact of changes in statutes, 
regulations, and case law. It is simply not a matter of receiving 
initial training and meeting the requirement of being accredited; like 
many professions, it requires on-going, thorough training. 
Additionally, veterans are repeatedly advised of their opportunity to 
elect to have a Veterans Service Organization (VSO) represent them in 
their quest to receive VA disability benefits without a cost to the 
veteran. The American Legion does not have a resolution to support the 
enactment of this bill; however, we urge Congress to consider the long-
term ramifications of supporting legislation that only requires their 
own employees to have the minimal level of understanding in veterans' 
law assisting their constituents. To ensure their constituents receive 
the assistance they deserve, we highly recommend that a VSO advocate on 
their veterans' behalf.

The American Legion opposes H.R. 5166.
   H. R. 5392: No Veterans Crisis Line Call Should Go Unanswered Act
    To direct the Secretary of Veterans Affairs to improve the Veterans 
Crisis Line.

    The Veterans Crisis Line (VCL) through a confidential toll-free 
hotline, online chat, or text connects veterans, families and friends 
who are in crisis with qualified, compassionate Department of Veterans 
Affairs responders.
    H.R. 5392 would take measures to ensure that when a veteran calls 
the VCL or backup call center that their call gets answered in a timely 
fashion and is in accordance with the guidelines established by the 
American Association of Suicidology. This bill would also improve the 
responsiveness and performance within the VA by ensuring that suicide 
prevention and crisis resources are available to all veterans.
    The American Legion calls upon the VA to directly connect the call 
of a distraught veteran to the Veterans Crisis Line. \6\
---------------------------------------------------------------------------
    \6\ American Legion Resolution No. 27 (May 2015): Veterans Crisis 
Line

The American Legion supports H.R. 5392.
                               H. R. 5407
    To amend title 38, United States Code, to direct the Secretary of 
Labor to prioritize the provision of services to homeless veterans with 
dependent children in carrying out homeless veterans reintegration 
programs, and for other purposes.

    H.R. 5407 would rightly prioritize homeless veterans with 
dependents within the Department of Labor. Please note - the Homeless 
Veterans Reintegration Program (HVRP) within the Department of Labor's 
Veterans Employment and Training Service (DOL-VETS) is the only 
nationwide program focused on assisting homeless veterans to 
reintegrate into the workforce. Women veterans are far more likely to 
be single parents than men; consequently, this legislation would 
provide vital resources for the fastest growing cohort within the 
homeless veteran population.
    In addition, this bill would provide gap analysis regarding access 
to shelter, safety and other relevant services for homeless veterans 
with dependent children. This kind of information gives federal/state 
agencies, community service providers and other stakeholders an idea of 
the immense problem and the ability to figure out `best practices' in 
the fight to combat veteran homelessness, particularly those homeless 
individuals with children.
    Furthermore, The American Legion continues to place special 
priority on the issue of veteran homelessness. With veterans making up 
approximately 11 percent of our nation's total adult homeless 
population, there is plenty of reason to give the cause special 
attention. Along with various community partners, The American Legion 
remains committed to seeing VA's goal of ending veteran homelessness 
come to fruition. Our goal is to ensure that every community across 
America has programs and services in place to get homeless veterans in 
housing (along with necessary healthcare/treatment), while connecting 
those at-risk veterans with the local services and resources they need. 
Lastly, HVRP is a highly successful grant program that needs to be 
fully funded at $50 million. Currently, HVRP is funded at $38 million.
    The American Legion continues to support the efforts of public and 
private sector agencies and organizations with resources necessary to 
aid homeless veterans and their families. \7\
---------------------------------------------------------------------------
    \7\ American Legion Resolution No. 306 (August 2014): Support 
Funding for Homeless Veterans

The American Legion supports H.R. 5407.
                               H.R. 5416
    To amend title 38, United States Code, to expand burial benefits 
for veterans who die while receiving hospital care or medical services 
under the Veterans Choice Program of the Department of Veterans 
Affairs, and for other purposes

    VA burial allowances are partial reimbursements of an eligible 
veteran's burial and funeral expenses. When the cause of death is not 
service related, the reimbursements are generally described as two 
payments: a burial and funeral allowance, and a plot or interment 
allowance.
    Currently, under existing law, the family of a veteran in the 
Choice Program who passes away in a non-VA hospital receives a $300 
burial allowance. The family of a veteran who passes away in a non-VA 
under a VA contract receives a $747 burial allowance. H.R. 5416 would 
set the burial allowance for veterans who die in a non-VA Health Care 
facility under the Choice program as the same as if the veteran dies in 
a VA or contracted medical facility.
    The American Legion urges Congress and the VA to enact legislation 
and programs within the VA that will enhance, promote, restore, or 
preserve benefits for veterans and their dependents. \8\
---------------------------------------------------------------------------
    \8\ American Legion Resolution No. 23: (May 2016): Support for 
Veteran Quality of Life

The American Legion supports H.R. 5416.
                               H.R. 5420
    To authorize the American Battle Monuments Commission to acquire, 
operate, and maintain the Lafayette Escadrille Memorial in Marne-la-
Coquette, France.

    The Lafayette Escadrille Memorial is dedicated to the memory of the 
American pilots who volunteered to assist the Allied Army in 1914. The 
central platform is crowned with a triumphal arch and flanked with 
porticos leading to the underground crypt. The ``art deco'' style 
highlights the pilots' sacrifice and the Franco-American friendship.
    There are statues of La Fayette and Washington facing one another 
and, on the ground, a mosaic of the famous Sioux warrior's head, the 
squadron's ensign. The crypt holds the ashes of 66 American pilots. It 
is decorated with 13 stained glass windows depicting the great aerial 
combats of the war. The monument was inaugurated on American 
Independence Day, July 4, 1928.
    H.R. 5420 would authorize the American Battle Monuments Commission 
(ABMC), which was established by the Congress in 1923, as the guardian 
of America's overseas commemorative cemeteries and memorials and honors 
the service, achievements and sacrifices of the United States Armed 
Forces by overseeing the operations of the memorial which has been 
erected to honor those who gave the ultimate sacrifice for their 
country.
    The American Legion urges Congress to appropriate adequate funding 
and human resources to the American Battle Monuments Commission in 
order to properly maintain and preserve the final resting place of 
America's war dead located on foreign soil. \9\
---------------------------------------------------------------------------
    \9\ American Legion Resolution No. 50 (August 2014): Support for 
the American Battle Monuments Commission

The American Legion supports H.R. 5420.
               Draft Bill: Military Residency Choice Act
    To amend the Servicemembers Civil Relief Act to authorize spouses 
of servicemembers to elect to use the same residences as the 
servicemembers.

The American Legion does not have a position on the Military Residency 
                              Choice Act.
                               Conclusion
    As always, The American Legion thanks this committee for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization. For additional information regarding this 
testimony, please contact Mr. Warren J. Goldstein at The American 
Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acdbcbc3c0c8dfd8c9c5c2ecc0c9cbc5c3c282c3decb82">[email&#160;protected]</a>

                                 
                   Prepared Statement of Rick Weidman
    Good morning, Chairman Miller, Ranking Member Brown, and other 
distinguished members of this very vital committee. Vietnam Veterans of 
America (VVA) is pleased to have the opportunity to present our views 
today regarding pending legislation before you.
    Draft - The Military Residency Choice Act, introduced by 
Congressman Randy Forbes (VA-4), amends the Servicemembers Civil Relief 
Act to authorize the spouse of a servicemember to elect to use the same 
residence as the servicemember for purposes of taxation ``regardless of 
the date on which the marriage of the spouse and the servicemember 
occurred.''
    The rationale behind this amendment to this act is logical and 
eminently fair, and VVA endorses the introduction, and enactment, of 
this bill.
    H.R. 3216 - The Veterans Emergency Treatment Act, or VET Act, 
introduced by Congressman Dan Newhouse (WA-4), attempts to ``clarify 
hospital care furnished by the VA to certain veterans'' in emergency 
settings.
    It strikes us that although this act attempts to spell out basic 
procedures that are already practiced in any ER by trained clinicians, 
and although it may be considered by some to be prescriptive to the 
point of micromanaging medical practice, its provisions are sound. 
Hence, VVA supports enactment of the VET Act.
    H.R.4150 - The Department of Veterans Affairs Emergency Medical 
Staffing Recruitment and Retention Act, introduced by Congressman Raul 
Ruiz (CA-36). This bill will allow the Secretary of Veterans Affairs to 
modify the hours of employment for physicians and physician assistants 
``to be more than or less than 80 hours in a biweekly pay period if the 
total hours of employment for such employee in a calendar year does not 
exceed 2,080 hours.''
    Because of the nature of the work that they do, clinicians need 
flexibility in their daily and weekly work schedules, and ought not be 
restricted to any set number of hours they may work in a given time 
period. Of course, no clinician should work to the point of exhaustion 
on a regular basis, to the detriment of the patients they treat.
    VVA supports enactment of this common-sense legislation.
    H.R.4764 - Puppies Assisting Wounded Servicemembers (PAWS) Act of 
2016, introduced by Congressman Ron DeSantis (FL-6), directs the VA, 
through the Office of Patient Centered Care and Cultural 
Transformation, to carry out a five-year pilot program to provide 
service dogs, and veterinary health insurance, to eligible veterans 
suffering from severe Post-traumatic Stress Disorder. Importantly, the 
provision of a service dog ``shall not replace established treatment 
modalities.''
    The PAWS Act requires that, to be eligible, a veteran shall ``have 
been treated and have completed an established evidence-based treatment 
and remain significantly symptomatic,'' and ``have not experienced 
satisfactory improvement'' after having been treated with these 
evidence-based therapies. Not only does this bill place a limitation on 
the expenditure of funds ``for the procurement and training'' of a 
canine in this pilot program, the Comptroller General of the United 
States is required to submit to Congress a report evaluating the 
effectiveness of the program.
    VVA supports, with certain reservations, enactment of the PAWS Act. 
While it is well past time to hold clinical trials to validate the 
results of canine therapies, if relevant metrics can show that veterans 
suffering from PTSD can be helped by having a canine companion, such a 
pilot project will be well worth whatever costs the VA will incur in 
funding it. Nevertheless, Congress should see proof of the efficacy and 
effectiveness of these therapies.
    H.R.5047 - Protecting Veterans' Educational Choice Act of 2016, 
introduced by Congressman Jody Hice (GA-10), would direct the 
Secretaries of Veterans Affairs and Labor ``to provide information to 
veterans and members of the Armed Forces about articulation agreements 
between institutions of higher learning.''
    As we have been both dismayed and angered by the fabrications made 
to veterans and active duty troops by too many alleged institutions of 
higher learning in a greedy grab for federal education dollars, any 
attempt by agencies of government to inform and counsel students about 
the articulation agreements of any institution of higher learning in 
which they may be interested is most welcome.
    As such, VVA endorses enactment of H.R. 5047.
    H.R.5083 - VA Appeals Modernization Act of 2016, introduced by 
Congresswoman Dina Titus (NV-1), is an attempt to improve the appeals 
process of the Department of Veterans Affairs. We are opposed to 
enactment of this legislation; and let us explain, in detail, why.

OUR POSITION

    VVA has been an active participant in the workgroup convened by the 
VA Deputy Secretary to find common ground on solutions to the VA 
appeals process. While the appeals process is in need of reform, VVA's 
position is that veterans ought not to be required to forgo their due 
process rights in order for VA to process their claims and appeals more 
quickly. VVA's greatest concerns are that this bill does not address 
the issue of a virtually total lack of precedent that has long plagued 
the claims and appeals process. Precedent is the crux of the issue. 
Ultimately, this is a system of laws, and without precedent, the 
American system of jurisprudence could not operate. With precedent, 
most of the claims can be automated, freeing staff for other work. In 
addition, we believe if this legislation becomes black- letter law, the 
role of the Court of Appeals for Veterans Claims (CAVC) will be 
significantly diminished to the detriment of veterans.

STATEMENT

I.H.R. 5083, VA APPEALS MODERNIZATION ACT OF 2016, IN ITS CURRENT FORM, 
    DOES NOT ADDRESS THE LACK OF PRECEDENCE THAT HAS LONG PLAGUED THE 
    VA CLAIMS AND APPEALS PROCESS

    From its inception, the veterans claims and appeal process has 
lacked precedence, the legal principle by which judges are obligated to 
respect the precedent established by prior decisions. The never-ending 
churning of cases between the RO, BVA, and the CAVC, nicknamed, ``The 
Hamster Wheel'' by veterans and their advocates, has led to excessive 
wait times for too many veterans seeking final resolution of their 
appeals. The lack precedence at the BVA is the fundamental design flaw 
to the adjudication of veterans' claims, as prescribed under Title 38. 
Regrettably, the legislation proposed by VA today does not address the 
precedence issue.
    VVA offers three solutions to addressing the precedence issue:

    a) Increase the Number of VA OGC Precedent Opinions

    In the early 1990s, after the CAVC's inception, the VA OGC issued 
approximately 80-100 precedent opinions per year. Today, VA OGC issues 
less than three opinions per year. Clearly, precedent opinions are no 
longer a priority at VA OGC, and this needs to change. Veterans Service 
Organizations ought to be allowed to petition VA OGC to issue precedent 
opinions. If VA OGC declines to do so, then VA OGC need be required to 
issue a written denial that can be appealed to the CAVC.

    b) Possibly Allow the BVA to Issue 3-Judge Panel Precedent Opinions

    Currently, the BVA is authorized 78 Veteran Law Judges (VLJs), but 
it lacks an effective precedence mechanism. BVA decisions are non-
precedential and are not binding on future RO or BVA decisions. 
Consequently, the BVA is plagued by inconsistent decision-making by 
these VLJs. In order to improve the consistency of RO and BVA 
decisions, VVA recommends that VA and this committee look into the 
feasibility of BVA selectively issuing three-judge panel decisions to 
bind all future BVA decisions with the same legal issues and fact 
patterns, so that other veterans with these same legal issues do not 
have to fight the same battle repeatedly. If effectively implemented, 
this solution should reduce the number of appeals over time to the BVA.

    c) Some believe that any precedential should only result from 3-
judge panel of the CAVC.

    The reasoning here is that the CAVC judges are both more qualified, 
and would therefore be the proper venue for such arguments. The CAVC 
can meet in panels now, but they do not have to do so. That should 
change, because the VA cannot follow the lead of the Social Security 
Administration to automate most of their processes if there are not 
clear precedents and settled law.
    If one were a cynic, one could reasonably conclude that the VA is 
doing handstands and circus tricks to avoid having precedent set that 
then, of course, would be subject to judicial review.

VA Must Adopt a Social Security Administration-type of rules- based 
    system

    During the recent appeals summit, it was mentioned that the Social 
Security Administration (SSA) uses a rules-based system to improve the 
consistency of SSA decisions. This is clearly the direction that the VA 
must move, and move quickly.
    Until the precedence issue is adequately resolved, the churning of 
cases will not end, continuing to waste scarce agency resources and 
harming veterans. VVA strongly recommends the proposed legislation be 
amended to mandate an effective precedence-setting mechanism in the 
veteran claims and appeals process. Otherwise, under the proposed 
framework as it is currently written, the ``Hamster Wheel'' remains, 
albeit with fewer cases at the CAVC.

II. H.R. 5083, VA APPEALS MODERNIZATION ACT, IN ITS CURRENT FORM, HARMS 
    VETERANS BY DISINCENTIVIZING THEM FROM APPEALING TO THE CAVC, 
    THEREBY MAKING THE CAVC IRRELEVANT

    VVA has been a long-standing and staunch advocate for judicial 
review of veterans' appeals, having championed the passage of the 
Veterans' Judicial Review Act (Pub. L. No. 100-687), which established 
the United States Court of Veterans Appeals (now the Court of Appeals 
for Veterans Claims). VVA strongly believes that veterans have the 
right to judicial review of their claims for benefits under Title 38, 
and we have significant concerns that the legislative framework 
proposed by the VA will undermine the CAVC by disincentivizing veterans 
from appealing to the CAVC. Although, technically, the current 
framework does allow veterans to appeal to the CAVC, in practice, it 
will make the CAVC irrelevant.
    Today, the CAVC receives approximately 4,000 appeals per year, 
about 50 percent of which are remanded back to BVA via a Joint Motion 
for Remand (JMR). The rest of the appeals go to briefing and are 
decided by the court. Currently, the VA loses 70-75 percent of its 
cases at the CAVC. Under the proposed legislation, very few veterans 
will elect to appeal to the CAVC after a Board of Veterans Appeals 
decision, because they would risk losing the effective date of their 
claim if they lose at the CAVC. Instead, it is much safer for them to 
keep the protections provided by this proposed legislation by filing a 
``supplemental'' claim at the Regional Office (known as the ROJ in the 
legislation) and skip the appeal at the CAVC. VVA believes this will 
drastically reduce the number of cases appealed to the CAVC, with the 
consequence of reducing the pool of cases for the CAVC to choose from 
in order to render a three-judge panel merit decision. This drastic 
reduction of cases going to the CAVC will harm veterans by reducing the 
number of binding cases on the VA.
    VVA suggests that the proposed legislation be amended by giving 
post-CAVC cases the same effective-date protection as post-ROJ and 
post-BVA decisions, thereby removing the disincentive to pursue 
judicial review.
    In addition, veterans must be given adequate notice about all their 
options for appeal under this new framework, including their ability to 
continue to appeal to the CAVC. This notice should be explained not 
just when a final BVA decision is issued, but also earlier in the 
process, when a rating decision is issued by the RO. VVA is concerned 
that the VA may not provide adequate notice to veterans regarding their 
appeals option to the CAVC.

III H.R. 5083, VA APPEALS MODERNIZATION ACT, IN ITS CURRENT FORM, HARMS 
    VETERANS BY ELIMINATING DECISION REVIEW OFFICERS (DROs) AND 
    REPLACING THEM WITH ``DIFFERENCE OF OPINION REVIEWS'' (DOORS) WITH 
    NO QUALIFICATION STANDARDS

    It is in everyone's best interest to have appeals decided at the 
lowest level possible in the appeals process, which is at the RO. The 
Decision Review Officer (DRO) is the backbone of the VA appeals process 
at the lowest level. DROs are GS-13s and come from the ranks of the 
most senior raters at VBA. The effectiveness of DRO reviews can vary 
from RO to RO, but generally, veterans represented by VVA have enjoyed 
successful outcomes by using the DRO process. Veterans benefit from 
this partnership. Unfortunately, this proposed legislation threatens 
this successful relationship.
    This is classic ``old VA'' of taking something that is working and 
is good for veterans and proceeds to try to break it. VVA had hoped 
that we were moving beyond that old destructive mindset toward real 
problem solving, in a way that puts the ``veteran experience'' at the 
center of all that is done.
    Under the proposed legislation, the VA will eliminate the DRO 
position altogether and replace the DRO function with the Difference of 
Opinion Reviews (DOORs). Although senior VBA officials have stated VA 
will retain all existing DRO staff as senior raters, they have also 
indicated, in order to have a larger pool of staff to conduct DOORs, 
they will have to use less experienced raters from lower pay scales to 
perform this function.
    VVA has concerns that the only requirement identified by the VA is 
that the rater conducting the DOOR must be one GS pay grade higher than 
the rater who issues the ROJ decision. The Duty to Assist (DTA) under 
current statute is no longer required once the rating decision is 
issued by the RO. VVA is concerned this will lead to less qualified 
decision-makers (GS-9s to GS-12s) making DRO-type decisions. DROs, 
especially experienced ones, have standing and political power at ROs 
to overturn decisions. Reassigning this work to lower grade and less 
experienced raters, especially without the DTA mandated under current 
law, may lead to the rubber- stamping of rating decisions. These may 
occur more frequently if the DOOR rater and the rater who issued the 
rating decision being reviewed are at the same RO.
    The VA has not explained how much work credit will be assigned for 
DOORs by VBA's Work Credit System. Will DOORs be a primary or adjunct 
duty for raters? Will raters be given sufficient work credit for DOORs? 
If not, then DOORs will be undermined by the Work Credit System as 
raters will likely avoid them - or at
    least minimize the time spent on conducting a DOOR - as their 
primary job depends on making their rating production quota. What good 
is a DOOR if the rater is not provided sufficient work credit to 
properly review the entire record to ensure all evidence was properly 
weighed, and considered? VBA needs to ensure DOOR function is not 
undermined by the Work Credit System.
    VVA is also concerned about VA's lack of detail regarding training 
of staff who will conduct DOORs. Will raters be given sufficient 
training to confidently review and overturn another rater's decision? 
VVA strongly believes raters, as well as all VA staff involved in the 
process of adjudicating veterans claims and appeals - from clerks all 
the way up to RO Directors and VLJs - ought to undergo recurring 
proficiency training.
    Without adequate work credit and training provided to raters 
performing the DOOR function, this feature of the legislation will not 
achieve the desired goal of an effective, second-level review at the 
RO.

III. H.R. 5083, VA APPEALS MODERNIZATION ACT, IN ITS CURRENT FORM, 
    HARMS VETERANS IF THE BVA IS ALLOWED TO UNDER-RESOURCE THE HEARING 
    LANE DOCKET UNDER THIS NEW FRAMEWORK

    Under the current legislation proposed by VA, there will be two 
dockets created at the BVA, one for expedited appeals (no new evidence 
added, and no hearings) and the other, in which the claimant can add 
evidence and request a hearing. Depending on how BVA is allowed to 
allocate resources, VVA has concerns the ``hearing lane'' will be 
under-resourced, thereby punishing those veterans who choose a hearing. 
Any final framework must ensure the hearing lane has adequate 
resources.

IV H.R. 5083, VA APPEALS MODERNIZATION ACT OF 2016, IN ITS CURRENT 
    FORM, HARMS VETERANS BY CLOSING OF THE RECORD BEFORE A BVA DECISION 
    IS ISSUED

    For claims being appealed to the Board of Veterans' Appeals, VA's 
new plan allows new evidence to be submitted for only 90 days following 
the submission of the Notice of Disagreement and 90 days after the BVA 
hearing. There is no reason for the VA to restrict the submission of 
evidence in appealed cases, however, especially when the plan states 
that evidence submitted after the issuance of a Rating Decision cannot 
trigger VA's Duty to Assist.
    This is especially important given VA's history of backlogs. 
Although VA hopes BVA decisions will be issued less than a year after 
the filing of a Notice of Disagreement, under the proposed legislation, 
it is not outside the realm of possibility that BVA decisions end up 
being decided two to three years after the Notice of Disagreement is 
filed. If that is the case, not allowing a veteran to submit evidence 
during that entire period completely defeats the idea that this system 
should revolve around what is best for veterans, as opposed to what 
makes life easier for VA administrators.
    It is certainly worth noting that the overwhelming majority of 
evidence that comes in after the original claim is evidence that has 
been withheld or lost or just not provided in a timely manner by one 
entity or another of government. Had the VA and the federal government 
performed proper Duty to Assist in the first place, then the evidence 
would have been available at the start of the process.
    Therefore, in our opinion, the record should be open until BVA 
issues a decision.

IV.H.R. 5083, VA APPEALS MODERNIZATION ACT, IN ITS CURRENT FORM, HARMS 
    VETERANS BY CREATING A NEW ``RELEVANT'' EVIDENCE STANDARD

    VA proposes to throw out entire area of case law on ``new and 
material'' evidence by implanting a ``new and relevant'' evidence 
standard. In order to prevent the need for additional litigation to 
define what ``relevant'' evidence is, the words ``and relevant'' should 
be removed from the 38 U.S.C.A Sec.  5108, and a supplemental claim 
should be deemed sufficient when any ``new'' evidence is submitted.
    The VA has argued that VA resources would be wasted by allowing 
veterans to reopen a denied claim with nothing more than a ``picture of 
a horse.'' This argument is without merit, however, as such, a 
submission requires adjudication by the VA either way, and it is hard 
to imagine that it would take VA too long to deny a claim on the merits 
when the only evidence added since the last denial is a picture of one 
or another end of a horse.
    If the VA adjudicated the merits of every supplemental claim for 
which ``new'' evidence was submitted, it would make the system vastly 
more efficient, as it would get rid of the entire class of appeals 
resulting from preliminary determinations finding new evidence not 
sufficiently ``relevant'' to reopen a claim, much as ``new and material 
evidence'' appeals clog the system now.
    Under the proposed legislation, VA's ``relevant evidence'' 
definition is evidence ``that tends to prove or disprove a matter in 
issue.'' This language is so general as to be meaningless, and will 
certainly lead to the need for litigation to further define it. Why did 
VA make this definition so vague? VVA has significant concern that the 
VA is intending to make this definition more restrictive than what was 
promised to stakeholders during negotiations.

V. H.R. 5083, VA APPEALS MODERNIZATION ACT, IN ITS CURRENT FORM, HARMS 
    VETERANS BY RASING THE STANDARD FOR WHAT IS ALLEGED ON THE NOTICE 
    OF DISAGREEMENT

    Under 7105(b) (4), BVA can ``dismiss'' an appeal if the Notice of 
Disagreement does not allege specific errors of law or fact. This is 
yet another preliminary determination by VA that takes just as much 
time as a decision on the merits, and therefore serves only to 
complicate the appeals system. It is also unclear what a veteran's 
rights are after a claim is ``dismissed'' by BVA.
    More importantly, the requirement that a veteran would be forced to 
provide ``specific allegations of error of fact or law'' when 
submitting a Notice of Disagreement is a much higher standard than 
veterans currently face. There is no good reason for the VA to require 
sophisticated legal reasoning for a veteran to be able to express 
disagreement with the denial of his/her claim. Most veterans are not 
lawyers or medical experts. The fact that veterans would also be forced 
to make irrevocable decisions about issues like hearings and the 
submission of evidence to BVA at the time they file a Notice of 
Disagreement is far too much to put on them. This change appears to be 
yet another scheme to allow VA to easily dismiss appeals.

VI H.R. 5083, VA APPEALS MODERNIZATION ACT, IN ITS CURRENT FORM, HARMS 
    VETERANS BY BEING DEPENDENT ON INCREASED FUNDING FOR VBA THAT WAS 
    EITHER NOT ASKED FOR BY VA, OR ASKED FOR AND DENIED BY OMB

    Senior VA leadership proposed this legislation, but under the 
assumption, VBA will receive adequate funding from the Congress to 
adequately staff up the ROs to meet the added demands that will be 
created by these legislative changes. The same VA senior leadership has 
the responsibility to request adequate funding from Congress to ensure 
they have the adequate resources to carry out VA's mission. It is 
unclear if VA senior leadership, knowing they were going to initiate 
the biggest and most radical change to the veterans' appeals process 
since the creation of the Veterans Court nearly 30 years ago, requested 
sufficient resources for VBA to carry out these additional 
responsibilities. If not, why? On the other hand, if they did, but 
their request was denied by OMB, then why is the administration at OMB 
setting the VA up for failure?
    The success of this new appeals framework is dependent on VBA 
receiving adequate funding. Without adequate resources allocated to 
VBA, this proposed appeals framework is doomed for failure from the 
start. Is VA leadership planning to make Congress the scapegoat if 
these needed appropriations are denied?

CONCLUSION

    VVA supports modernizing the VA appeals process, so long as 
veterans' due process rights are not abridged, and the root causes are 
adequately addressed. This proposed legislation is inadequate for the 
reasons stated above. As VVA has stated before, veterans' rights in the 
VA claims and appeals processes should not be abridged, curtailed, or 
eliminated under the guise of ``administrative efficiency.''
    Most importantly, this whole effort begs the crucial question of 
how best to establish precedent. Without precedent, the chaos and 
``churn'' will continue. Ninety percent of claims break out in 15 to 20 
basically the same claim that VA is adjudicating by hand without 
precedent ten thousand to fifty thousand times each. Moreover, of 
course, many of them will be wrong. The VA would have you believe that 
veterans will appeal, appeal, appeal for no reason. The truth is that 
the majority of those who are denied justice just go away, and suffer 
in silence. That makes the life at the RO easier, but the point here is 
justice for each veteran - no more, no less.
    General Omar Bradley had it right when he was head of the VA and 
said, ``We are here to solve the veterans' problems, not our own.''
    Now if we had precedent on those above 15 to 20 basically the same 
claims, then it can be automated, and we stop wasting resources on that 
which can be best done by machine, and concentrate that staff power on 
the 9 or 10 percent which do not fall into the above- referenced 
categories, and on really doing ``duty to assist'' so that veterans 
might secure the information they need to advance their claim.
    H.R. 5162 - The Vet Connect Act of 2016, introduced by Congressman 
Beto O'Rourke (TX-16), would authorize the Secretary of Veterans 
Affairs to disclose to non-VA health care providers certain medical 
records of veterans who receive health care from such providers.
    This is a no-brainer: obviously, what Rep. O'Rourke's bill calls 
for should be the case, as long as it conforms to HIPAA regulations. In 
addition, VVA supports swift enactment of H.R. 5162.
    H.R. 5392 - No Veterans Crisis Line Call Should Go Unanswered Act, 
introduced by Congressman David Young (IA-3), would direct the 
Secretary of Veterans Affairs to improve the Veterans Crisis Line.
    Inasmuch as the provisions of this bill are straightforward and 
entirely logical, it has the support of VVA.
    H.R. 5407 - Introduced by Congresswoman Corrine Brown (FL-5), this 
bill would direct the Secretary of Labor to prioritize the provision of 
services to homeless veterans with dependent children in carrying out 
homeless veterans reintegration programs.
    By now, it should come as no surprise to anyone that women veterans 
have become the fastest-growing segment of the homeless population. 
According to the Department of Defense, in 2010 more than 30,000 single 
mothers have deployed to Iraq and Afghanistan; and as of 2006, more 
than 40 percent of active duty women are in fact mothers. For any 
veteran, male or female, with dependent children, being identified as 
homeless creates a threat and fear that local youth protective services 
might assess their situation as dangerous and remove their children.
    Homeless women veterans also face substantial barriers to 
employment. In FY 2010, according to the VA, 77 percent of homeless 
female veterans were unemployed. One of the key factors for this larger 
percentage is likely the lack of accessible and affordable childcare. 
In fact, according to the recent FY 2010 CHALENG report, the VA and 
community providers ranked childcare as the highest unmet need of 
homeless veterans from FY'2008- 2010. Additionally, many of the skills 
that women veterans learn during their military service may not 
translate back to the civilian workforce or may be skills for a 
predominately-male field.
    VVA strongly supports enactment of H.R. 5407. We also request that 
funding for the program be continued through FY'2018.
    H.R. 5416 - Introduced by Congressman Doug Lamborn (CO-5), this 
bill would expand burial benefits for veterans who die while receiving 
hospital care or medical services under the Veterans Access, Choice, 
and Accountability Act of 2014.
    VVA endorses this legislation inasmuch as its purpose is both 
logical and obvious.
    H.R. 5420 - Introduced by Chairman Jeff Miller (FL-1), this bill 
would authorize the American Battle Monuments Commission to acquire, 
operate, and maintain the Lafayette Escadrille Memorial in Marne-la-
Coquette, France.
    Monuments and memorials to our men and women in uniform speak to 
their service and their sacrifices and, in many cases, to their last 
true measure of devotion. If the commission sees a need to take 
responsibility for this memorial, subject ``to the consent of the 
Government of France,'' VVA stands with the commission, and with the 
enactment of this bill.
    On behalf of VVA's members and our families, we thank you for the 
opportunity to speak to these issues to you today. In addition, we 
thank you as well for all that you do for our nation's veterans. I will 
be glad to answer any questions that you might care to pose to me.
                      VIETNAM VETERANS OF AMERICA
                           Funding Statement
                             June 23, 2016
    The national organization Vietnam Veterans of America (VVA) is a 
non-profit veterans' membership organization registered as a 501(c) 
(19) with the Internal Revenue Service. VVA is also appropriately 
registered with the Secretary of the Senate and the Clerk of the House 
of Representatives in compliance with the Lobbying Disclosure Act of 
1995.
    VVA is not currently in receipt of any federal grant or contract, 
other than the routine allocation of office space and associated 
resources in VA Regional Offices for outreach and direct services 
through its Veterans Benefits Program (Service Representatives). This 
is also true of the previous two fiscal years.
    For further information, contact:
    Executive Director for Policy and Government Affairs
    Vietnam Veterans of America
    (301) 585-4000, extension 127

                                 
                       Statements For The Record

                  AMERICAN BATTLE MONUMENTS COMMISSION
              WRITTEN STATEMENT OF MAX CLELAND, SECRETARY
    Mr. Chairman and Members of the Committee:

    Thank you for this opportunity to offer written testimony on behalf 
of H.R. 5420, which authorizes the American Battle Monuments Commission 
to acquire, operate and maintain the Lafayette Escadrille Memorial in 
Marne-la-Coquette, France, a suburb of Paris. We submitted this 
legislative proposal with the concurrence of the Administration, 
following review by the Department of Defense, the Department of 
Veterans Affairs, and other interested agencies.
    The Lafayette Squadron was created on 16 April 1916, one year prior 
to U.S. entry into World War I. Forty-two fliers composed the original 
Escadrille (thirty-eight Americans and four French officers in 
command). As the number of American volunteers grew, Americans flew for 
several French units known collectively as the Lafayette Flying Corps, 
in which 269 fliers served in total. Out of the 269 total American 
volunteers, 68 died in the air war over France. Some of the best known 
fliers were Kiffin Rockwell, Norman Prince, Raoul Lufbery and Eugene 
Jacques Bullard, the only African-American fighter pilot in World War 
I. When the United States entered the war in 1917, most of the 
Escadrille pilots joined the U.S. Air Service, teaching air combat 
tactics to those who followed them to France. The Lafayette Escadrille 
ceased to exist on February 18, 1918 and the U.S. 103rd Pursuit 
Squadron took on its symbols and traditions.
    The memorial to these air combat pioneers was constructed in the 
1926-28 period and inaugurated on July 4, 1928. The Lafayette 
Escadrille Memorial is a private memorial about five miles west of 
Paris. It honors these 269 American volunteers who flew for French and 
United States units during the Great War. But it is more than a 
memorial; it is a burial ground. A crypt beneath the memorial contains 
68 sarcophagi, one for each of the 68 Americans of the Lafayette 
Escadrille who died in the skies over France; 49 Americans and two 
French officers rest there in honor today. Seventeen sarcophagi have 
remained empty because either the remains could not be found or were 
transferred.
    ABMC has a history of involvement with the Lafayette Escadrille 
Memorial, approving the Foundation's construction plans in 1924, a 
predicate for any administrative agency of the U.S. Government, such as 
the State Department, to assist the founders. ABMC also managed the 
maintenance of the memorial for the Foundation from 1971 to 1983, using 
Foundation funds under the authority of our Monument Maintenance 
Program. The Foundation ended this arrangement in 1983 and over the 
years the original trust fund established to maintain the memorial 
dwindled and the memorial fell into a state of disrepair. As a World 
War I Centennial initiative, ABMC and the French Ministry of Defense 
partnered with the Foundation to complete a $1.7M restoration project, 
using funds provided by the Foundation, by private donors in the United 
States, and by the French government. The memorial was rededicated on a 
beautiful spring day in Paris, on the occasion of the Centennial 
Anniversary of the Escadrille's establishment on April 20, 1916. It 
again stands as a beautiful tribute to service and sacrifice, but the 
Foundation is no longer able to maintain the memorial to a standard 
commensurate to the American sacrifice it honors.
    It is time to bring the memorial and the pioneering airmen buried 
beneath it under the perpetual care of the U.S. Government. There are 
several compelling reasons to do so.

    1.The vision for the Lafayette Escadrille Memorial was to have the 
American pilots resting together in a memorial that allowed the spirit 
of their enlistment to live on. This spirit reflects the historical 
cooperation between the United States and France. Just as France came 
to the aid of the United States during our revolution, the United 
States came to France's aid in two world wars. The memorial has become 
an important part of the U.S. Ambassador's Memorial Day commemorations 
and in other ceremonies within the American community, such as the high 
school graduation of the American School of Paris.
    2.Since American participation in World War I began unofficially 
with volunteers in units such as the Lafayette Escadrille, the memorial 
could serve as a point-of-entry for ABMC's World War I interpretation 
efforts. Its location near Paris facilitates that purpose.
    3.The U.S. Air Force considers the Lafayette Escadrille to be an 
important part of its tactical origins. The Air Force ties it history 
to the American men who flew with that unit and later joined the U.S. 
Air Service. The American pilots of the Lafayette Escadrille were 
combat veterans, whose wartime experiences were extremely valuable to 
the newly-arrived American units and the development of combat tactics 
within the Air Service. The Marine Corps considers Belleau Wood, which 
is part of the Aisne-Marne American Cemetery, to be an important part 
of its heritage. The continued support of the Marine Corps and its 
active participation at Memorial Day ceremonies is a highlight for 
Aisne-Marne and ABMC. The Lafayette Escadrille Memorial will serve a 
similar purpose for the Air Force.
    4.Most importantly it's the right thing to do. The Foundation 
passed a resolution approving transfer to ABMC of full legal title to 
the memorial site, including the land, memorial, crypt and caretaker's 
cottage, by gift or in exchange for symbolic consideration. We have 
assurances that the French government is prepared to incorporate the 
Memorial into the bilateral treaty granting the U.S. perpetual use of 
French lands, at no cost or taxation, for the commemorative cemeteries 
and memorials that ABMC maintains in France. Representatives of the 
French Ministries of Defense and Interior sit on the LEM Foundation 
Board and voted to approve the Foundation resolution.

    With the concurrence of the Foundation and the Government of 
France, it is appropriate that ABMC, on behalf of the American people, 
assume responsibility for preserving and protecting in perpetuity this 
memorial tribute and final resting place for pioneering combat Airmen 
who gave their lives in one of the most pivotal wars of the twentieth 
century. ABMC will incur no costs to acquire or transfer the memorial. 
The Commission will operate and maintain the memorial within existing 
appropriations.
    Mr. Chairman, the American Battle Monuments Commission appreciates 
very much the Committee's support of our sacred mission. We believe it 
is time for the Lafayette Escadrille Memorial to become an important 
and significant addition to that mission, so that, in the words of 
General John J. Pershing, Commander of the World War I American 
Expeditionary Forces and our first Chairman, ``Time Will Not Dim the 
Glory of Their Deeds.''

                                 
                                 AMVETS
              AMY WEBB, AMVETS LEGISLATIVE POLICY ADVISOR
    Chairman Miller, Ranking Member Brown, and distinguished Members of 
the Committee,
    Since 1944, AMVETS (American Veterans) has been one of the largest 
congressionally-chartered veterans' service organizations in the United 
States and includes members from each branch of the military, including 
the National Guard, Reserves, and Merchant Marine. We provide support 
for the active military and all veterans in procuring their earned 
entitlements, and appreciate the opportunity to present our views on 
the twelve bills being considered today.
           H.R. 3216 - Veterans Emergency Treatment (VET) Act
    If enacted, the VET Act would ensure that, regardless of their 
service connection, veterans enrolled in the Department of Veterans 
Affairs (VA) health care system could request a medical examination or 
treatment at VA emergency departments to determine if a medical 
emergency existed. In the case of a medical emergency their condition 
would be stabilized and they would have the option to be transferred to 
another VA or non-VA medical facility.
    Veterans with a medical emergency could only be transferred to 
another facility if they were medically stabilized, unless the veteran 
makes a written transfer request after being made aware of the risks; 
or if a physician, or qualified medical professional if a physician is 
not present, certifies that the medical benefits of a transfer outweigh 
the risks to the veteran and, in the case of labor, to the unborn 
child.
    The receiving facility must have available space and qualified 
personnel to provide appropriate medical treatment to the veteran or 
unborn child, and agree to accept the veteran as a patient. The 
transferring facility would be required to send the receiving facility 
all medical records available related to the veteran's medical 
condition, and the transfer must be handled by qualified personnel and 
transportation equipment, including the use of life support if 
appropriate.
    If a VA employee refuses to authorize the transfer of an enrolled 
veteran with a non-stabilized emergency medical condition, or reports a 
violation this Act, the VA may not take adverse action against them. 
Additionally, no medical facility may delay medical care or treatment 
of an enrolled veteran in order to inquire about their insurance status 
or payment method.
    AMVETS supports this bill, which is in line with our founding 
principles of expediting and assisting the rehabilitation and care of 
veterans, including access to care. The VET Act would ensure that any 
enrolled veteran, including women veterans who may be in labor, receive 
the emergency medical treatment that they and their unborn child need. 
This is also in line with our National Resolution on women veterans' 
health care, which states in part that VA should continue to work to 
implement an equitable health care delivery model for women and ensure 
they have access to timely and appropriate health care.
 H.R. 4150 - Department of Veterans Affairs Emergency Medical Staffing 
                     Recruitment and Retention Act
    This measure would allow Department of Veterans Affairs (VA) 
physicians and physician assistants to modify their hours of full-time 
employment to be more or less than 80 hours in a biweekly pay period, 
as long as the employee works no more than 2,080 hours per calendar 
year.
    AMVETS supports this measure in the effort to assist VA in its 
improvement of recruitment, hiring, and retention policies to help 
ensure the timely delivery of high quality health care to all enrolled 
veterans.
H.R. 4764 - Puppies Assisting Wounded Servicemembers (PAWS) Act of 2016
    This bill directs the Department of Veterans Affairs (VA), through 
the Office of Patient Centered Care and Cultural Transformation, to 
carry out a five-year pilot program providing service dogs and 
veterinary health insurance to selected post-9/11 veterans who have 
been diagnosed with, and continue to suffer from, severe post-traumatic 
stress disorder (PTSD).
    The provision of a service dog would not replace established 
treatment modalities for PTSD, and veterans considered for selection 
would rank at levels three and four on the Clinician-Administered PTSD 
Scale for DSM-5 (CAPS-5). According to the scale, level three indicates 
a severe or markedly elevated problem 50 to 60 percent of the time, 
where it is difficult and at times overwhelming to manage symptoms. 
Level four indicates extreme or incapacitating symptoms, where PTSD is 
pervasive, unmanageable, and overwhelming.
    Eligible veterans must have completed an established evidence-based 
treatment for PTSD without suitable improvement and remain 
significantly symptomatic. Once selected for participation in the 
pilot, veterans must see a VA primary care physician or mental health 
care provider at least quarterly in order to continue receiving VA 
provided veterinary health insurance.
    VA would enter into contracts for obtaining and training service 
dogs with providers that are Assistance Dogs International (ADI) or 
comparably certified, that on average provide one-on-one training with 
each service dog for a minimum of 30 hours over at least 90 days. The 
organization would also provide an in-house residential facility where 
the veteran and service dog would stay for at least ten days in order 
to receive a minimum of 30 hours of training as a team. All service 
animals would be required to receive a wellness verification from a 
licensed veterinarian and pass the American Kennel Club Canine Good 
Citizen test prior to permanent placement with a veteran. The training 
organization would provide follow-up support services for the life of 
the service dog.
    The cost for the procurement and training of any canine would not 
exceed $27,000, which is within the industry standard for a well-
trained service dog.
    Within six months of the pilot program's completion, the United 
States Comptroller General would submit a report to Congress evaluating 
the effectiveness of the program in helping veterans with severe PTSD 
live more normally. Relevant metrics would include reduction in scores 
under the PTSD checklist (PCL); improvement in psychosocial function; 
therapeutic compliance; and reducing dependence on prescription 
narcotics and psychotropic medication. Recommendations with respect to 
the continuation or expansion of the program would also be included.
    While the VA does not compensate veterans for the care of service 
dogs that assist veterans with PTSD as they do for some physical 
conditions, they remain in the midst of a $12-million-dollar study to 
measure the cost and mental health benefits of pairing well-trained 
service dogs with veterans diagnosed with PTSD. The study also aims to 
compare service dogs and emotional support dogs in how they assist 
veterans with PTSD. Unfortunately, the study has been beset by many 
setbacks, including improper pairing of poorly trained dogs with 
veterans, and for being slow in acquiring and pairing dogs with 
veterans. After undergoing a pause and reorganization, the VA study 
picked back up in 2015 and is set to be complete in 2018.
    AMVETS sees the importance of well-trained and well-paired service 
dogs, and the impact this relationship has on individuals and veterans 
with physical and emotional illnesses or wounds. Service dogs are able 
to perform specific tasks to assist with the symptoms of PTSD such as 
learning commands to help secure space, turn on lights, sweep a room 
prior to a veteran entering and bark if anyone is present, to wake them 
up during a nightmare, remind them to take medication, and pick up on 
stress cues and offer calming support.
    The AMVETS Ladies Auxiliary has worked with ADI accredited ``Paws 
with a Cause'' as its National Community Service program for nearly 
thirty years in a consistent effort to help veterans with visible and 
invisible wounds obtain a service dog to enhance their daily 
functioning. Through this partnership, AMVETS has seen firsthand the 
marked benefits to a veteran's quality of life when paired with a well-
trained service dog.
    The intent of this bill is in line with our National Resolution on 
VA mental health care that strongly recommends Congress appropriate 
more dedicated funding for mental health care and related programs and 
services. While AMVETS supports passage of the PAWS Act, it is with the 
stipulation that great care, consult, and oversight occur when awarding 
a contract to an organization that trains the service dogs; in choosing 
veterans who are able to manage the continued care and training the dog 
will require; in closely following those who are part of the pilot 
program; and in setting expectations for how quickly the veteran can 
obtain a dog. Fully trained service dogs are quite rarely immediately 
available, but once paired with a receptive and willing owner, the 
benefits can be extraordinarily rewarding. AMVETS looks forward to 
providing any assistance needed to properly choose organizations that 
provide trained animals that can effectively support veterans with 
PTSD.
    H.R. 5047 - Protecting Veterans' Educational Choice Act of 2016
    This act instructs Department of Veterans Affairs (VA) educational 
and vocational counselors who provide services to eligible veterans to 
share information about the formal agreements or partnerships between 
two or more Colleges and Universities in which the veteran is 
interested, and the transfer policies for a specific academic program 
or degree.
    When the VA Secretary provides veterans a certification of 
eligibility for VA educational assistance, this bill would ensure that 
detailed information on such educational assistance, requesting 
education counseling services, and on articulation agreements is made 
available.
    In the interest of ensuring that all benefits available to veterans 
are fully explained, AMVETS supports passage of this legislation.
            H.R. 5083 - VA Appeals Modernization Act of 2016
    This Act seeks to, among other things:

    <bullet>  modernize and remedy a number of issues within the 
current Department of Veterans Affairs (VA) appeals processing system 
by creating three distinct `lanes' to address specific needs of 
veterans;
    <bullet>  improve Veterans Benefits Administration (VBA) decision 
notices; and
    <bullet>  provide effective date protection.

    Large numbers of VA disability appeal cases are sent back for 
review - sometimes multiple times - and these cases must be addressed 
before any new cases can be opened. This cumbersome process often leads 
to veterans waiting years for a final decision on their case.
    AMVETS supports this Act, which is in line with our National 
Resolution addressing the claims and appeals backlog which calls for 
improving the timeliness of all disability claims and appeals, and 
believes that remedies need to be put in place so the more than 440,000 
veterans currently in the appeals process are granted a swift solution. 
We look forward to assisting in its passage.
                  H.R. 5162 - Vet Connect Act of 2016
    This measure would allow the Department of Veterans Affairs (VA) to 
disclose certain medical records of veterans to non-VA entities which 
provide hospital care or medical treatment to veterans.
    In light of VA's consolidated community care plan that was devised 
to address VA's sharp increase in demand for care, AMVETS believes it 
is vital that non-VA providers treating veterans for a myriad of 
conditions have access to medical records in order to properly advise 
on treatment and provide suitable medical care. AMVETS supports passage 
of this bill.
 H.R. 5166 - Working to Integrate Networks Guaranteeing Member Access 
                           Now (WINGMAN) Act
    WINGMAN seeks to streamline the benefit claims procedure between 
the Department of Veterans Affairs (VA) and Congressional constituent 
advocates who process claims on behalf of veterans and their families.
    Under WINGMAN, an accredited, permanent Congressional employee 
would have access to electronic Veterans Benefits Administration (VBA) 
records in a read-only fashion in order to review the status of a 
pending claim, medical records, compensation and pension records, 
rating decisions, statement of the case, supplementary statement of the 
case, notice of disagreement, and Form-9 files. This eliminates the 
time-consuming step of using the VA as a middle-man to receive files 
the Congressional employee already has permission to possess.
    AMVETS supports this bill, which is in line with our National 
Resolution addressing the claims and appeals backlog which calls for 
improving the timeliness of all disability claims and appeals, and 
agrees that it is unacceptable for weeks or months pass before 
advocates are able to receive files they requested to help veterans.
   H.R. 5392 - No Veterans Crisis Line Call Should Go Unanswered Act
    This measure would direct the Secretary of Veterans Affairs to 
develop a Veterans Crisis Line (VCL) quality assurance document which 
would outline measurable performance indicators and objectives to 
improve its responsiveness and care of veterans in crisis, including 
all backup call centers. This Act would also outline quantifiable 
timeframes to meet objectives in tracking the progress of the quality 
assurance document, and be consistent with guidance issued by the 
Office of Management and Budget.
    The Secretary would be instructed to create a plan to ensure that 
every telephone call, text message, or other form of communication 
received by the VCL and its backup call centers is answered by a person 
in a timely manner consistent with the guidance established by the 
American Association of Suicidology. Periodic testing of the VCL and 
its backup centers would be conducted during each fiscal year to 
identify and quickly correct any issues or gaps in care.
    Within 180 days of enactment, the Secretary would submit a report 
to the House and Senate Committees on Veterans' Affairs containing the 
developed quality assurance document and plan.
    AMVETS supports this bill, and notes that the February 11, 2016 
Department of Veterans Affairs Office of Inspector General (OIG) 
healthcare inspection report 14-03540-123 which investigated the caller 
response of the Veterans Crisis Line made seven recommendations to the 
VHA Office of Mental Health Operations Executive Director. Among those 
recommendations were to ensure that issues regarding response hold 
times are addressed, that a formal quality assurance process be 
established, and to collect, analyze, track and trend data on an 
ongoing basis in order to address gaps or call issues in a timely 
manner.
    Once a veteran, or their loved one, reaches the point of asking for 
help, the system designed to assist them during a life threatening 
crisis must fully function and stand ready at all times to intervene. 
Not one call or text should be missed. AMVETS look forward to swift 
passage of this important legislation.
   H.R. 5407 - To amend title 38, United States Code, to direct the 
Secretary of Labor to prioritize the provision of services to homeless 
  veterans with dependent children in carrying out homeless veterans 
            reintegration programs, and for other purposes.
    This bill would direct the Secretary of Labor to prioritize the 
provision of services to homeless veterans with dependent children in 
carrying out homeless veterans' reintegration programs. The bill would 
also require additional reporting to include an evaluation of services, 
inclusion of an analysis of any gaps in access to shelter, safety, and 
services for homeless veterans with dependent children, and 
recommendations for improving any gaps.
    The Homeless Veterans' Reintegration Program (HVRP) provides 
services to assist reintegrating homeless veterans into meaningful 
employment. Services include job placement, training, career 
counseling, and resume preparation. Supportive services such as 
clothing, provision of or referral to temporary, transitional, and 
permanent housing, referral to medical and substance abuse treatment, 
and transportation assistance are also provided to meet the needs of 
these veterans.
    AMVETS supports this measure based on our National Resolution 
addressing ending veteran homelessness. We remain a strong partner in 
this goal and recognize that homeless veterans, or veterans at-risk of 
becoming homeless, many times present with dependent children as they 
seek assistance. Current provisions often do not meet their needs and 
we support remedies to address this deficiency.
  H.R. 5416 - To amend title 38, United States Code, to expand burial 
benefits for veterans who die while receiving hospital care or medical 
    services under the Veterans Choice Program of the Department of 
               Veterans Affairs, and for other purposes.
    This measure would expand Department of Veterans Affairs (VA) 
burial benefits for veterans who die while receiving hospital care or 
medical services to include those receiving care under VA's Veterans 
Choice Program.
    As the Department of Veterans Affairs (VA) moves forward with its 
plan to consolidate community care, VA continues to examine how the 
Veterans Choice Program interacts with other VA health programs, 
including the delivery of direct care. Based on our National Resolution 
addressing burial benefits, AMVETS support passage of this bill and the 
intent to update title 38 to reflect that veterans may be receiving VA 
health care in a non-VA facility at the time of their passing and 
should receive a burial benefit.
 H.R. 5420 - To authorize the American Battle Monuments Commission to 
  acquire, operate, and maintain the Lafayette Escadrille Memorial in 
                       Marne-la-Coquette, France.
    This bill would authorize the American Battle Monuments Commission 
to acquire, operate, and maintain the Lafayette Escadrille Memorial in 
Marne-la-Coquette, France.
    The Commission would carry out its duties pursuant to an agreement 
with the Lafayette Escadrille Memorial Foundation and would be subject 
to the consent of the Government of France. Additionally, the 
Commission could only employ the personnel needed to carry out this 
Act.
    AMVETS has no position on this bill.
               H.R. 5428 - Military Residency Choice Act
    This Act would amend the Servicemembers Civil Relief Act by adding 
that the spouse of a servicemember may elect to use the same residence 
as the servicemember for purposes of taxation regardless of the date of 
the date of their marriage. This would apply to any state or local 
income tax filed for the taxable year beginning with the year that 
includes the date of enactment.
    The Servicemembers Civil Relief Act would be further amended by 
adding that a person who is absent from a state because they are 
accompanying their spouse in compliance with military or naval orders 
shall not, solely by reason of that absence, lose residence in that 
state without regard to whether or not they intend to return; or have 
it assumed that they have acquired residence in another state. The 
spouse of a servicemember may elect to use the same residence as the 
servicemember regardless of the date of their marriage for purposes of 
voting.
    AMVETS is not opposed to the passage of this Act and supports the 
intention of lessening confusion regarding residency relevant to state 
and local taxation and voting issues for the spouses of servicemembers.
    Mr. Chairman and members of the Committee, this concludes my 
testimony and would be happy to answer any questions the Committee may 
have.

                                 
                  COURT OF APPEALS FOR VETERANS CLAIMS
              THE HONORABLE LAWRENCE B. HAGEL, CHIEF JUDGE
    MR. CHAIRMAN AND DISTINGUISHED MEMBERS OF THE COMMITTEE:

    Thank you for the invitation to submit a statement of the Court's 
views on legislation pending before the Committee, in particular H.R. 
5083 (the VA Appeals Modernization Act). The Court's comments will be 
brief.
    Although changes to VA's appeals processing will eventually impact 
the Court, the pending legislation does not amend the statutory 
provisions governing the Court's function. For this reason, the Court 
will not speculate as to consequences of changes that pertain only to 
the agency or comment on provisions that may ultimately come before the 
Court in a case. We do, however, offer the following thoughts on the 
implementation plans for broad changes to the VA claims processing 
system, and on the need to ensure that claimants are aware of their 
right to appeal to a court of law and that the exercise of that right 
is not disincentivized.
    Implementation: H.R. 5083 does not address how the proposed 
legislative changes would be implemented. It is, however, the manner in 
which the pending legislation is implemented that will have the most 
profound immediate effect on the Court because appeals to the Court 
generally stem from those claims that have already received agency 
appellate review. In testimony last month to the Senate Committee on 
Veterans' Affairs, VA Deputy Secretary Gibson said that VA anticipated 
prospective application, meaning that any statutory changes would apply 
only to new claims filed with VA after the date of enactment. In recent 
testimony before this Committee, Secretary Gibson said that VA is 
working with various stakeholders and discussing different 
implementation ideas that may envelop pending appeals into the proposed 
system. Any implementation plan for sweeping legislative change to the 
VA claims processing system will certainly have its challenges, and we 
offer no comment on what those may be. We are, however, attempting to 
anticipate the impact on the Court and best estimate and prepare for 
the workload that may result from these changes should they become law.
    Generally speaking, appeals filed at the Court come from veterans 
who are dissatisfied with a decision of the Board of Veterans' Appeals 
(Board). VA Deputy Secretary Gibson recently testified that more than 
450,000 appeals are pending before VA. The Board decided more than 
55,000 decisions in fiscal year 2015, and has pledged to further 
increase its number of annual decisions. For fiscal year 2017 VA 
requested additional funding to increase staffing to further grow the 
number of decisions the Board renders annually. Faced with this data, 
the Court projects a steadyBif not increasedBnumber of appeals over the 
next several years resulting in the continued need for nine judges.
    The Court has a permanent authorization for seven judges, but 
effective in 2009, received temporary authorization to expand to nine 
judges. We reached that full complement in December 2012 and were 
fortunate to operate with nine judges for almost three years until the 
retirement of one of our colleagues ten months ago, reducing the 
active-judge count to eight. With nine-judge staffing the Court was 
able to conduct effective, efficient, and expeditious judicial review, 
and your support in providing the resources to handle our heavy 
caseload is very much appreciated. Under current law, the Court will be 
authorized to continue to operate with eight judges until the next 
retirement. At that time, the authorized number of active judges 
reverts to seven. The reality, however, is that two judges' terms 
expire within days of each other in December 2016. At that time, the 
Court will be reduced to six active judges. Faced with the strong 
likelihood that VA will maintain, if not increase, the number of 
decisions the Board renders this coming year and for the next several 
years, the Court maintains that the need for nine full-time judges 
continues to exist. Thus, we ask for the Committee's support in 
renewing the authorization of nine judges on the Court.
    Advisement and Exercise of Appellate Rights: In reviewing H.R. 5083 
the Court is also mindful of ensuring that veterans and their families 
remain aware of their right to judicial review and have a fair 
opportunity to exercise that right. Under current law, the system for 
filing and pursuing a claim for VA benefits is somewhat linear, in the 
sense that there is basically one path for pursuing a claim from a VA 
regional office, to the Board of Veterans' Appeals, to the Court. At 
the current time, accompanying each Board decision is a standard notice 
of appellate rights, informing claimants of their options, to include 
the right to appeal to the Court should they not be satisfied with the 
benefits accorded to them by VA. Under the proposed legislation, 
following an agency denial a veteran would have the opportunity to 
repeatedly pursue a claim within the first-level agency review, and 
indeed there may be incentive for veterans to do so because that path 
would preserve the earliest effective date possible for any grant of 
benefits. That structure could potentially result in a veteran never 
securing a Board decision that could be appealed to the Court, never 
being informed of the Court's existence, and never receiving appellate 
rights and the opportunity to exercise such rights. The Court states no 
opinion on whether or not the proposed changes are ``good for'' 
individual veterans or the overall system. We do, however, want to 
ensure that veterans remain aware of the full array of options 
available to them in pursuing a claim and that no option be 
disincentivized. Thus, we believe that it is critical that any changes 
to the process not unintentionally obfuscate veterans' understanding of 
their right to judicial review. Many people fought long and hard to 
secure impartial review of adverse VA decisions by a federal court that 
by definition is independent of VA. It is our firm belief that veterans 
and their survivors must continue to know about and understand that 
right, and they must have fair access to the Court, as well as the 
ability and means by which to pursue that judicial review.
    In closing, on behalf of the Court, I express my appreciation for 
your past and continued support and for the opportunity to provide this 
statement. Thank you.

                                 
                                  IAVA
                       Summary of IAVA Testimony
    IAVA is optimistic that the VA Appeals Modernization Act (H.R. 
5083) could greatly improve the appeals process and provide veterans 
with options at both VBA and BVA. It would enable veterans to choose 
the most appropriate venue based on their individual circumstances. 
However, VBA and BVA must first address the 440,000 appeals now pending 
for any new appeals system to be successful. Oversight by Congress will 
be necessary to ensure these legacy appeals are properly resolved. To 
reach comprehensive appeals reform H.R. 5083 is the perfect place to 
start.
    IAVA supports the goals of the Puppies Assisting Wounded 
Servicemembers (PAWS) Act (H.R. 4764) and sees it as a good first step. 
We encourage VA and HVAC to work toward establishing a pilot program 
that will lead to a lasting VA effort to accommodate and expand the 
treatment options involving service dogs. To improve the bill, IAVA 
recommends allowing veterans to receive the service dog as 
complementary therapy rather than requiring them to go through therapy 
first, and requiring veterans to go through a more rigorous mental 
health treatment plan. The standard in the bill for organizations 
providing the service dogs is too broad and we recommend defining a 
gold standard that these dogs must meet. Also, IAVA would like to know 
how funding H.R. 4764 with $10 million from the VA's Office of Human 
Resources would impact agency personnel operations. Due to widespread 
appeal and benefit to veterans, the VA should invest in further 
research and outreach to clarify and expand the use of service dogs.
    IAVA supports the Protecting Veterans' Educational Choice Act (H.R. 
5047). There has been concern that some schools are misrepresenting 
articulation agreements and leaving veterans with unusable credits and 
wasted GI Bill benefits and it is important that the VA educational 
counseling services provide information that can best inform veterans 
of the long term implications and credit transferability of certain 
programs. Ensuring bad actors are identified and veterans are informed 
about the school will strengthen the GI Bill's ability to invest in the 
success of veterans.
    IAVA supports the Lafayette Escadrille Memorial in Marne-la-
Coquette, France (H.R. 5420). The memorial comes after the passing of 
all American veterans of WWI, and this should also be a lesson in not 
waiting too long to provide a place for veterans and their families to 
honor and reflect on their service. An overwhelming 82 percent of IAVA 
members support the creation of a memorial to the service and 
sacrifices of post-9/11 veterans on the National Mall and are ready to 
galvanize all Americans in support.
    While IAVA applauds the intent of the No Veterans Crisis Line 
Should Go Unanswered Act (H.R. 5392), we need to better understand 
existing quality control standards at the VA's crisis call centers and 
how such standards are enforced and monitored before requiring 
potentially conflicting or duplicative quality control standards. More 
concerning is the decision to move the Veterans Crisis Line from under 
the directorship of the VA Suicide Prevention Office to VA Member 
Services. This move was made at the start of the year and since then, 
we have had no indication as to the impact of this reorganization. 
While Member Services overseas all of the call centers at VA, the VCL 
is the only call center with a clinical component and removing clinical 
oversight may have dire consequences. While there is no question that 
the operational component of the VCL needs improvement, IAVA is 
concerned that the VA has overcorrected in this management shift. We 
ask Congress to query this matter further and urge the VA to consider 
shifting management back to the Suicide Prevention Office with 
consultation on operations from Member Services or some other 
appropriate entity.

                                  IAVA
       by Elizabeth Welke, J.D, Director (acting), Political and 
                       Intergovernmental Affairs
    Chairman Miller, Ranking Member Brown and Members of the Committee, 
on behalf of Iraq and Afghanistan Veterans of America (IAVA) and our 
more than 425,000 members, thank you for the opportunity to share our 
views on pending legislation, including the ``VA Appeals Modernization 
Act'' (H.R. 5083), the Puppies Assisting Wounded Servicemembers (PAWS) 
Act'' (H.R. 4764), and the Protecting Veterans' Educational Choice Act 
(H.R. 5047), Authorizing the Lafayette Escadrille Memorial in Marne-la-
Coquette, France (H.R. 5420), and the No Veterans Crisis Line Call 
Should Go Unanswered Act (H.R. 5392)

VA Appeals Modernization Act of 2016 (H.R. 5083)

    Over the past few months, IAVA has worked collaboratively and 
intensely with the Board of Veterans Appeals (BVA), the Veterans 
Benefit Administration (VBA) and other key stakeholders in order to 
develop a new appeals process framework. The ideal process would 
provide quicker, more accurate decisions for veterans and family 
members seeking benefits based on their military service, and provide 
more options to resolve appeals quickly, while fully protecting 
veterans' rights in the claims and appeals process.
    IAVA is optimistic that the VA Appeals Modernization Act of 2016 
(H.R. 5083) could greatly improve the appeals process and provide 
veterans with a number of options at both VBA and BVA. It would enable 
veterans to choose the most appropriate venue based on their individual 
circumstances. However, one critical issue must be fully addressed to 
make this new system successful is that the VBA and BVA must address 
the 440,000 current appeals that are pending. Pending appeals must be 
resolved for any new appeals system to be successful.
    Oversight by Congress will be necessary to ensure these legacy 
appeals are properly handled and resolved. IAVA applauds theVA, partner 
VSOs and this Committee for pushing forward an attempt to modernize an 
appeals system that has become laden by bureaucracy and is not at all 
beneficial to veterans. By continuing to collaborate, it is possible to 
reach comprehensive appeals reform this year, and H.R. 5083 is the 
perfect place to start.

Puppies Assisting Wounded Servicemembers (PAWS) Act of 2016 (H.R. 4764)

    The demand for service dogs, trained to assist disabled veterans 
with daily tasks, is on the rise as veterans are seeking a more 
comprehensive approach to care. In IAVA's Member Survey, nearly 20 
percent of respondents indicated they are using animal-assisted 
therapies, which includes, but is not limited to, service dogs as part 
of their care regimen. IAVA members continue to rely on service dogs 
and find them to be an essential part of their recovery. The VA 
currently has a research program underway to further examine the 
potential benefits of psychological service dogs for veterans which was 
mandated by Congress in 2010. However, the research has been plagued by 
delays, and the new estimated completion date is some time in 2018. 
While IAVA is a huge proponent of research, we also recognize the need 
for more immediate action.
    IAVA applauds former U.S. Marine Corps Corporal and Afghanistan 
veteran Cole Lyle, a major proponent of the PAWS Act, for his efforts 
to underscore this problem and the importance of finding a solution. 
With his service dog Kaya, who helps him overcome the struggles of 
PTSD, Lyle has been tirelessly walking the halls of Congress to make 
the case for expanding the available treatment options for post-9/11 
veterans carrying the invisible burden of post-traumatic stress.
    We would like to also thank Congressman DeSantis and his staff for 
their energy and dedication to improving the lives of veterans like 
Cole Lyle through legislation proposing a five-year pilot program under 
which the VA shall provide service dogs and veterinary health insurance 
to post-9/11 veterans with PTSD.
    IAVA strongly supports the goals of this legislation and see it as 
a good first step. We encourage the VA and this Committee to work with 
Mr. Lyle and Congressman DeSantis toward establishing a workable pilot 
program that will lead to a lasting VA effort to accommodate and expand 
the treatment options involving service dogs.
    However, IAVA is concerned by the provision included in this 
legislation that limits providing service dogs only to veterans who 
have gone through therapy and with no improvement. If the funding is 
available, IAVA would prefer that qualified veterans receive the 
service dog as complementary therapy. We also feel the program would be 
more beneficial if the participating veterans were required to go 
through a more rigorous mental health treatment plan that would 
incorporate evidence-based treatments with a qualified provider. This 
would allow the pilot to better determine the role of the service dog 
in assisting recovery, a question yet unanswered by research and that 
is extremely important to understanding the contribution of service 
dogs in the context of a larger treatment program.
    We commend this legislation for setting a standard for 
organizations providing service dogs, despite our concerns the 
standards have been set too broad. IAVA recognizes a need for a 
rigorous standard for service dogs as there are a number of service dog 
organizations advertising their services to the military and veteran 
communities. Some of these organizations do a fantastic job of training 
high quality assistance animals, but others do not. Anecdotally, we 
have heard from veterans their experiences receiving less than 
qualified dogs and the negative impact it had on their family and their 
health. We encourage Congress and the Obama Administration, working 
with experts in the mental health and service dog communities, to 
better define a gold standard these dogs must meet and consider a 
certification process that can remove some of the uncertainty.
    IAVA is also concerned about the impacts of funding the measure 
with $10 million from the VA's Office of Human Resources and 
Administration. With the enormous personnel challenges the VA currently 
faces, we would like to know from the VA exactly how personnel 
operations would be impacted with this proposed readjustment. As this 
is the second iteration of a funding source for the bill, any final 
provision must not subtract funds from existing earned critical 
veterans services or benefits, like the Post-9/11 GI Bill.
    As this bill to improve service dog legislation moves forward IAVA 
would like to know from the VA how many veterans under agency care with 
PTSD rated at a severity level of three or four would be eligible to 
benefit under this bill, and how the agency is evaluating the 
difference between service and emotional support dogs.
    Due to their widespread appeal and apparent benefit to veterans, 
the VA should invest in further research and outreach to clarify and 
expand the use of service dogs.

Protecting Veterans' Educational Choice Act (H.R. 5047)

    Over one million veterans have gone to school under the Post-9/11 
GI Bill. As a critical readjustment benefit, the Post-9/11 GI Bill not 
only helps veterans transition back home, but invests in veterans who 
go on to build and strengthen the US economy. Though a widely 
successful benefit, the Post-9/11 GI Bill has been exploited by some 
schools to prey on veterans while providing a subpar education with 
credits that cannot be transferred to other schools.
    This proposed legislation would require education counseling to 
include information about articulation agreements, which would aim to 
help better educate veterans about the realities of transferring 
credits from one program to another. Articulation agreements are 
agreements between institutions that identify which credits from one 
specific program can be transferred to another institution.
    We have heard that some schools are misrepresenting articulation 
agreements and leaving veterans with unusable credits and wasted GI 
Bill benefits. With the wealth of advertising directed towards veterans 
and school options available to student veterans, it is important that 
the VA educational counseling services provide information that will 
best inform veterans of the long term implications and credit 
transferability of certain programs. Requiring educational counseling 
to include articulation agreement information for schools being 
considered by a student veteran will aid in informed decision making by 
veterans looking to use their GI Bill benefits.
    Defending the Post-9/11 GI Bill is a top priority for IAVA and its 
members, and because of this, IAVA supports the Protecting Veterans' 
Educational Choice Act. In addition to defending the GI Bill from cuts 
to this earned benefit, it is also important to defend it from fraud 
and abuse. Ensuring bad actors are identified and veterans are informed 
about the realities of the school will only strengthen the GI Bill's 
ability to advance the success of veterans.

Authorizing the Lafayette Escadrille Memorial in Marne-la-Coquette, 
    France (H.R. 5420)

    As we approach the centennial of America's involvement in World War 
I (WWI), it is important for us as a nation to honor the sacrifices of 
the men and women sent to Europe for the ``Great War''. With over 
100,000 Americans killed and over 200,000 wounded, the impact of WWI 
should be honored and memorialized. This memorial in particular will 
honor a truly courageous group of Americans who were willing to support 
the French effort in WWI as pilots prior to the U.S. entering the war.
    IAVA honors the service and sacrifice of the veterans who came 
before us, and therefore supports H.R. 5420. The formal recognition of 
this memorial comes after the passing of all American veterans of WWI, 
but with this memorial, we can continue to honor their memory.
    This should also be a lesson in not waiting too long to provide a 
place for veterans and their families to honor and reflect on the 
service of our nation's veterans.
    Only 22 percent of IAVA members who responded to our Member Survey 
felt that the American public understands the sacrifice of Iraq and 
Afghanistan veterans and their families. This number is far too low, 
and this perception must change. Service members and veterans need to 
feel supported by the American public, and it's up to the American 
public to deliver on this.
    More than 6,000 service members have given their lives for this 
country in Iraq and Afghanistan. The nation must first honor these men 
and women by supporting their families who are left behind. 
Furthermore, the time has come for our nation to honor the sacrifice of 
our fallen post-9/11 troops with a memorial on the National Mall. A 
monument will give families and veterans a place to gather and mourn, 
giving the nation an enduring reminder of the heroism of our military 
and the sacrifices made.
    The new generation of veterans shouldn't wait years to see a 
memorial in their honor, as those who served in Vietnam and World War 
II were forced to do. An overwhelming 82 percent of IAVA members 
support the creation of a memorial and are ready to galvanize all 
Americans in support.

No Veterans Crisis Line Call Should Go Unanswered Act (H.R. 5392)

    While IAVA applauds the intent of the No Veterans Crisis Line 
Should Go Unanswered Act, and strongly agrees no crisis call should go 
unanswered, we would like suggest the need to better understand 
existing quality control standards at the VA's crisis call centers as 
they currently stand. We would also like to understand how such 
standards are enforced and monitored before introducing potentially 
conflicting or duplicative quality control standards.
    Since there are existing quality standards already in place for VA 
crisis line call centers, we believe there should be questions answered 
before layering additional requirements on the VA. Are these standards 
being enforced? Are they being met? Do these standards apply to 
contracted call centers, as well? Are the existing standards strict 
enough to ensure no veteran's call goes unanswered?
    There is no question that more work is needed to ensure access to 
quality mental health care and suicide prevention measures at the VA 
and within local communities, but we must try to prevent conflicting 
and duplicative requirements, when possible, to prevent further 
confusion and bureaucratic red tape slowing down access to care.
    More concerning is the decision to move the Veterans Crisis Line 
from under the directorship of the VA Suicide Prevention Office to VA 
Member Services. Since this change was made at the start of 2016, we 
have seen no indication of the impact of this reorganization. Our 
concern is that, while Member Services oversees all of the call centers 
at VA, the VCL is the only call center with a clinical component and we 
worry that removing clinical oversight will have dire consequences. 
While there is no question that the operational component of the VCL 
needs improvement, IAVA is concerned that the VA has overcorrected in 
this management shift. We ask Congress to investigate this matter 
further, and urge the VA to consider shifting management back to the 
Suicide Prevention Office with consultation on operations from Member 
Services or another appropriate entity.
    In closing, IAVA would again like to thank this Committee for its 
leadership and continued commitment to our veterans. We reaffirm our 
commitment to working with Congress, VA and our VSO partners to ensure 
veterans have access to the highest quality care available and that our 
country fulfills its sacred obligation to care for those who have borne 
the battle.
            Statement on Receipt of Grants or Contract Funds
    Neither Ms. Welke, nor the organization she represents, Iraq and 
Afghanistan Veterans of America, have received federal grant or 
contract funds relevant to the subject matter of this testimony during 
the current or past two fiscal years.

                                 
                                  MOAA
    CHAIRMAN MILLER, RANKING MEMBER BROWN, and Members of the 
Committee, the Military Officers Association of America (MOAA) is 
pleased to present its views on veterans' health care and benefits 
legislation under consideration by the Committee today, June 23, 2016.
    MOAA does not receive any grants or contracts from the federal 
government.
                           EXECUTIVE SUMMARY
    On behalf of our 390,000 members, MOAA thanks the Committee for its 
steadfast commitment to the health and well-being of our 
servicemembers, veterans and their families, and for considering the 
very important provisions in this legislation related to the Department 
of Veterans Affairs (VA) health care and benefits programs.
    MOAA is grateful for the broad range of legislation offered today 
and greatly appreciate the hard work and efforts of this Committee to 
reform and modernize VA systems to meet essential needs.
    The following provides MOAA's position and recommendations on the 
following bills:

    <bullet>  H.R. 3216, Veterans Emergency Treatment Act
    <bullet>  H.R. 4150, VA Emergency Medical Staffing Recruitment and 
Retention Act
    <bullet>  H.R. 4764, Puppies Assisting Wounded Servicemembers 
(PAWS) Act of 2016
    <bullet>  H.R. 5162, Vet Connect Act of 2016
    <bullet>  H.R. 5392, No Veterans Crisis Line Call Should Go 
Unanswered Act
    <bullet>  H.R. 5083, VA Appeals Modernization Act of 2016
    <bullet>  H.R. 5047, Protecting Veterans' Educational Choice Act of 
2016

                          PENDING LEGISLATION
    H.R. 3216, Veterans Emergency Treatment Act. The bill would clarify 
emergency care services furnished by the VA Health Administration (VHA) 
to include examination and treatment for emergency medical conditions, 
including female veterans in labor.
    MOAA supports the intent of the measure to improve emergency care 
and services so veterans can more readily access this essential care 
when and where needed, whether in a VA or non-VA medical facility.
    Emergency care policies and processes continue to be a great source 
of frustration to not only VA employees administering the program, but 
also to veterans who, more often than not, get stuck with medical bills 
because of policy ambiguity or because they do not meet eligibility 
requirements. MOAA is pleased to see clarifying language in the bill 
further defining the term `emergency medical condition,' as well as 
additional safeguards to ensure immediate care and priority is given 
when the health of the veteran or unborn child is in serious jeopardy.
    While such clarifying language is helpful and will improve 
veterans' access to emergency care services on the front end, the bill 
does not address the necessary back end or administrative barriers 
currently plaguing the system. MOAA also urges the Committee to require 
VA to establish uniform policies and procedures for simplifying and 
determining access, eligibility, and payment for emergency medical care 
and services which are transparent and simple for VA employees, 
veterans and their families, and non-VA providers to understand.
    H.R. 4150, Department of Veterans Affairs Emergency Medical 
Staffing Recruitment and Retention Act. This measure seeks to allow the 
Secretary to modify the hours of employment of physicians and physician 
assistants employed on a full-time basis in VHA. As such, the Secretary 
of VA may require a physician or physician assistant to work more than 
or less than 80 hours in a biweekly pay period as long as the total 
hours of employment do not exceed 2,080 in a calendar year.
    MOAA is pleased to support H.R. 4150 and thanks Representative Raul 
Ruiz (D-CA) for sponsoring the bill. Flexibility in managing this 
segment of the medical workforce has been a top priority for the 
Secretary and a central element of his MyVA plan to improve access to 
health care. We urge immediate passage of this critical piece of 
legislation.
    H.R. 4764, Puppies Assisting Wounded Servicemembers (PAWS) Act of 
2016. VA research on Iraq and Afghanistan veterans indicates somewhere 
between 10% and 18% of deployed troops are likely to have PTSD once 
they return home. These veterans are also at risk for developing other 
mental health problems.
    The PAWS Act would direct the VA to carry out a pilot program to 
provide service dogs to veterans diagnosed with severe post-traumatic 
stress disorder (PTSD).
    Clinically there is not sufficient research to determine if dogs 
help in treating veterans with PTSD, though VA uses guide and service 
dogs through their rehabilitation and prosthetic services program.
    MOAA supports the intent of the bill but recommends funding for the 
pilot not be offset with appropriated funds from the VA's Office of 
Human Resources and Administration, as currently specified in the bill. 
Rather, we would recommend the pilot be incorporated within existing 
medical programs using dogs to establish evidence-based therapies which 
are supported by research, and adequately funded and resourced to 
support such medical studies.
    H.R. 5162, Vet Connect Act of 2016. This bill would give VA the 
authority to provide medical record information of veterans to non-VA 
providers in certain instances.
    MOAA recommends passage of the bill. Such authority is an important 
step in further integrating VA and non-VA health systems to achieve 
better patient health outcomes. VA requires non-VA providers to submit 
medical information on care provided to veterans through VHA's Care in 
the Community Programs. The same requirement should apply to VA so 
community providers have the necessary information to effectively and 
safely treat the veterans they serve.
    H.R. 5392, No Veterans Crisis Line Call Should Go Unanswered Act. 
MOAA strongly supports this legislation which would improve the 
Veterans Crisis Line by establishing quality assurance requirements to 
measure system performance.
    The VA Office of the Inspector General (IG) initiated an 
investigation into the Veterans Crisis Line in 2015 after receiving 
complaints from callers that they were placed on hold, didn't receive 
immediate help, or their calls went to voicemail. The investigation 
revealed a significant number of staffing, telephone and technology 
system problems. VA has indicated all IG recommendations to fix 
existing problems will be implemented by September 30, 2016.
    This legislation codifies many of the IG recommendations, such as: 
establishing a quality assurance process and back up call centers; 
delineating clearly defined measurable performance indicators and 
objectives; and establishing quantifiable timelines for meeting 
designated objectives.
    H.R. 5083, VA Appeals Modernization Act of 2016. MOAA's position on 
this bill remains the same as noted in our Statement for the Record for 
a House Committee on Veterans' Affairs Hearing on May 24, 2016.

    In summary:

    ``MOAA agrees the current number of appeals pending a decision by 
VA is wholly unacceptable for veterans and thanks Representative Dina 
Titus (D-NV) for her leadership in this area.

    ``MOAA does not support the changes to 38 USC 5103A(d) that would 
severely limit VA's duty to assist, but recommends approval of the 
changes that would still improve the veteran experience and reduce the 
number of appeals - namely, the changes to 38 USC 5103A(e) regarding 
notices of decisions and the addition of 38 USC 5104A to make favorable 
factual findings binding upon VA. Additionally, MOAA encourages 
Congress to add a provision to allow veterans with existing appeals to 
opt into the new claims system.''

    H.R. 5047, Protecting Veterans' Educational Choice Act of 2016. 
MOAA supports this legislation. This bill is a sensible measure 
ensuring veterans are fully informed prior to making educational 
choices. Articulation agreements contain important information about 
which institutions students will be able to transfer educational 
credits to.
    A recent review of settlements reached between educational 
institutions and state atttorneys general revealed that almost 25% of 
them included false or misleading statements about credit transfers.
    MOAA notes that educational institutions participating in military 
Tuition Assistance Programs are already required to provide this 
information to potential students. This information should also be 
provided to veterans, which this bill accomplishes. It is a low-cost 
(and potentially no-cost) method of assisting veterans in making the 
best possible decisions for their futures.
    MOAA thanks the Committee for considering this important 
legislation on behalf of our veterans and their families.

                                 
                    Military-Veterans Advocacy, Inc.
    June 28,2016

Honorable Jeff Miller, Chairman
House Committee on Veterans' Affairs
336 Cannon House Office Building
1Washington, D.C. 20515

Re:Hearing on VA Appellate ``reform'' proposals

Dear Mr. Chairman:

    Thank you for your inquiry of June 23, 2016. We appreciate the 
opportunity to provide this response.

    Question 1: Can reform - be it appeals reform or any reform - be 
successful without accountability?

    Response: Accountability is the key to any reform. For this reason, 
Military-Veterans Advocacy (MVA) proposed that the Committee adopt 
concrete provisions to ensure that the Board members at the Board of 
Veterans Appeals be reviewed for possible disciplinary action in the 
event that their controllable remand rate is excessive. To ensure 
quality, MVA further strongly recommends that the Board members be 
qualified as Administrative Law Judges. The discovery provisions 
recommended by MVA will also ensure accountability by providing the 
veteran's advocate essential information to formulate a coherent record 
which can be used on appeal. MVA contends that the proposed HR 5083 
will actually reduce accountability.
    Limitations to the duty to assist and the premature requirement 
that the veteran include a request for hearing at the notice of 
disagreement stage will provide the VA an opportunity to ``steam roll'' 
the veteran with little opportunity for redress.

    Question 2: If H.R. 5083 advances as drafted, would your 
organization support or oppose

    Response: MVA would use our significant social networking 
apparatus, e-mail and telephone networks, press releases and media 
appearances to vigorously oppose HR 5083 as written. This opposition 
would become one of our organization's highest priorities and MVA would 
also conduct office visits with Members of Congress or their staffs to 
share our position.

    Thank you again for the opportunity to respond.
Sincerely,
John B. Wells
Commander USN (Retired)


                                 
                                  NOVA
                           Executive Summary
    In response to VA's 2017 budget proposal, the National Organization 
of Veterans' Advocates, Inc. (NOVA) has participated in ongoing 
discussions with VA officials and stakeholders to consider ways to 
reform the appeals process. VA has put forth a legislative proposal 
intended to improve a process that currently has over 455,000 pending 
appeals and thousands of claimants waiting for a hearing. While NOVA 
supports certain features of the proposal, there are features that need 
additional scrutiny and revision.
    Specifically, NOVA endorses statutorily-mandated notice provisions, 
extension of effective date relief after a final Board of Veterans' 
Appeals (BVA) decision, elimination of redundant procedural steps, use 
of binding favorable findings, and allowing veterans the choice to 
retain an attorney after an adverse rating decision.
    To maintain the veteran-friendly system contemplated by Congress, 
however, additional revisions are needed. NOVA proposes specific ideas 
and language within to address the following concerns:

    (1)VA's proposal unfairly limits effective date relief after 
judicial review as well as the veteran's ability to submit a 
supplemental claim while a case is pending before the United States 
Court of Appeals for Veterans Claims.
    (2)Proper docket management is essential to ensure veterans receive 
equal treatment.
    (3)Veterans with pending appeals must not be denied a fair 
resolution.
    (4)Section 7105 unnecessarily burdens veterans with restrictive 
language.
    (5)The veteran should have the ability to submit evidence until BVA 
issues a decision.
    (6)The ``new and relevant'' standard merely replaces ``relevant'' 
for ``material'' and does not reduce the adjudication burden on VA.
    (7)The de novo standard for BVA review should be clarified.

    In addition to these concerns, NOVA notes the proposal fails to 
consider reform to the critical process of obtaining an adequate 
examination and opinion, which is a major cause of remands and 
readjudications. Without substantive reform to this process, it is 
unlikely procedural reform alone can solve systemic problems.
    Chairman Miller, Ranking Member Brown, and members of the 
Committee, the National Organization of Veterans' Advocates (NOVA) 
would like to thank you for the opportunity to offer our views on 
current legislation pending before the committee at today's hearing. 
Our statement will focus on H.R. 5083, the VA Appeals Modernization Act 
of 2016.
    NOVA is a not-for-profit 501(c)(6) educational membership 
organization incorporated in the District of Columbia in 1993. NOVA 
represents more than 500 attorneys and agents assisting tens of 
thousands of our nation's military veterans, their widows, and their 
families seeking to obtain their earned benefits from VA, and works to 
develop and encourage high standards of service and representation for 
all persons seeking VA benefits. NOVA members represent veterans before 
all levels of the VA's disability claims process. In 2000, the United 
States Court of Appeals for Veterans Claims recognized NOVA's work on 
behalf of veterans with the Hart T. Mankin Distinguished Service Award. 
NOVA operates a full-time office in Washington, DC.
                               Background
    VA currently reports there are over 455,000 appeals in the entire 
system, and estimates the number of appeals will rise to two million 
over the next decade without reform. In addition, there are more than 
60,000 pending hearing requests. Since BVA currently only has the 
capacity to hold approximately 11,000 hearings per year, a veteran can 
wait several years to have a hearing.
    To address this problem, VA proposed a ``simplified appeals 
process'' in its 2017 budget for BVA. The process proposed by VA 
included several concepts contrary to the veteran-friendly system 
created by Congress, such as closing the record and denying veterans 
the due process right to be heard before BVA. Department of Veterans 
Affairs, Congressional Submission, FY 2017, Vol. III at BVA 280-83 
(February 9, 2017). VA presented this proposal as a ``straw man'' 
designed to draw stakeholders into discussions on reforming the appeals 
process.
    As a result, numerous organizations, including NOVA, participated 
in a three-day summit with VA officials and continue to participate in 
ongoing meetings to discuss appeals reform. Deputy Secretary Sloan 
Gibson charged the group with developing an appeals process that is 
timely, fair, easy to understand, transparent, and preserves veterans' 
rights.
    One issue raised by NOVA and other stakeholders is the need for all 
accredited representatives to have complete access to clients' 
electronic files. This issue has been a NOVA priority since the advent 
of the Veterans Benefits Management System (VBMS). On April 13, 2016, 
VA issued a memorandum instructing regional office personnel to process 
attorneys and agents for the background checks required for access. 
While we appreciate VA's response and look forward to implementation, 
NOVA maintains full access must be achieved for any reform to be 
successful and VA must commit to ongoing improvements to existing 
electronic systems that are critical to meaningful representation.
    NOVA appreciates the opportunity to have a seat at this table and 
participate in the dialogue. However, as set forth in more detail 
below, while NOVA supports the concept of improving the appeals process 
for veterans and endorses several features of H.R. 5083, there remains 
areas of serious concern that require additional congressional 
scrutiny.
                  Legislative Provisions NOVA Supports
 Requirements for detailed notice of the decision are included in the 
                                statute.
    The declining quality of VA rating decisions and notice has been 
cited by stakeholders numerous times over the years as the primary 
problem in the claims process. Efforts by VA to improve notice have 
been unsuccessful. The participants in VA's appeals summit agreed that 
detailed notice of the rating decision is critical to making an 
informed decision regarding further review. Proper notice allows a 
veteran to understand the reasons for the underlying rating decision 
and enables an advocate to provide a veteran with the best possible 
advice on the evidence needed to prove a claim.
    The proposed language to amend 38 U.S.C. Sec.  5104 is an important 
first step in reform, but only if properly implemented by VA. VA's 
proposed process hinges heavily on a change VA has always had the 
authority to make, but has been unsuccessful to date in doing so. VA 
will need to commit to extensive training of its regional office 
employees to provide adequate notice and well-written decisions. 
Without it, the new process could result in another backlog at the 
local level.
        Effective date protection is extended to BVA decisions.
    H.R. 5083 removes many procedural and due process protections for 
veterans. To a degree, the removal of these protections is offset by 
the primary benefit conferred to veterans: the ability to preserve the 
effective date of a claim denied in a BVA decision by filing a 
``supplemental claim'' within a year of that denial (with no limit to 
the number of times the veteran can avail himself of this option).
    The legislation calls for the same process following a rating 
decision, but it does not meaningfully expand a veteran's rights beyond 
what is already permitted under 38 C.F.R. Sec.  3.156(b). NOVA supports 
this regulatory provision being included in the statute. Furthermore, 
NOVA recommends the provisions of 38 C.F.R. Sec.  3.156(c) also be 
codified in the statute as an important protection for the effective 
dates of claims for veterans who find additional service records after 
an original claim.
    Allowing a veteran to file a supplemental claim following a BVA 
denial is a positive development, and we believe it must remain part of 
any reform package considered. It is not without a downside however. As 
mentioned below, without expansion to denials by the United States 
Court of Appeals for Veterans Claims, this proposal as written would 
likely dilute the court's oversight function.
            H.R. 5083 eliminates redundant procedural steps.
    NOVA has historically supported the amendment of 38 U.S.C. Sec.  
7105 to eliminate the redundant requirements of a statement of the case 
(SOC) and substantive appeal. See, e.g., Veterans' Dilemma: Navigating 
the Appeals System for Veterans Claims: Hearing Before the Subcommittee 
on Disability Assistance and Memorial Affairs of the House Committee on 
Veterans' Affairs, 114th Cong., 1st Sess. 37, 112 (2015)(statement of 
Kenneth M. Carpenter, Esq., Founding Member, National Organization of 
Veterans' Advocates). NOVA maintains that, as a result of judicial 
review, the need for an SOC and affirming substantive appeal no longer 
exists.
    As the number of claims has risen, in turn resulting in more 
appeals, these procedures have become the source of growing delays. For 
example, VA reported in 2015 an average of 405 days passed between 
filing of the notice of disagreement (NOD) and VA's issuance of the 
SOC. Furthermore, the average days from the time of the substantive 
appeal to BVA certification was 630 days. Department of Veterans 
Affairs (VA) Appeals Data Requested by House Committee on Veterans' 
Affairs Subcommittee on Disability Assistance and Memorial Affairs 
(January 2015). NOVA maintains that any minimal value in these 
procedural steps is far outweighed by the delays, which serve to age 
the evidence in the veteran's file and drive the need for additional 
development through remand.
    Under VA's proposal, once the veteran determines he or she wishes 
to appeal to BVA, the NOD will serve as the only requirement to 
initiate an appeal. Furthermore, the notice elements statutorily 
required in this provision, if executed properly, improve upon the 
current notice and SOC. Elimination of post-NOD procedure will not only 
allow the veteran to get an appeal to BVA faster, it should free up VA 
personnel to decide and rate claims faster at the agency of original 
jurisdiction.
   A veteran is assured favorable findings made by VA will continue 
                 throughout the life of a claim/appeal.
    Newly created section 5104A mandates that any favorable findings 
made on behalf of a veteran are binding on all subsequent adjudicators 
within VA, absent clear and convincing evidence to the contrary. This 
provision not only protects a veteran during the adjudication process, 
it saves VA time because there will be no need to reconsider resolved 
elements of a claim in subsequent decisions.
           A veteran retains the right to engage an attorney.
    Under existing 38 U.S.C. Sec.  5904, a veteran may enter into a fee 
agreement with an attorney or agent at the time the NOD is filed. H.R. 
5083 proposes to change that language to allow a veteran to exercise 
this right at the time the initial rating decision is issued. Since VA 
is now providing more than one adjudicatory choice to a veteran after 
the initial decision, it makes sense that a veteran should have the 
freedom and personal choice to engage an attorney at that time to 
obtain counsel on the best option to choose.
               Legislative Provisions of Concern to NOVA
     H.R. 5083 limits effective date relief after judicial review.
    It is inconsistent to limit effective date relief solely to 
decisions of the agency of original jurisdiction and BVA. Specifically, 
under H.R. 5083, a veteran who is dissatisfied with any rating decision 
has one year to seek higher level review, submit new evidence in the 
form of a supplemental claim, or file an appeal to BVA, while 
preserving the effective date of the first claim. The proposal also 
allows for the same one-year period after a BVA decision to submit new 
evidence in the form of a supplemental claim. However, there is no such 
allowance for the same one-year period after a final decision of the 
United States Court of Appeals for Veterans Claims.
    NOVA believes this limitation will result in far fewer veterans 
exercising their hard-fought right of judicial review, because it is 
rare that a conscientious advocate would risk the loss of an effective 
date by appealing to the court when the effective date could be 
preserved with the submission of ``new and relevant'' evidence.
    NOVA therefore recommends section (a)(2)(E) be added to 38 U.S.C. 
Sec.  5110: ``(E) a supplemental claim under section 5108 of this title 
within one year of any final decision issued by the United States Court 
of Appeals for Veterans Claims.''
    Furthermore, VA has taken the position during its appeals summit 
meetings that a veteran could not simultaneously seek review of a BVA 
denial before the United States Court of Appeals for Veterans Claims 
and exercise his or her right to submit new evidence before VA within a 
year of that decision to preserve the original effective date. Under 
the current appeals structure, a veteran may seek judicial review and 
file a reopened claim as contemplated under the current version of 
section 5108.
    By foreclosing the opportunity to pursue both avenues of relief, VA 
is forcing a veteran to choose between seeking review of legal error in 
BVA's decision or filing a supplemental claim in the hope of preserving 
the original effective date. Such a result is not only contrary to the 
veteran-friendly scheme designed by Congress, it potentially prevents 
the court from correcting prejudicial legal errors, e.g., statutory 
violations or misinterpretations of law.
    To remedy this situation, Congress should add the following 
language to 38 U.S.C. Sec.  5108:

    After a decision of the Board of Veterans' Appeals that disallows a 
claim, nothing in this title shall be construed to limit the right to 
pursue at the same time both (i) an appeal of such Board decision to 
the United States Court of Appeals for Veterans Claims under chapter 72 
of this title and (ii) a supplemental claim under this section seeking 
readjudication of the claim disallowed by such Board decision.

    Furthermore, under 38 U.S.C. Sec.  5110, subsection (a)(3) should 
be redesignated as subsection (a)(4) and the following subsection 
(a)(3) be added:

    (3) For purposes of subsection (a)(2), a claim is continuously 
pursued by filing a supplemental claim under section 5108 of this title 
within one year of a decision of the Board of Veterans' Appeals without 
regard to either (i) the filing under chapter 72 of this title of a 
notice of appeal of such Board decision or (ii) the final decision of 
the Court of Appeals for Veterans Claims under chapter 72 of this 
title.
Proper docket management is essential to ensure veterans receive equal 
                               treatment.
    H.R. 5083 creates one docket at BVA for cases in which a veteran 
requests a hearing or submits evidence following an NOD and another 
docket for cases in which nothing is added to the record after the NOD. 
We disagree with the creation of two dockets, as there is simply no 
good reason to treat these cases differently. We have seen from VA's 
past treatment of claims not defined as part of ``the backlog'' that, 
whatever VA's current intent may be, if a law creates an incentive for 
one kind of case to be adjudicated over another type of case, that is 
what will occur. Veterans who request a hearing or submit evidence 
should not be punished with a longer wait. We therefore recommend that 
there be only one docket at BVA, and that all cases before BVA be 
worked in docket order.
    At the very least, if two dockets are created, a formula needs to 
be developed for docket management and included in section 7107. A 
formula is necessary to ensure every case is in a measurable ``lane,'' 
so data can be collected and accountability achieved. VA should be 
required to provide stated goals for timely adjudication of both 
dockets as well as a formula. In the alternative, there should be 
language to require VA to create such a formula within a reasonable 
period after enactment to ensure dockets are maintained fairly.
    Furthermore, if two dockets are created, VA should allow a veteran 
who chooses to submit ``evidence only'' to join the ``non-hearing'' 
docket. Given that this evidence will not trigger any duty to assist 
obligation for BVA, there is no reason BVA cannot consider these 
appeals in the ``non-hearing'' lane. Under this scenario, NOVA 
recommends 38 U.S.C. Sec.  7107(a) be amended to read as follows:

    (a) DOCKETS - IN GENERAL. - The Board shall maintain two separate 
dockets. A non-hearing docket shall be maintained for cases in which 
(1) no Board hearing is requested and no evidence is submitted or (2) 
no Board hearing is requested and evidence is submitted. A separate and 
distinct hearing option docket shall be maintained for cases in which a 
Board hearing is requested. Except as provided in subsection (b), each 
case before the Board will be decided in regular order according to its 
respective place on the Board's non-hearing docket or hearing docket.
 H.R. 5083 does not contain a plan for how ``legacy appeals'' will be 
                            fairly handled.
    Although stakeholders and VA flagged the issue of how the pending 
inventory will be addressed if extensive appeals reform is passed as an 
area of concern needing resolution, this issue has not been adequately 
considered to date. Given that the 455,000 pending appeals are in 
various stages of the appeals process and greatly affect the resources 
required by VA, this issue must be resolved. Veterans who have already 
been waiting for many years must not be denied a fair resolution to 
their pending appeals while newer appeals are being handled faster in a 
simplified system. Docket management will be critical to resolution of 
legacy appeals.
    There may be logical points where a veteran with a legacy appeal 
may wish to choose to enter the new system. For example, veterans who 
have recently filed an NOD and receive an SOC (which is essentially a 
new decision) may conclude it makes more sense to voluntarily shift to 
the new system by submitting a supplemental claim in the ``middle 
lane'' at the regional office. However, it is critical that any 
decisions regarding a shift from the old system to a new system be by 
choice, and veterans not be forced into the new system for VA's 
convenience.
    In addition, it is critical VA receive the appropriate level of 
resources, both at VBA and BVA, to simultaneously resolve legacy 
appeals and implement a new system.
       Section 7105 as rewritten unnecessarily burdens veterans.
    NOVA maintains section 7105 as rewritten is too restrictive. The 
United States Court of Appeals for the Federal Circuit recently upheld 
VA's standard forms regulations, to include 38 C.F.R. Sec.  20.201. 
Veterans Justice Group, LLC, et al. v. Secretary of Veterans Affairs, 
No. 2015-7021 (April 7, 2016). Under 38 C.F.R. Sec.  20.201(a)(4), a 
veteran is required to specify those determinations with which he 
disagrees or ``clearly indicate'' his intent to appeal all issues.
    By contrast, newly drafted section 7105(b)(2) requires the claimant 
to set forth ``specific allegations of error of fact or law.'' This 
standard places a higher burden on the claimant as a predicate for a 
valid NOD. While NOVA understands VA intends for the NOD to be the sole 
vehicle to initiate an appeal, requiring veterans to provide ``specific 
allegations of error of fact or law'' is not veteran-friendly and is 
particularly detrimental to pro se veterans. Because the current 
standard NOD form does not require the level of specificity contained 
in this provision, NOVA recommends the veteran only be required to 
specify the determinations with which he disagrees in the NOD.
    NOVA also recommends that section 7105(b)(3) be amended to allow a 
veteran to decide to submit evidence or request a BVA hearing up until 
the date a decision is actually issued by BVA. Section 7105(d) should 
either be stricken in its entirety or revised to read as follows: ``The 
Board of Veterans' Appeals will not deny any appeal which fails to 
allege error of fact or law in the decision being appealed without 
providing the claimant with notice and an opportunity to cure the 
defect.''
The veteran should have the ability to submit evidence until BVA issues 
                              a decision.
    Section 7113(b)(2)(A)(ii) as written provides for evidence to be 
submitted at BVA ``within 90 days following receipt of the notice of 
disagreement.'' This provision is too restrictive; if the case is 
waiting to be reviewed by BVA, it is more veteran-friendly (and does 
not unduly burden BVA) for that period to be open until the decision is 
made. Therefore, NOVA recommends 38 U.S.C. Sec.  7113(b)(2)(A)(ii) be 
amended to read as follows: ``Evidence submitted by the appellant and 
his or her representative, if any, within 90 days following receipt of 
the notice of disagreement or until the Board issues a decision.''
    VA should only require ``new'' evidence for supplemental claims.
    During the course of the appeals summit meetings, there was general 
agreement that the standard of ``new and material'' should be 
eliminated. VA has inserted the term ``relevant'' to replace 
``material.''
    Although VA officials have repeatedly stated that the ``relevant'' 
evidence standard would be much easier to meet than the ``material'' 
standard, NOVA maintains merely trading ``relevant'' for ``material'' 
will not significantly reduce the adjudication burden on VA. Removing 
``relevant'' allows VA to adjudicate the merits every time and 
eliminates the need to make a threshold determination. Therefore, NOVA 
recommends the words ``and relevant'' be deleted from 38 U.S.C. Sec.  
5108 and the definition of ``relevant'' found at 38 U.S.C. Sec.  
101(35) be stricken.
             It needs to be clear BVA's review is de novo.
    While BVA views itself as an appellate body, its function has 
always been to provide de novo review of the agency of original 
jurisdiction's decisions. It must continue to conduct de novo review, 
find facts, apply relevant law, and issue new decisions. Therefore, 
NOVA recommends the term ``de novo'' be added to sections 5103B(c)(2), 
7105(a), and 7105(b)(2) of title 38 to clarify this point.
                          Additional Concerns
     The current proposal ignores fundamental flaws in the system.
    The proposed framework deals largely with the process of filing 
claims and appealing adverse decisions. Successful execution of VA's 
proposed process hinges on its ability to consistently meet its goals 
of adjudicating and issuing decisions in the 125-day window identified 
in its ``middle lane'' and deciding appeals within the one-year period 
before BVA. As demonstrated with the prior backlog of original claims 
and scheduling of medical appointments, VA often struggles to meet its 
own internal goals to the detriment of veterans.
    Furthermore, while focusing solely on process, the proposal is 
devoid of reform to the foundational underpinning of the claims 
adjudication and appeals process, i.e., the need for an adequate 
medical examination and opinion. At the January 2013 hearing addressing 
the appeals process, BVA acknowledged the problem: ``The adequacy of 
medical examinations and opinions, such as those with incomplete 
findings or supporting rationale for an opinion, has remained one of 
the most frequent reasons for remand.'' Why Are Veterans Waiting Years 
on Appeal?: A Review of the Post-Decision Process for Appealed 
Veterans' Disability Benefits Claims: Hearing Before the Subcommittee 
on Disability Assistance and Memorial Affairs of the House Committee on 
Veterans' Affairs, 113th Congress, 1st Sess. 23 (2013)(prepared 
statement of Laura H. Eskenaki, Executive in Charge, Board of Veterans' 
Appeals). Two years later, the Subcommittee on Disability Assistance 
and Memorial Affairs requested appeals data from VA, to include the top 
five remand reasons for the six fiscal years between 2009-2014. While 
not particularly detailed, in five of the six years, ``nexus opinion'' 
was listed as a top five reason. Department of Veterans Affairs (VA) 
Appeals Data Requested by House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs (January 
2015). Other consistently reported reasons included ``incomplete/
inadequate findings,'' ``current findings (medical examination/
opinion),'' and ``no VA examination conducted.'' Id.
    While VA often cites the veteran's submission of evidence as 
triggering the need for additional development, the reality is VA has 
consistently demonstrated difficulty fulfilling its fundamental 
obligation to provide veterans with adequate medical examinations and 
opinions in the first instance. Without substantive reform to this 
process, to include consideration of a greater role for private and 
treating physician evidence, it is unlikely procedural reform alone can 
solve systemic problems.
                               Conclusion
    NOVA shares VA's concern that veterans wait too long for a final 
and fair decision on appeal. NOVA welcomes the opportunity to work with 
VA and this Committee to ensure a fair and comprehensive reform of the 
system. NOVA further recommends adoption of the revisions outlined in 
our testimony. Thank you for allowing us to present our views on this 
legislation.

For more information:

    NOVA staff would be happy to assist you with any further inquiries 
you may have regarding our views on this important legislation. For 
questions regarding this testimony or if you would like to request 
additional information, please feel free to contact Diane Boyd Rauber 
by calling NOVA's office at (202) 587-5708 or by emailing Diane 
directly at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f793859682959285b7819283969381989496839284d9988590d9">[email&#160;protected]</a>

                                 
                NATIONAL VETERANS LEGAL SERVICES PROGRAM
                           EXECUTIVE SUMMARY
    The VA Appeals Modernization Act of 2016, H.R. 5083, provides a 
far-reaching restructuring of the VA administrative appeals process. It 
contains many positive features that are likely to decrease appeal 
times while providing claimants with various options for pursing their 
appeals. As with any substantial change to a complex system, there will 
clearly be effects that we cannot now predict. But given that the 
current appeals process is not functioning well, we have ultimately 
concluded that the proposed legislation - even without being able to 
predict all of its effects - is a necessary step, with two important 
caveats.
    First, an amendment to the proposed legislation is needed to avoid 
the litigation and disruption of the appeals process that will be 
generated by the way VA officials are interpreting the proposed 
legislation. According to VA officials, including Secretary McDonald, 
after a Board of Veterans' Appeals decision disallowing a claim, the 
veteran would be required under the proposed legislation to make a 
choice between (i) appealing to the Court of Appeals for Veterans 
Claims and (ii) filing a supplemental claim with the regional office, 
in order to preserve the date of filing the initial claim as the 
potential effective date. Before this legislation is passed, Congress 
should amend the proposal to prevent VA's interpretation, since the 
choice VA wishes to impose on veterans is contrary to the interests of 
justice and the pro-claimant process that Congress long ago created.
    Second, amendments are necessary to provide (a) an effective date 
for the streamlined appeals process set forth in H.R. 5083 and (b) 
guidelines for how VA will integrate the new appeals process contained 
in the bill with the inventory of more than 450,000 currently pending 
VA appeals. We urge Congress to appropriate a significant amount of 
additional money on a temporary basis for VA to use exclusively to 
tackle the backlog of currently pending appeals. We also recommend that 
before further action is taken on this bill, the VA should propose--and 
veterans organizations and other stakeholders be given an opportunity 
to comment on--both VA's proposed effective date for H.R. 5083 and 
provisions containing the formula VA will use to allocate its 
adjudication resources (i) between appeals on the hearing docket and 
appeals on the non-hearing docket created by H.R. 5083 and (ii) between 
appeals that are pending on the proposed effective date and appeals 
docketed after that effective date.

    Mr. Chairman and Members of the Committee:
    Thank you for inviting both of our organizations to submit written 
testimony concerning H.R. 5083, the VA Appeals Modernization Act of 
2016, an important legislative effort to reform the veterans claims and 
appeals process in the United States Department of Veterans Affairs 
(VA).
    The National Veterans Legal Services Program (NVLSP) is a nonprofit 
veterans service organization founded in 1980 that has been providing 
free legal representation to veterans and assisting advocates for 
veterans for the last 36 years. NVLSP has represented veterans and 
their survivors at no cost on claims for veterans benefits before the 
VA, the U.S. Court of Appeals for Veterans Claims (CAVC), and other 
federal courts. As a result of NVLSP's representation, the VA has paid 
more than $4.6 billion in retroactive disability compensation to 
hundreds of thousands of veterans and their survivors.
    NVLSP publishes numerous advocacy materials, recruits and trains 
volunteer attorneys, trains service officers from such veterans service 
organizations as The American Legion, the Military Order of the Purple 
Heart and the Military Officers Association of America in veterans 
benefits law, and conducts local outreach and quality reviews of the VA 
regional offices on behalf of The American Legion. NVLSP is one of the 
four veterans service organizations that comprise the Veterans 
Consortium Pro Bono Program, which has, since 1992, recruited and 
trained volunteer lawyers to represent veterans who have appealed a 
Board of Veterans' Appeals decision to the CAVC without a 
representative. In addition to its activities with the Pro Bono 
Program, NVLSP has trained thousands of veterans service officers and 
lawyers in veterans benefits law, and has written educational 
publications that thousands of veterans advocates regularly use as 
practice tools to assist them in their representation of VA claimants.
    Stetson University is a private liberal arts education located in 
Florida. As part of its College of Law, Stetson University established 
the Veterans Law Institute (VLI) in 2012. The VLI is committed to 
serving the needs of veterans in Florida and across the nation. It does 
so through various means including engaging in public policy debates, 
arranging for pro bono legal services for veterans, and operating a 
clinic in which Stetson Law students represent veterans concerning 
claims for benefits before the Department of Veterans Affairs and the 
federal courts. Professor Allen is a member of the faculty at the 
College of Law and also serves as the College of Law's Associate Dean 
for Academic Affairs. He is the Director of the VLI and speaks and 
writes frequently about veterans' benefits matters.
                               H.R. 5083
    Over the last several months, NVLSP has participated with a 
workgroup of veterans service organizations convened by the VA to find 
common ground on a set of reforms to address the serious dysfunctions 
that exist in the current VA appeals process. The text of H.R. 5083 is 
the same as the text of the draft bill that VA has developed during 
this discussion.
    We believe H.R. 5083 is a welcome attempt to address the serious 
problems veterans and their dependents face in processing appeals in 
the VA. We are generally favorable to the bill, with several important 
caveats discussed below. To be clear, we believe the problems we have 
identified below can be addressed now. If they are, we support this 
bill as an innovative means of addressing the systemic delays claimants 
face in the dealing with their VA appeals.
    Before we address the merits of the H.R. 5083 in more detail, we 
begin with a general point that is important to remember. The proposed 
structuring of the administrative appeals process envisioned under the 
bill is far-reaching. As with any change to a complex system, there 
will clearly be effects that we cannot now predict. We have considered 
this reality quite seriously. If the system were functioning generally 
well, a concern with unintended consequences might be sufficient to 
oppose such a comprehensive change in the system. But we are not 
dealing with a well-functioning system. Given that state of affairs, we 
have ultimately concluded that the proposed legislation - even without 
being able to predict all of its effects - is a necessary step. We 
support it with the changes we discuss below.

    I. POSITIVE FEATURES OF THE PROPOSED LEGISLATION
    We briefly highlight the significant positive features of the 
changes envisioned under H.R. 5083. Taken together, we believe these 
features of H.R. 5083 will decrease appeal times while providing 
claimants with various options for pursing their appeals. The most 
significant positive features in the proposed legislation are:

    <bullet>  H.R. 5083 provides for enhanced ``notice letters'' to 
veterans and other claimants concerning the denial of their claims. 
Enhanced notice is critically important to veterans as they make 
determinations about how to proceed when they are dissatisfied with a 
VA decision.
    <bullet>  H.R. 5083 also eliminates the requirements under current 
law concerning the preparation of a Statement of the Case (SOC), the 
veteran's corresponding need to complete an additional step to perfect 
an appeal to the Board (i.e., VA Form 9) and VA's subsequent need to 
certify the appeal by completing VA Form 8. While there may have been a 
time at which the SOC served a useful function in this system, the 
enhanced ``notice letters'' required by the proposal eliminate the need 
for an SOC. Thus, the SOC process serves only to delay the processing 
of claims.
    <bullet>  H.R. 5083 lowers the standard necessary for re-opening a 
claim under Section 5108. The current standard of ``new and material 
evidence'' is replaced with ``new and relevant evidence.'' While we 
address below two concerns - one involving supplemental claims and one 
involving the wording of the new lower standard--the lowering of the 
standard is critically important. In addition, and as we discuss in 
more detail below, the revised Section 5108 will allow veterans to 
obtain earlier effective dates in many circumstances than they would be 
able to do under the current version of this provision.
    <bullet>  H.R. 5083 allows veterans a meaningful choice when they 
appeal to the Board of Veterans' Appeals (Board). A veteran may elect 
to forgo the submission of new evidence and a hearing in cases in which 
he or she determines such an approach is best. This would provide for 
more expeditious treatment of such appeals. On the other hand, a 
veteran can elect to proceed on a track in which the submission of new 
evidence and a hearing is allowed. This dual-track approach recognizes 
the reality that not all appeals are alike.
    <bullet>  H.R. 5083 allows a claimant to seek the assistance of a 
lawyer for pay after an initial denial but before the filing of a 
Notice of Disagreement (NOD). This is a change from current law in 
which a lawyer may not charge a fee before the filing of an NOD. While 
seemingly a small change, we believe this is significant because the 
structure of the proposed new system provides claimants with myriad 
ways in which to proceed. Advice to such claimants will be critical and 
the proposed change allows more options for that advice.
    <bullet>  We believe H.R. 5083 also reduces the means by which the 
VA can ``develop to deny.'' NVLSP has reviewed many regional office and 
BVA cases in which the existing record before the VA supports the award 
of benefits, but instead of deciding the claim based on the existing 
record, VA has delayed making a decision on the claim by taking steps 
to develop additional evidence for the apparent purpose of denying the 
claim. Certain aspects of the current proposal - for example, the 
restriction on the application of the duty to assist at the Board - 
will likely reduce such actions.

    II.PROBLEM ONE: The Need to Clarify the Right to Both Appeal to the 
CAVC and File a Supplemental Claim Simultaneously to Protect the 
Claimant's Effective Date
    NVLSP's support of the critically important positive changes to the 
administrative appeals process contained in H.R. 5083 comes with 
several critical caveats. The first caveat is contained in this part of 
our testimony.
    Currently, after a Board decision that disallows a claim, the 
claimant may file both (i) an appeal with the Court of Appeals for 
Veterans Claims (CAVC) under Chapter 72 and (ii) a claim with the 
Agency of Original Jurisdiction (AOJ) under Section 5108 to ``reopen 
the claim'' disallowed by the Board ``and review the former disposition 
of the claim,'' when the claimant submits ``new and material 
evidence.'' In other words, the claimant does not have to choose 
between appealing to the CAVC and filing a claim with the AOJ to reopen 
under Section 5108. The claimant may freely take both actions.
    H.R. 5083 renames a Section 5108 claim as a ``supplemental claim'' 
and lowers the threshold requirement to obtain readjudication of the 
previously disallowed claim by substituting the language ``new and 
relevant evidence'' for ``new and material evidence.'' In addition, no 
language in H.R. 5083 indicates an intent to change existing law 
allowing a claimant, after a Board decision that disallows the claim, 
to file simultaneously both a timely appeal with the CAVC and a Section 
5108 claim with the AOJ.
    Nonetheless, VA officials have repeatedly represented to the 
veterans service organizations that if H.R. 5083 is enacted as 
currently worded, the options available to a claimant will change. 
According to these VA officials, including Secretary McDonald, after a 
Board decision disallowing a claim, the claimant would now be required 
by law to make a choice between appealing to the CAVC and filing a 
supplemental claim with the RO in order to preserve the date of filing 
the initial claim as the potential effective date if the claim 
disallowed by the Board is ultimately granted. As background, after a 
Board decision disallowing a claim, the claimant may file under the 
proposed bill a Section 5108 supplemental claim within one year of the 
Board decision disallowing the claim. If that supplemental claim were 
ultimately granted, the proposed bill's amendment to Section 5110 would 
enable the claimant to be assigned the date of filing the initial 
claim, rather than the date of filing the supplemental claim, as the 
effective date of the award, as long as the other Section 5110 
criterion for assignment of that early effective date is satisfied.
    We strongly support this part of H.R. 5083. Nonetheless, VA 
officials have repeatedly represented that under H.R. 5083, if a 
claimant, after a Board decision disallowing a claim, were to file a 
timely appeal of the Board decision with the CAVC and lose on appeal, 
the claimant would incur the following penalty: the claimant could not 
lawfully be assigned the date of filing the initial claim as the 
effective date even if the claimant filed a Section 5108 supplemental 
claim within one year of the Board decision and the VA granted the 
supplemental claim.
    If H.R. 5083 is enacted without a change in language to clarify 
this matter, and VA continues to insist that a claimant must choose 
between an appeal to the CAVC and a supplement claim under Section 5108 
in order to preserve the date of filing the initial claim as the 
potential effective date, this matter will inevitably have to be 
resolved by the federal courts. Final judicial resolution would likely 
take years. To be clear, we believe the VA's currently articulated 
approach is not consistent with H.R. 5083. But we also realize that it 
is difficult to predict how courts will resolve legal disputes. No 
matter how this legal dispute is ultimately resolved, during the years 
this litigation is pending in court, there would likely be a 
significant disruption to the VA claims adjudication process and 
further delays experienced by VA claimants.
    Congress should clarify this matter before passing H.R. 5083 to 
avoid litigation and a disruption to the claims adjudication process. 
We suggest adding the following clarifying language. First, add the 
following to the end of line 25 on page 6 of amended Section 5108:
    After a decision of the Board of Veterans' Appeals that disallows a 
claim, nothing in this title shall be construed to limit the right to 
pursue at the same time both (i) an appeal of such Board decision to 
the United States Court of Appeals for Veterans Claims under chapter 72 
of this title, and (ii) a supplemental claim under this section seeking 
readjudication of the claim disallowed by such Board decision.
    Second, on line 19 of page 8, redesignate subsection (a)(3) as 
subsection (a)(4) and add a new subsection (a)(3) containing the 
following language:
    (3) For purposes of subsection (a)(2), a claim is continuously 
pursued by filing a supplemental claim under section 5108 of this title 
within one year of a decision of the Board of Veterans' Appeals without 
regard to either (i) the filing under chapter 72 of this title of a 
notice of appeal of such Board decision or (ii) the final decision of 
the Court of Appeals for Veterans Claims under chapter 72 of this 
title.
    It is contrary to the interests of justice and the pro-claimant 
process that Congress has created to require claimants to make a choice 
between filing an appeal with the CAVC and filing a supplemental claim 
with the RO within one year of the Board decision in order to preserve 
the date of filing the initial claim as the potential effective date. 
Each of these two options serves an entirely different purpose. 
Claimants appeal to the CAVC to correct a prejudicial legal error that 
they believe the Board made in disallowing the claim, such as a 
misinterpretation of the law or a violation of the statutory duty to 
assist by failing to provide the claimant with an adequate medical 
examination or medical opinion. Claimants file a Section 5108 claim for 
an entirely different reason. They file a Section 5108 claim in an 
effort to add positive evidence to the record so that the weight of the 
positive evidence is equal to or greater than the weight of the 
negative evidence of record, in an attempt to convince VA that the 
claim should be granted even under VA's existing view of its legal 
requirements.
    What VA seeks is to force veterans whose claims are disallowed by 
the Board to make an unfair choice between two options. According to 
VA's interpretation of H.R. 5083, each choice alone has a potentially 
fatal consequence. If the veteran chooses the option of appealing to 
the CAVC, the veteran cannot add evidence to the record and is 
essentially limited to arguing that the Court should vacate and remand 
the Board's decision due to legal error. A fatal consequence occurs if 
the Court upholds the Board's interpretation of law (as it does in 
approximately 30% of all appeals). The veteran's right to the date of 
filing of the initial claim as the potential effective date is lost 
forever. While the veteran may be able to file a Section 5108 
supplemental claim with new and relevant evidence despite the Court 
defeat, VA's position is that success on that supplemental claim cannot 
validly lead to an award of benefits retroactive to the date of filing 
the initial claim that was disallowed by the Board.
    On the other hand, if the veteran gives up the right to appeal to 
the CAVC to challenge the Board's interpretation of the law by choosing 
the other option--filing a Section 5108 supplemental claim within a 
year of the Board decision--the veteran enjoys the benefit of being 
able to add new positive evidence to the record. But the VA's view of 
what the law requires will most likely be the same as the Board's view 
of the law when it disallowed the initial claim. Thus, the veteran must 
shoulder the burden of attempting to convince VA that it should award 
benefits under an unfavorable view of the law with which the veteran 
disagrees. Thus, the chance of success is obviously lower than it would 
be if VA was required to adjudicate the supplemental claim under the 
veteran's more favorable view of what the law requires.
    To be clear then, under the VA's proposed approach, a veteran would 
need to decide between preserving his or her effective date by filing a 
supplemental claim or potentially correcting a legal error in the 
Board's decision through the judicial process. A veteran should not be 
put in such a position. The interests of justice and maintenance of the 
pro-veteran claims process that Congress has nurtured for decades 
should lead Congress to clarify H.R. 5083 by adding language that makes 
it plain that after a Board decision disallowing a claim, the veteran 
has the right to protect the date of filing the initial claim as the 
effective date by both filing an appeal with the CAVC to correct a 
prejudicial legal error made by the Board and filing a Section 5108 
supplemental claim in an effort to convince VA that the newly added 
evidence shifts the weight of the evidence so that VA awards benefits 
even under its unfavorable view of its legal requirements.
III. PROBLEM TWO: H.R. 5083 Needs to be Amended to Provide An Effective 
         Date and for Handling the Inventory of Pending Appeals
    H.R. 5083 lacks an effective date. In addition, it does not address 
how VA should integrate the streamlined appeals process contained in 
the draft bill with the inventory of more than 450,000 currently 
pending VA appeals. H.R. 5083 needs to be amended to address both of 
these issues.
    During the ongoing discussions between the VA and the veterans 
service organizations and other stakeholders regarding the reforms 
contained in H.R. 5083, the VA recently staked out a position on both 
of these two important issues. Under the VA's proposal, it appears that 
the VA would ultimately issue decisions on many new appeals filed after 
the effective date of the draft bill before it issues decisions on many 
of the 450,000 currently pending appeals. Indeed, it appears to us that 
under VA's recent proposal, many of the currently pending appeals would 
be decided by VA years after many new appeals are decided by the VA. 
NVLSP and the VLI object to such an unfair system.
    We have three suggestions regarding the effective date and the need 
to address the existing inventory of pending appeals. First, we urge 
Congress to appropriate a significant amount of additional money on a 
temporary basis for VA to use exclusively to tackle the backlog of 
currently pending appeals.
    Second, the VA should propose in advance both an effective date for 
H.R. 5083 and provisions that address the following two issues 
regarding VA allocation of its resources under H.R. 5083:
    (1)The formula that VA will use to allocate its resources between 
adjudicating appeals on the non-hearing option Board docket versus 
adjudicating appeals on the hearing option Board docket under H.R. 
5083's amendment to Section 7107 of Title 38. It is important to 
address this issue to ensure that BVA decisions on hearing docket cases 
are not unduly delayed in comparison to cases on the non-hearing option 
docket due to over allocation of BVA resources to deciding appeals on 
the non-hearing docket. Transparency in this matter is very important.
    (2)Before H.R. 5083 is passed, it should be amended to provide the 
formula VA will use to allocate its resources between adjudicating 
appeals pending at the VA prior to the proposed effective date of the 
draft bill and appeals docketed after that effective date. It is 
important to address this issue to prevent the unfairness to veterans 
with appeals already pending when the bill goes into effect. It would 
be fundamentally unfair if these appellants have to wait many years 
longer to receive a BVA decision than do veterans who file appeals 
after the draft bill goes into effect because the VA assigned most of 
its resources to deciding appeals filed after the draft bill goes into 
effect.
    Third, after VA submits its proposal on these matters, veterans 
service organizations and other stakeholders should be given an 
opportunity to provide Congress with their views on the VA proposal.
                               Conclusion
    Thank you for this opportunity to present our views, and we would 
be pleased to respond to any questions that Members of the Committee 
may have.

    Contact Information:
    National Veterans Legal Services Program
    1600 K Street, N.W.
    Suite 500
    Washington, DC 20016
    (202) 265-8305
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a080b181e4747191e030902070b042a041c06191a4405180d">[email&#160;protected]</a>
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9be9f4f5b6b6faf9e9faf6e8dbf5edf7e8ebb5f4e9fc">[email&#160;protected]</a>

    Veterans Law Institute
    Stetson University College of Law
    1401 61st Street South
    Gulfport, FL 337037
    (727) 562-7360
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="47262b2b2229072b2630693433223334282969222332">[email&#160;protected]</a>

                                 
                                  PAWS
   Statement of Cole T. Lyle before the House Committee on Veterans 
                                Affairs
    Chairman Miller, Ranking Member Brown, distinguished 
Representatives of the committee, thank you all for the opportunity to 
submit testimony. I request that my statement be accepted for the 
record.
    ``To care for him who shall have borne the battle and for his 
widow, and his orphan''. One-hundred forty-one years ago during his 2nd 
inaugural address, President Lincoln gave us a profound and concise 
statement which would later become the Veterans Affairs' motto. The 
spirit which drove Lincoln then is the same spirit that drove us to 
this chamber, pursuing discourse on how best to care for him who shall 
have borne the battle.
    The Veterans Affairs Committee and its members meet among the 
spirits of those who have sacrificed for their nation. The altar of 
liberty, upon which these spirits lie, is being overshadowed by the 
dark cloud of suicides, which grows larger every day we as a nation and 
congress are not proactive. On this day, the committee meets not to 
live in past associations or treatments. Here and now we must admit, 
should we be worthy of those spirits which have borne the battle, we 
must find new fields for action. The P.A.W.S. Act, HR 4764, is that 
field.
    I spent six years in the Marine Corps, deploying to Helmand 
Province, Afghanistan for most of 2011. Upon return to the states I 
took the post-deployment health assessment, which indicated a need to 
seek assistance for post-traumatic stress. I was prescribed medication 
and directed to use a local Veteran's Center for appropriate 
counseling. After roughly two years pursuing those avenues of 
treatment, the symptoms were not subsiding, and were in fact 
exacerbated. Nightmares were more frequent; anxiety attacks and mood 
swings were more frequent. I wanted to stop, but I did not find that 
inspiration until a few friends I served with committed suicide as a 
result of the same cycle of prescribed drug usage. A friend and former 
Marine who was utilizing a service dog told me how well it was working 
for him. The only problem? The VA didn't, and still does not, provide 
service dogs specifically trained to combat symptoms of PTS. Upon 
further research, I found most of the non-profit community providing 
free service dogs to veterans and filling the void left by the VA, had 
wait times over a year and oftentimes more. Not feeling comfortable 
waiting that amount of time, I obtained my service dog Kaya and had her 
subsequently trained through an Assistance Dogs International-
accredited trainer. All told: roughly $10,000, some of which I had to 
borrow. Many veterans do not have those financial resources, and thus 
the status quo of treatment for PTS has given us twenty-two veterans a 
day committing suicide. That statistic was procured from a study by the 
VA itself which only used 21 states to ascertain that number. Because 
of the limitations in the study, the number, tragically, is likely much 
higher.
    Kaya worked wonders for me within weeks. She was specifically 
trained to recognize when I have a nightmare and jumps into bed, waking 
me up. Kaya recognizes anxiety attacks at the outset and intervenes at 
the attack's early stages, preventing the anger or depression from 
snowballing. I've remarked many times, that Kaya has also provided a 
sense of purpose that pills or therapy will never do. Many days I would 
lie in bed, in a fog of depression with no reason to get up or be 
productive. Kaya forced me to take her outside; to exercise her. This 
small amount of responsibility and purpose was something that gave me 
the confidence in which to expand my personal goals, bit by bit, until 
I got to where I am today. Such was the effectiveness of this 
treatment, I wondered why this option was not provided by the VA. 
Answers to my inquiries were less than satisfactory, to put it mildly.
    ``There is no better way to overcome a trickle of doubt than with a 
flood of naked truth''. The excuses we are given by the VA as to why we 
have not pursued this option have centered around the lack of empirical 
data about its efficacy. One doesn't have to read an academic study to 
understand the therapeutic and healing effects untrained dogs can have, 
but a trained service dog that combats specific symptoms are 
exponentially more capable to be so. Moreover, we do actually have 
studies. These studies have been conducted by our friends at K9's for 
Warriors, and by the Human Animal Bond Research Institute in 
conjunction with the MAYO Clinic and Purdue University. We have the 
overwhelming amount of anecdotal evidence by veterans themselves. Even 
so, if we use a hypothetical with service dogs adding little or no 
benefits to countering PTS, there is absolutely no negative associated 
with them, and certainly not to the extent which we have seen with 
opioids.
    George Washington once stated that, ``When we assumed the Soldier, 
we did not lay aside the Citizen.''. Having already obtained Kaya and 
being on a solid path to complete recovery, it would have been easy to 
continue life without giving this issue a second thought. But in youth, 
my heart was touched with the fire of service, and the Marine Corps 
taught me to scorn few things outside of indifference. I could not, in 
good conscience, leave this issue alone if I had the power to act. 
Since May of 2015 I've devoted copious amounts of time and $10,000 of 
my own money advocating for the P.A.W.S. Act.
    I've learned that my story is not an uncommon one. The war against 
PTS has been a long war; it's been a tough war. Heavily involving 
myself with many veteran-transition organizations like 1st CivDiv 
Warriors Foundation in Houston, TX, or GoRuck that operates nationwide, 
and subsequently setting up my own Puppies Assisting Wounded 
Servicemembers Foundation, I've been exposed regularly to the both the 
personal and aggregate concerns voiced within the community. Our 
nations veterans have found in one another a bond, that exists only 
among brothers who have seen death and suffering together. This bond 
has proved to be the impetus for the stories I hear, and the messages I 
receive via social media from veterans and their families whom I've 
never met. They encourage me to continue my efforts. More sobering, I 
receive calls and emails from the family members of veterans I knew 
personally that lost their personal battles to PTS pleading, in fact 
begging me, to use what voice I have in Congress to relay this message: 
service dogs will save lives.
    I'm not here for myself. I have only tried to be the voice in which 
my brothers and sisters can channel their desire for change, and the 
one and only success which is mine to command is to bring a mighty 
heart in this advocacy. With the current epidemic of veteran suicides, 
it's unconscionable to keep the status quo and wait any longer to 
institute this change the entire veteran community knows is a viable 
solution to reduce the epidemic of veteran suicides.
    Thank you again for the opportunity to submit testimony.

                                 
                        U.S. DEPARTMENT OF LABOR
    Chairman Miller, Ranking Member Brown, and other Members of the 
Committee, thank you for the opportunity to provide the views of the 
Department of Labor (DOL) on pending legislation aimed at helping 
veterans succeed in the civilian workforce.
    DOL looks forward to working with the Committee to ensure that the 
men and women who serve this country have the employment support, 
assistance and opportunities they deserve to succeed in the civilian 
workforce.
    While this hearing is focused on numerous bills pending before the 
Committee, I will limit my statement to H.R. 5407, legislation that has 
a direct impact on the programs administered by DOL, and H.R. 5047, the 
``Protecting Veterans' Educational Choice Act of 2016,'' which includes 
an implementation responsibility for the Secretary of Labor. DOL 
respectfully defers to the Department of Veterans' Affairs (VA), 
Department of Education, Department of Defense, Department of Justice, 
Department of Homeland Security and Department of Interior on the other 
bills to be considered by the Committee today.

H.R. 5407 - A bill to amend title 38, United States Code, to direct the 
Secretary of Labor to prioritize the provision of services to homeless 
  veterans with dependent children in carrying out homeless veterans 
            reintegration programs, and for other purposes.

    DOL is committed to the Administration's goal of ending 
homelessness among veterans. Our Homeless Veterans' Reintegration 
Program (HVRP) addresses unemployment among one of the most vulnerable 
veteran populations, those who are homeless. The Veterans' Employment 
and Training Service (VETS) administers the HVRP to provide job 
training, counseling, and placement services to homeless veterans so 
that they can be reintegrated into the labor force. The HVRP is the 
only nationwide federal program focusing exclusively on helping 
homeless veterans to reintegrate into the workforce.
    In the last full program year, VETS' HVRP grantees placed 69% of 
the veterans they served into employment. The President's Fiscal Year 
(FY) 2017 Budget includes a nearly $12 million increase for HVRP and 
related programs, from $38.1M to $50M. If Congress increases the HVRP 
appropriation to $50 million, VETS estimates the number of homeless 
veterans served could increase from about 17,000 to approximately 
22,000.
    Beginning in Program Year 2016 (July 1, 2016), VETS is requiring 
all grantees serving homeless veterans to enroll participants in the 
public workforce system through the local American Job Center (AJC) 
while they are receiving services through VETS' homeless veterans' 
program grantees. The expectation is to create a sustainable 
partnership in which participants' full range of employment needs are 
met. The heart of the public workforce system is the AJC, the access 
point for employers to find qualified workers and the access point for 
veterans to acquire the employment and related services they need to 
find meaningful employment.
    H.R. 5407 would require DOL to prioritize homeless veterans with 
dependent children for HVRP services. The bill also would impose new 
biennial reporting requirements on DOL. Specifically, in addition to 
the HVRP information currently required to be provided to the Congress, 
H.R. 5407 would require DOL to analyze and report on ``any gaps in 
access to shelter, safety, and services for homeless veterans with 
dependent children,'' as well as recommendations for improving any such 
gaps.
    We absolutely agree that we must be doing everything we can to 
support homeless veterans with dependent children, and we take very 
seriously any concerns that homeless veterans with dependent children 
may not be receiving the services they deserve. DOL would welcome the 
opportunity to discuss H.R. 5407 further with the Committee and work 
together to jointly identify any gaps in service that this legislation 
is meant to address. Of importance, an Impact Evaluation of the HVRP is 
scheduled to begin in 2016 that will further help inform our efforts. 
The purpose of the evaluation is three-fold: To document the types of 
services and support offered by the grantees; to identify potentially 
promising practices or models; and to conduct a statistical analysis of 
administrative data collected by the grantees and other data on job 
placement and other outcomes of interest.
    Regarding the additional reporting requirements established under 
section 1(b) of the bill, VETS' mission is to prepare America's 
veterans, Service members and their spouses for meaningful careers, 
provide them with employment resources and expertise, protect their 
employment rights and promote their employment opportunities. As this 
Committee is aware, VETS administers the HVRP to provide employment and 
training services to homeless veterans. We would welcome the 
opportunity to discuss further with the Committee along with our VA and 
Department of Housing and Urban Development colleagues how best to 
appropriately measure gaps in shelter access for homeless veterans with 
dependent children, or their safety, or to make recommendations on how 
best to address such gaps. There are a number of Federal, state and 
local entities that provide services in this area and the Department 
may not solely be the best entity to do this reporting. Additionally, 
any new reporting requirements will mean increased costs for the 
Department and the bill does not authorize any additional funding for 
the collection and evaluation of this additional data.
 H.R. 5047, the ``Protecting Veterans' Educational Choice Act of 2016"
    H.R. 5047 would ``direct the Secretary of Veterans Affairs and the 
Secretary of Labor to provide information to veterans and members of 
the Armed Forces about articulation agreements between institutions of 
higher learning.'' The bill is intended to assist veterans in making 
informed decisions regarding the use of their Post-9/11 GI Bill 
benefits. To that end, the bill would require VA counselors who provide 
educational or vocational counseling services to give eligible veterans 
who seek such counseling information about articulation agreements, 
governing the transfer of credits, which are in place between schools 
in which the veteran is interested.
    DOL is proud to have a record of closely coordinating with our 
interagency partners, most notably on the Transition Assistance 
Program. DOL also works closely with VA on vocational rehabilitation 
programs through a Memorandum of Understanding.
    Like VA, DOL supports the intent of this bill. However, we are 
concerned that DOL's responsibilities under H.R. 5047 are unclear. 
Although the Secretary of Labor is mentioned in the bill titles, the 
substantive provisions only address VA's responsibilities. 
Consequently, it is difficult for DOL to analyze what implementation 
issues, if any, may exist. If the intent of the bill is to require DOL 
to assist VA in establishing a comprehensive database of articulation 
agreements, we have concerns about the cost of this endeavor. 
Nonetheless, should H.R. 5047 become law, we will work with VA, as 
directed, to help ensure that veterans have the information they need 
to make educational decisions that will put them on a path toward 
meaningful civilian employment.
    I thank the Committee for your commitment to our nation's veterans 
and for the opportunity to submit this statement for the record.

                                 
                  Questions And Answers For The Record
                               FROM NOVA
    The Honorable Jeff Miller
    Chairman
    U.S. House of Representatives
    Committee on Veterans' Affairs
    335 Cannon House Office Building
    Washington, DC 20515

    July 1, 2016

    RE: Response to Hearing Questions dated June 23, 2016

    Dear Chairman Miller:

    The National Organization of Veterans' Advocates, Inc. (NOVA) 
thanks you for the opportunity to answer the questions posed in your 
June 23, 2016 letter following the legislative hearing that included 
consideration of H.R. 5083.

    1. Can reform -be it appeals reform or any reform -be successful 
without

    The appeals reform being proposed in H.R. 5083 cannot be successful 
without VA being held accountable. Neither the current appeals system 
nor the currently- proposed system contains provisions to address 
accountability on the part of VA. While a veteran has set deadlines 
within which to complete each step of an appeal, VA has no such 
comparable deadlines, much less consequences or sanctions for 
unreasonable delays.
    As demonstrated with the prior backlog of original claims and 
scheduling of medical appointments, VA often struggles to meet its own 
internal goals to the detriment of veterans. By setting expectations 
and failing to meet them, VA causes unnecessary distress and anxiety in 
the veterans it is committed to serve. The success of the proposed 
reform hinges on the ability of VA to process claims accurately within 
the stated goal of 125 days and the ability of the Board of Veterans' 
Appeals (BVA) to process non-hearing appeals within one year.
    Congress should require case processing timeline goals for those 
who chose to submit evidence or request a hearing. Furthermore, there 
needs to be accurate and transparent data gathered to measure whether 
VA delivers on its promises, with meaningful consequences when it fails 
to meet the accuracy and timeline standards.
    Similarly, to ensure all veterans are treated fairly, there must be 
transparency in how any case docket is being managed and how legacy 
appeals are resolved. Without such measures, the process cannot be 
timely, fair, easy to understand, transparent, and preserve veterans' 
rights - VA's stated goals in addressing reform. For example, without 
clear docket standards, VA could work cases in its preferred lanes 
while other veterans wait, and subsequently produce data to support a 
predetermined outcome.

    2. If H.R. 5083 advances as drafted, would your organization 
support or oppose it as is?

    NOVA would oppose H.R. 5083 as written. NOVA detailed its concerns 
with the bill in its June 23, 2016 statement. We maintain changes are 
necessary to ensure adequate preservation of veterans' legal rights. As 
noted, among other things, the bill could adversely affect the 
veteran's right of appeal to the United States Court of Appeals for 
Veterans Claims (CAVC), does not provide sufficient detail regarding 
docket management, and does not address the resolution of pending 
appeals. Recognizing the legislative process does not guarantee 
favorable resolution of all stakeholders' concerns, NOVA maintains 
there are still too many unresolved issues that prevent our 
organization from unequivocally supporting the bill as currently 
written.
    Furthermore, VA overstates the level of stakeholder consensus. This 
overstatement was apparent in the oral and written testimony presented 
to this Committee at the June 23, 2016 hearing.
    Numerous stakeholders noted multiple areas of concern, clearly 
indicating less than full consensus with VA' s plan. In addition, while 
VA included a wider range of stakeholders in the ``appeals summit'' 
meetings, to include NOVA, it limited participation to the ``Big 6'' 
group of VSOs in at least three follow-up meetings as it considered the 
critical issues of staffing and fair resolution of existing appeals. 
Given that attorneys and agents now represent nearly 15 percent of 
appeals before BVA (according to BVA's 2015 Annual Report) and provide 
the majority of representation before the CAVC, exclusion of the legal 
organization stakeholders is short sighted and ultimately mutes the 
voice of veterans who choose this form of representation.
    Thank you for your consideration of our responses. Should you 
require additional information, please do not hesitate to contact me at 
202.587.5708 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dccad9cddaddcaf8ceddccd9dcced7dbd9ccddcb96d7cadf96">[email&#160;protected]</a>

    Sincerely,

    Diane Boyd Rauber
    Executive Director


                                 
                               FROM MOAA
    1. Can reform - be it appeals reform or any reform - be successful 
without accountability?

    No, MOAA does not believe reform can be successful without at least 
some type of accountability.
    Absent some manner of demonstrating acceptable outcomes have been 
achieved by a government agency, reform bills offer little chance of 
success. Absence of accountability undermines the confidence of the 
American public in the ability of elected officials to govern 
effectively.
    Accountability should be outcome-determinative. That is, 
accountability mechanisms should be based on achieving the desired 
outcome rather than on the steps taken to reach that outcome.

    2. If H.R. 5083 advances as drafted, would your organization 
support or oppose it as is?

    If no other reform option is to be considered, MOAA would support 
H.R. 5083, albeit with reservation. There are other reform options that 
would improve the VA disability claims process, and MOAA urges Congress 
not to limit the scope to merely this one option presented by the 
Department of Veterans Affairs.
    As drafted, the legislation fundamentally alters the veteran-
friendly nature of the VA claims system, makes a vast majority of the 
process adversarial (requiring veterans to seek legal representation), 
and significantly burdens veterans. MOAA does not believe shifting 
responsibility to veterans and away from the government is a move in 
the right direction. Veterans have already fulfilled their end of the 
bargain to the government, and this is the time for the government to 
fulfill its reciprocal commitment to the veteran.
    H.R. 5083 seriously abridges the rights of veterans in favor of 
greater administrative efficiencies at the Department of Veterans 
Affairs. MOAA supports elimination of useless procedural steps in the 
VA claims process, which this legislation accomplishes. However, we do 
not believe it is right to force the veteran to litigate against the 
Department of Veterans Affairs as a matter of course.
    Eliminating the redundancy of requiring a veteran to file both a 
Notice of Disagreement and Appeal to the Board of Veterans' Appeals 
makes sense. Eliminating the Statement of the Case in favor of a 
subsequent rating decision makes sense. Eliminating the government's 
duty to assist a veteran beyond the initial ratings decision does not 
make sense, because veterans are almost always unable to identify and 
articulate all evidence and sources of information in an initial 
disability claim.

                                 
                        FROM THE AMERICAN LEGION
    Responses from The American Legion to Questions For the Record 
based on the testimony for the June 23rd 2016 Committee on Veterans' 
Affairs Legislative Hearing: Dated 6/23/2016

    1.Can reform - be it appeals reform or any reform - be successful 
without accountability?

    The American Legion thanks the Committee for this question, and the 
answer goes much deeper than reform. The essence of the word reform is 
new, and the accountability enforcement needed by VA is anything but 
new.
    The American Legion stands firm by our position that VA has a 
responsibility to veterans, to taxpayers, and the employees of the 
Department of Veterans Affairs to maintain strong accountability for 
employee actions and constant oversight of work ethic, all while being 
an expert steward of the taxpayer's money.
    Every employee deserves to be treated impartially and fair, they 
also deserve to be rewarded and recognized when performing above 
standard. On the other hand, substandard performance, poor judgment, 
toxic attitudes, and bad behavior require swift action and appropriate 
consequences. Criminal behavior should always be reported to the legal 
authorities, and any criminal activity participated in, or conducted by 
an active employee of VA while being paid to care for or serve 
veterans, should be met with immediate dismissal.
    The American Legion believes that the Secretary, and his or her 
authorized representative should have the authority to make those 
decisions, as needed, with the Secretary being the ultimate arbitrator 
of any disagreement of opinion or appeal.
    Neither reform, nor successful daily operations of a well-
functioning Department of Veterans Affairs can be absent sufficient 
accountability and the authority to carry it out.
    The American Legion supports any reform measure that will give the 
Secretary the authority to hire or remove any employee they see fit, 
without having to have his or her decision questioned by any third 
party arbitrator. VA employees should have access and are welcomed to 
all of the remedies available to any other employee for situations 
where they have been genuinely wronged. Those options include, but are 
not limited to The Department of Labor, and the civil court systems.
    An argument we commonly hear involves political retribution 
firings. The likelihood of a political firing is so remote, that it is 
not worth upending the entire system to protect against. Also, if an 
employee is a political hire, they exist in an environment where they 
can be terminated for the same political reasons. If not a political 
hire, then they would enjoy the same protections every other American 
worker enjoys, as stated above.

    2.If H.R. 5083 advances as drafted, would your organization support 
or oppose it as is?

    The American Legion would SUPPORT H.R. 5083 as-is.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
